<html>
<title> - PLANT BIOTECHNOLOGY RESEARCH AND DEVELOPMENT IN AFRICA: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                      PLANT BIOTECHNOLOGY RESEARCH
                       AND DEVELOPMENT IN AFRICA:
                      CHALLENGES AND OPPORTUNITIES
=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2003

                               __________

                           Serial No. 108-16

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______








                       U. S. GOVERNMENT PRINTING OFFICE
87-547                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
                                 ------                                

                        Subcommittee on Research

                     NICK SMITH, Michigan, Chairman
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
FRANK D. LUCAS, Oklahoma             DENNIS A. CARDOZA, California
W. TODD AKIN, Missouri               BRAD SHERMAN, California
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
JOHN SULLIVAN, Oklahoma              SHEILA JACKSON LEE, Texas
PHIL GINGREY, Georgia                RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                PETER ROONEY Subcommittee Staff Director
              DAN BYERS Professional Staff Member/Designee
            JIM WILSON Democratic Professional Staff Member
        ELIZABETH GROSSMAN, KARA HAAS Professional Staff Members
                     JEREMY JOHNSON Staff Assistant




                            C O N T E N T S

                             June 12, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..    15
    Written Statement............................................    16

Statement by Representative Eddie Bernice Johnson, Minority 
  Ranking Member, Subcommittee on Research, Committee on Science, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    15

                                Panel 1:

Honorable J. Dennis Hastert, Speaker of the House, U.S. House of 
  Representatives
    Oral Statement...............................................     9
    Written Statement............................................    11

                                Panel 2:

Dr. Rita R. Colwell, Director, National Science Foundation
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    23

Honorable Andrew S. Natsios, Administrator, U.S. Agency for 
  International Development
    Oral Statement...............................................    23
    Written Statement............................................    27
    Biography....................................................    32

Discussion.......................................................    32

                                Panel 3:

Dr. Gordon Conway, President, Rockefeller Foundation
    Oral Statement...............................................    43
    Written Statement............................................    45
    Biography....................................................    46
    Financial Disclosure.........................................    48

Dr. John Kilama, President, Global Bioscience Development 
  Institute
    Oral Statement...............................................    48
    Written Statement............................................    51
    Biography....................................................    57
    Financial Disclosure.........................................    60

Dr. Robert B. Horsch, Vice President, Product and Technology 
  Cooperation for Monsanto
    Oral Statement...............................................    61
    Written Statement............................................    62
    Biography....................................................    69
    Financial Disclosure.........................................    71

Discussion.......................................................    72

             Appendix 1: Answers to Post-Hearing Questions

Dr. Rita R. Colwell, Director, National Science Foundation.......    82

             Appendix 2: Additional Material for the Record

Statement of Thembeitshe Joseph (TJ) Buthelezi...................    84

An African Agricultural Biotechnology Portfolio..................    86

U.S. Universities Working with USAID on Agriculture in Africa....    87


PLANT BIOTECHNOLOGY RESEARCH AND DEVELOPMENT IN AFRICA: CHALLENGES AND 
                             OPPORTUNITIES

                              ----------                              


                        THURSDAY, JUNE 12, 2003

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:20 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick Smith 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      Plant Biotechnology Research

                       and Development in Africa:

                      Challenges and Opportunities

                        thursday, june 12, 2003
                         10:15 a.m.-12:30 p.m.
                   2318 rayburn house office building

1. PURPOSE

    On Thursday, June 12, 2003, the House Science Committee will hold a 
hearing to examine plant biotechnology research and development 
activities relevant to African food crops and the challenges and 
opportunities involved in these activities.

2. WITNESSES

Panel I

The Honorable J. Dennis Hastert is Speaker of the U.S. House of 
Representatives.
Panel II

Dr. Rita R. Colwell is Director of the National Science Foundation 
(NSF). Before joining the Foundation, Dr. Colwell served as President 
of the University of Maryland Biotechnology Institute and Professor of 
Microbiology at the University Maryland. She was also a member of the 
National Science Board from 1984 to 1990.

The Honorable Andrew Natsios is Administrator of the U.S. Agency for 
International Development (USAID), the lead U.S. government agency for 
economic and humanitarian assistance. In addition to his duties as 
administrator of USAID, Natsios serves as the President's Special 
Coordinator for International Disaster Assistance and Special 
Humanitarian Coordinator for the Sudan. Before assuming the lead 
position at USAID, Natsios served the agency as director of the Office 
of Foreign Disaster Assistance and assistant administrator for the 
Bureau for Food and Humanitarian Assistance.
Panel III

Dr. Gordon Conway is President of the Rockefeller Foundation, a New 
York-based charity dedicated to improving food security around the 
world. Dr. Conway's previous positions include Vice-Chancellor of the 
University of Sussex (England) and Director of the sustainable 
agriculture program of the International Institute for Environment and 
Development in London. He has authored Unwelcome Harvest: Agriculture 
and Pollution (1991) and The Doubly Green Revolution: Food for All in 
the 21st Century (1999).

Dr. John Kilama is President of the Global Bioscience Development 
Institute, a firm providing training and consulting to policy-makers in 
developing countries on biotechnology regulation, intellectual property 
rights, and international trade development. His background is in 
pharmaceutical and agricultural biotechnology and agrochemistry. 
Previously, Dr. Kilama worked at the DuPont Company, specializing in 
developing chemicals for crop protection and establishing 
collaborations between DuPont and institutions in developing countries.

Dr. Robert B. Horsch is Vice President of Product and Technology 
Cooperation for Monsanto Corporation. He led the company's plant tissue 
culture and transformation efforts, contributing to the development of 
the Bollgard, YieldGard, and Roundup Ready traits in broad use today. 
Dr. Horsch received the Presidential Medal of Technology in 1999 for 
his contributions to the development of agricultural biotechnology. He 
is a member of the Private Sector Committee of the Consultative Group 
for International Agricultural Research (CGIAR) and the United Nations 
Millennium Project Task Force on Hunger.

3. OVERARCHING QUESTIONS

    The hearing will address the following overarching questions:

        <bullet> LWhat is the status of plant biotechnology research 
        efforts in Africa, what research opportunities are the most 
        promising, and what barriers to progress exist in this area?

        <bullet> LWhat is the scope and structure of U.S. support for 
        plant biotechnology research and development in Africa? What 
        activities are private organizations such as the Rockefeller 
        Foundation and the Monsanto Corporation supporting?

        <bullet> LHow are agencies such as the National Science 
        Foundation (NSF), U.S. Agency for International Development 
        (USAID), and U.S. Department of Agriculture (USDA) working 
        together to coordinate research programs and promote the 
        dissemination of accurate scientific information on plant 
        biotechnology? How are they coordinating with each other, with 
        industry, and with non-governmental organizations to better 
        meet overall goals of reducing hunger and fostering 
        agricultural sustainability?

4. BRIEF OVERVIEW

        <bullet> LGenetically modified (GM) crops, which involve the 
        transfer of genes from one organism to another, were first 
        introduced in the United States in the mid-1990s. They have 
        expanded rapidly but in a limited number of countries. In 2002, 
        they were planted on 140 million acres in 16 countries. The 
        primary crops grown are insect-resistant cotton and corn, and 
        herbicide-tolerant soybeans.

        <bullet> LPlant biotechnology holds tremendous promise to 
        contribute to improved food security in sub-Saharan Africa, 
        where 190 million people are undernourished. It is estimated 
        that even a one percent increase in agricultural productivity 
        in Africa could bring six million people out of poverty.

        <bullet> LHowever, for a variety of complex reasons, including 
        trade concerns, the lack of an adequate regulatory structure 
        and resources, and the fact that much of the biotech research 
        and development has focused on crops that are not suitable for 
        African crop systems, most countries in Africa have not yet 
        benefited from biotech crops. To date, adoption has primarily 
        been limited to South Africa and Kenya.

        <bullet> LThe U.S. government, through agencies such as USAID, 
        NSF, and USDA, supports several research, development, and 
        outreach programs related to plant biotechnology in Africa. 
        Last December, President Bush signed into law the National 
        Science Foundation Authorization Act of 2002 (P.L. 107-368), 
        which authorized NSF to establish a grant program for Plant 
        Biotechnology Partnerships for the Developing World.

        <bullet> LNon-governmental organizations (NGOs) and private 
        industry, led by the Rockefeller Foundation and Monsanto, 
        respectively, are also active supporters of advancing plant 
        biotechnology in Africa. The Rockefeller Foundation recently 
        announced a new initiative with USAID and several agriculture 
        companies, the African Agricultural Technology Foundation, 
        which will work to arrange intellectual property agreements to 
        encourage more biotech research on crops suitable to Africa.

5. BACKGROUND

Status of Plant Biotechnology Outside of Africa
    The first GM crops became commercially available in the United 
States in the mid-1990s. In less than a decade, their adoption has been 
extremely rapid, and the area of U.S. crop land planted with GM crops 
has grown from just two million acres in 1995 to 100 million in 2002. 
This includes 69, 68, and 26 percent of the cotton, soybean, and corn 
acreage in America, respectively. Today, 12 varieties of various crops 
are approved for commercial production in the U.S. Most of these 
varieties offer one of two primary types of improved traits over their 
traditional predecessors: insect resistance or herbicide tolerance.
    Worldwide, a total of 140 million acres of GM crops were planted in 
2002 (a 12 percent increase over 2001) in 15 nations in addition to the 
U.S., including (in approximate order of decreasing acreage) Argentina, 
Canada, China, Bulgaria, Colombia, Germany, Honduras, India, Mexico, 
Romania, South Africa, Spain and Uruguay.
Status of Plant Biotechnology in Africa
    Many people believe that modern biotechnology holds great promise 
to provide Africa with the means to achieve the food security that the 
Green Revolution (the dramatic increase in agricultural productivity 
during the 1960s) did not supply. Recent studies have estimated that a 
one percent increase in agricultural productivity could reduce poverty 
by six million people in Africa. One of the most promising tools on the 
horizon to realize these productivity increases is plant biotechnology. 
However, for a variety of complex reasons, including trade concerns and 
the lack of an adequate regulatory structure, a shortage of resources, 
and the lack of available crop varieties suitable to African climate 
and cropping systems, adoption of transgenic crops in Africa has been 
very limited.
    The nation of South Africa, with relatively strong government 
support, more resources and a stronger regulatory structure (and less 
reliance on Europe as a trading partner), has by far led the continent 
in development and adoption of biotech crops. Four types of GM crops 
are approved for commercial use in the country: insect-resistant 
cotton, herbicide-tolerant soybeans, and two kinds (white and yellow) 
of insect resistant maize. South African farmers have generally 
embraced these biotech crops, and their use has expanded rapidly. 
Almost 200,000 hectares were planted with GM crops in the 2001/2002 
summer season. A survey of small farmers in the Makhatini flats of 
Kwazulu Natal in South Africa showed farmers that planted transgenic 
cotton experienced increased yields of 33 percent, saved an average of 
six pesticide sprays per year, and had a 27 percent increase in net 
income.
    South Africa also has the strongest plant biotechnology research 
effort in Africa. The government has developed and approved a National 
Biotechnology Strategy for the country to stimulate growth and 
investment in this sector, and has also passed a national biosafety 
framework to establish acceptable standards for research and risk 
assessment related to biotechnology (including pharmaceuticals). 
Biotech research efforts are focused on development of transgenic 
grains (maize, sorghum, millet, and barley) and fruits (citrus, mango, 
and banana).
    Kenya also has a significant biotechnology research program through 
the Kenyan Agricultural Research Institute (KARI), which works in 
coordination with USAID, private industry, and non-governmental 
organizations. This program has developed draft biosafety regulations 
and guidelines for the growing biotechnology industry, and has also 
successfully developed new varieties of crops important to Kenyan 
farmers. One example is a new variety of sweet potato which is 
resistant to the feathery mottle virus that used to destroy 60 percent 
of the crop each year. The new variety not only increased yields, but 
it also dramatically reduced input costs by reducing the amount of 
pesticides farmers need to use. (Kenyan farmers typically used to spend 
30 percent of production costs on pest control.) KARI also successfully 
developed transgenic banana varieties through its research program. In 
1997, farmers began planting the bananas in a farm community about 75 
km north of Nairobi. By 2000, average yields in the community had risen 
from 10 tons per hectare to 40-50 tons per hectare.
Safety Concerns and Trade of Biotech Crops
    Notwithstanding the potentially large benefits of plant 
biotechnology for Africa, risks and uncertainties do exist related to 
the safety of transgenic crops. While earlier fears that GM foods are 
not safe for consumption have largely been eased (70 percent of food in 
U.S. supermarkets contains genetically modified material), questions 
still remain about the long-term impact of transgenic crops on 
biodiversity and the environment. The most notable of these questions 
are how and how often transgenic genes to ``jump'' to other species and 
whether these genes have a significant negative impact on ecosystems 
and/or human health.
    The debate over these safety risks has sparked worldwide 
controversy. The European Union (EU) has cited these concerns as its 
reason for not processing new applications of GM crops for importation. 
The U.S. has argued that the moratorium on new applications is not 
based on sound science, and on May 13, 2003, initiated a World Trade 
Organization (WTO) challenge to the EU position. The U.S. has also 
argued that, because of their dependency on Europe as a trading 
partner, the EU position has caused many African nations to shun plant 
biotechnology.
U.S. Support of Plant Biotechnology in Africa

        <bullet> LNational Science Foundation (NSF)

    NSF has long been at the forefront of research aimed at better 
understanding the molecular, genetic, and biochemical nature of plants. 
Developments based on this research have driven progress in plant 
biotechnology--and thus are of tremendous interest to the agricultural 
community. In keeping with the agency's mission of basic research and 
expansion of knowledge, NSF-funded research in this area has focused 
primarily on improving understanding of the fundamental biology and 
genomic composition of plants.
    One area of particular focus for NSF has been study of the plant 
Arabidopsis thaliana, which is a relative of plants such as broccoli 
and cauliflower. A model organism for plant biology studies, 
Arabidopsis has been researched by scientists for many years, and an 
effort to sequence the entire Arabidopsis genome--analogous in many 
ways to the Human Genome Project--was completed in December 2000. That 
effort, part of NSF's Plant Genome Research Program, involved the work 
of a consortium of scientists from six different countries. NSF led the 
effort for the United States with support from USDA and the Department 
of Energy (DOE).
    While having the complete DNA sequence of an organism is an 
important step in understanding how that organism functions, just 
knowing the sequence of all of an organism's genes is not enough to 
gain a full understanding of the organism. Central to scientists' 
efforts to better understand plants is a clearer understanding of what 
individual genes in the organism actually do--information that cannot 
be derived from DNA sequences alone. NSF recently launched a research 
program to determine the functions of all 25,000 Arabidopsis genes--the 
``2010 Project,'' which began in FY 2001. Better understanding the 
specific roles of various plant genes and how they contribute to the 
overall function of the plant provides the foundation for all aspects 
of plant biotechnology.
    Building on NSF programs to answer these fundamental questions, 
Representatives Smith (MI) and Johnson (TX) authored legislation in the 
107th Congress, H.R. 2051, establishing new research programs at the 
National Science Foundation, including one that directs NSF to award 
grants for research partnerships focused on the developing world. This 
legislation was passed by the House, and later included in the NSF 
authorization bill that was signed by the President last December (P.L. 
107-368). This committee expects the program to be developed and 
implemented through NSF's Plant Genome Research Subactivity in the 
Biological Sciences Directorate. This Subactivity received $75 million 
in funding in fiscal year (FY) 2003, and the FY 2004 request for the 
program was also $75 million.

        <bullet> LUnited States Agency for International Development 
        (USAID)

    USAID's agriculture strategy aims to stimulate economic growth and 
food security by increasing agricultural productivity. To that end, 
USAID has been involved in agricultural biotechnology for more than a 
decade as a way to reduce hunger and to combat malnutrition. To realize 
the promise of biotechnology, USAID supports research, informs 
decision-makers, helps countries formulate regulations, and funds 
public outreach to promote the safe use of biotechnology in developing 
countries.
            Initiative to End Hunger in Africa (IEHA)
    As part of that effort, USAID formally launched IEHA, a multi-year 
effort to cut hunger in African in half by 2015, at the World Summit on 
Sustainable Development in 2002. IEHA seeks to accomplish that goal by 
decreasing Africa's dependence on food aid by $2.6 billion, laying the 
foundation for sustainable economic growth, rapidly increasing 
agricultural productivity and building African-led partnerships to 
address the problems of famine and poverty.
    Adapting technology to local needs is a substantial component of 
the IEHA. Specifically, the IEHA partners, which include the U.S., 
Canada, the EU, Germany, Mali, Mozambique and Uganda and other 
organizations and societies, have created a continent-wide Technology 
Access Fund to make new crop technologies, including biotechnology, 
available to all African farmers. IEHA also has developed the 
Technology Applications for Rural Growth and Economic Transformation 
program to adapt and disseminate technologies that can improve African 
agriculture through crop and livestock management and other activities. 
The initiative also has launched two regional and five country-specific 
integrated biotechnology systems development programs to create a new 
partnership to expand the use of biotechnology applications in Africa. 
Moreover, IEHA is helping to further these and other biotechnology 
efforts by creating and linking International Agriculture Research 
Centers with 10 U.S. and African universities and research centers, 
thereby increasing investment on research aimed at ways to fight 
drought, disease and pests and facilitating exchanges.
    To launch IEHA, the President requested and received an increase of 
25 percent in the USAID annual budget to support agricultural 
development efforts in Africa. This effort builds on existing programs 
on the continent and, as a result, USAID funding has grown from $113 
million in FY 2001, to $137 million in FY 2002, to $164 in FY 2003 in 
sub-Saharan Africa. For FY 2004, the President has requested $159 
million, of which approximately 30 percent, or $55-$60 million, is 
expected to be allocated for technology, including biotechnology.

        <bullet> LRockefeller Foundation

    The Rockefeller Foundation is a New York-based global charity 
established in 1913 with the stated commitment to ``enrich and sustain 
the lives and livelihoods of poor and excluded people throughout the 
world.'' Rockefeller's activities focus on four thematic lines of work: 
Creativity and Culture, Food Security, Health Equity, and Working 
Communities.
    With regard to Food Security, the Rockefeller Foundation has a goal 
to cut global poverty and hunger in half by 2013. This effort includes 
a variety of research and other grant-making activities, some of which 
focus on plant biotechnology.
    The African Agricultural Technology Foundation (AATF), a new 
initiative led by the Rockefeller Foundation was announced in early 
2003 in collaboration with USAID and agriculture companies Monsanto, 
Syngenta, Dow, and DuPont. One of the goals of the AATF is to find 
solutions to the complex intellectual property arrangements that often 
hamper plant biotech research and development in Africa. In addition to 
certain patent rights, the companies will donate seed varieties, 
laboratory expertise, and other aid to African scientists working to 
battle plant diseases, insects, and drought. The AATF will have a $2.5 
million operating budget that includes $1 million from the Rockefeller 
Foundation and $550,000 from USAID.

6. WITNESS QUESTIONS

Panel I
    No questions for Speaker Hastert.
Panel II
    The witnesses were asked to address the following questions in 
their testimony:

Questions for Dr. Rita R. Colwell

        <bullet> LWhat is the status of implementation of the Plant 
        Biotechnology Partnerships for the Developing World program 
        authorized by Section 8(c) of last year's NSF authorization 
        legislation (P.L. 107-368)? How can NSF leverage the activities 
        of this program with those of other government agencies, non-
        governmental organizations, and private industry to maximize 
        the success of these efforts?

        <bullet> LHow does NSF coordinate support of these research 
        activities with other federal agencies involved in this effort, 
        such as the U.S. Agency for International Development and the 
        U.S. Department of Agriculture?

        <bullet> LWhat other fundamental research on plant genomics 
        specifically related to food crops grown in Africa does the NSF 
        Plant Genome Research Program support? What countries and 
        cropping systems does this research focus on and why? What 
        areas of plant biotechnology research carried out in Africa 
        hold the most promise to improve food security and foster 
        sustainable agriculture in Africa?

Questions for Mr. Andrew Natsios

        <bullet> LWhat is the current scope and structure of the U.S. 
        Agency for International Development's (USAID) support for 
        plant biotechnology research carried out in Africa (including 
        specific budget information)? In addition to research, what 
        other activities aimed at advancing development and adoption of 
        plant biotechnology in Africa does USAID support? How does 
        USAID coordinate these activities with other federal agencies 
        involved in this effort, such as the National Science 
        Foundation and the U.S. Department of Agriculture?

        <bullet> LWhat areas of plant biotechnology research hold the 
        most promise to improve food security and foster sustainable 
        agriculture in Africa? What are the primary impediments to 
        advancing this research and development, and how can these 
        barriers be lifted?

        <bullet> LDescribe the Administration's recently announced 
        Initiative to End Hunger in Africa (IEHA). How are scientific 
        and technological solutions to hunger such as plant 
        biotechnology are integrated into the IEHA plan? Please also 
        describe USAID's new Collaborative Agricultural Biotechnology 
        Initiative (CABIO) and how it is related to IEHA. What 
        countries and cropping systems are these initiatives focusing 
        on?

        <bullet> LWhat are the objectives and status of the recently 
        announced African Agricultural Technology Foundation (AATF) 
        partnership between USAID, the Rockefeller Foundation, 
        Monsanto, Dupont/Pioneer, Dow Agrosciences, Syngenta, and 
        Aventis? What is USAID's role and level of support in this 
        initiative?
Panel III

Questions for Dr. Gordon Conway

        <bullet> LWhat is the status of plant biotechnology research 
        and development carried out in Africa? What successes have been 
        achieved and what areas of research hold the most promise to 
        improve the lives of Africans in the future? What are the 
        primary impediments to advancing the use of biotechnology as a 
        tool to combat hunger and foster sustainable agriculture in 
        Africa?

        <bullet> LPlease describe the objectives and status of the 
        African Agricultural Technology Foundation (AATF). What is the 
        Rockefeller Foundation's role in this partnership with the U.S. 
        Agency for International Development (USAID) and private 
        industry? What countries and cropping systems is the initiative 
        focusing on and why?

        <bullet> LWhat can the Federal Government, specifically the 
        National Science Foundation, U.S. Agency for International 
        Development, and the U.S. Department of Agriculture, do to 
        improve coordination of plant biotechnology research carried 
        out in Africa? What countries and cropping systems should we be 
        focusing on to maximize the use of available resources? How can 
        these agencies best leverage their efforts with those of 
        private industry, universities (U.S. and African), African 
        governments, and non-governmental organizations?

Questions for Dr. John Kilama

        <bullet> LWhat is the status of plant biotechnology research 
        and development carried out in Africa? What successes have been 
        achieved, and what areas of research hold the most promise to 
        improve the lives of Africans in the future?

        <bullet> LWhat are the primary impediments to advancing the use 
        of biotechnology as a tool to combat hunger and foster 
        sustainable agriculture in Africa, and how can these barriers 
        be lifted? To what extent do you believe the European Union's 
        trade policy toward genetically modified crops has stalled 
        plant biotechnology research in Africa?

        <bullet> LWhat can the Federal Government, specifically the 
        National Science Foundation, U.S. Agency for International 
        Development, and the U.S. Department of Agriculture, do to 
        improve coordination of plant biotechnology research carried 
        out in Africa? What countries and cropping systems should we be 
        focusing on to maximize the use of available resources? How can 
        these agencies best leverage their efforts with those of 
        private industry, universities (U.S. and African), African 
        governments, and non-governmental organizations?

Questions for Dr. Robert B. Horsch

        <bullet> LWhat is the status of plant biotechnology research 
        and development carried out in Africa? What successes have been 
        achieved and what areas of research hold the most promise to 
        improve the lives of Africans in the future?

        <bullet> LHow is Monsanto working with non-governmental 
        organizations such as the Rockefeller Foundation to advance the 
        development and adoption of new crop varieties that will 
        benefit the people of Africa? How does Monsanto balance its 
        need to continue developing new and profitable products with 
        its desire to share intellectual property with developing 
        nations that could benefit from such property but do not have 
        the means to purchase it?

        <bullet> LWhat are the primary impediments to advancing the use 
        of biotechnology as a tool to combat hunger and foster 
        sustainable agriculture in Africa, and how can these barriers 
        be lifted? To what extent do you believe the European Union's 
        trade policy toward genetically modified crops has stalled 
        plant biotechnology research in Africa?

        <bullet> LWhat can the Federal Government, specifically the 
        National Science Foundation, U.S. Agency for International 
        Development, and the U.S. Department of Agriculture, do to 
        improve coordination of plant biotechnology research carried 
        out in Africa? What countries and cropping systems should we be 
        focusing on to maximize the use of available resources? How can 
        these agencies best leverage their efforts with those of 
        private industry, universities (U.S. and African), African 
        governments, and non-governmental organizations?

                                Panel 1

    Chairman Smith. The Subcommittee on Research will come to 
order. Our first witness will be the Speaker of the House, 
Dennis Hastert. Mr. Speaker, thank you very much for sharing 
your comments and enthusiasm on biotechnology. Mr. Johnson 
would like to make a comment acknowledging his service under 
you in your State.
    Mr. Johnson. It is just my honor as Vice Chair of the 
Committee, and as a former colleague, and as a member of the 
delegation to welcome the Speaker of the House to our presence, 
and really welcome your testimony, and appreciate your being 
here.
    Chairman Smith. Mr. Speaker, please proceed.

STATEMENT OF HONORABLE J. DENNIS HASTERT, SPEAKER OF THE HOUSE, 
                 U.S. HOUSE OF REPRESENTATIVES

    Speaker Hastert. Thank you. When Mr. Johnson talks about a 
former colleague, we were actually former colleagues in the 
Illinois General Assembly together, so now we are colleagues, 
and I am not announcing retirement or anything. I just wanted 
to make that perfectly clear.
    Mr. Johnson. I am not either.
    Speaker Hastert. Mr. Chairman, thank you, and Chairman of 
the Full Committee, thank you for your graciousness in allowing 
me to testify today on something I think is very important. You 
know, I think back--before I get into a formal presentation--I 
think back 15-16 years ago when I first came to Congress, and 
in that period of years, I served on the Commerce Committee, 
and you are always looking at the food safety issues. And 
constantly, we are talking about, you know, less fertilizer so 
we didn't contaminate our water supply, and we talked about let 
us use less herbicides so that we didn't have these 
contaminants, and less insecticides so that we could preserve 
not only the fauna that we have but the wildlife and those 
types of things. And you know, how can we make this ecology 
that we have better and safer and still carry on the essential 
process of agriculture that we have in this country.
    And one of the ways and solutions--I remember visiting 
Northern Illinois University where they were growing corn and 
making it resistant to fungus. And I thought it was amazing how 
you could just change those pieces of matter around, the genes 
in the corn, and produce something that is completely new, that 
could withstand a great deal, whether it might be drought, or 
different types of fungus attacks, or insecticide attacks, or 
corn borer, whatever it may be.
    So with that in mind, I just want to go back and say that 
as a representative of the 14th District of Illinois, my 
district currently covers portions--excuse me--of eight 
counties, which includes four of the top twenty-five corn 
producing counties and three of the top 50 soybean producing 
counties in the Nation. The State of Illinois is the second 
largest producing state of both corn and soybeans in the 
country, and 40 percent of this production currently goes to 
exports valued at approximately $2.7 billion per year.
    U.S. agriculture ranks among the top U.S. industries in 
export sales. In fact, the industry generated a $12 billion 
trade surplus in 2001, helping mitigate the growing merchandise 
trade deficit. It is important to realize, however, that 34 
percent of all corn acres and 75 percent of all soybean acres 
are genetically modified. And what exactly are we talking about 
when we say genetically modified? The EU and other countries 
would have you believe that this is a new and special type of 
food, questionable for human consumption. In fact, since the 
dawn of time, farmers and those who have used the sweat of 
their brow to use the earth and the soil to sustain themselves 
have been modifying plants to improve yields and to create new 
varieties resistant to pests and diseases. And why would we 
want to snuff out human ingenuity that benefits farmers and 
consumers alike?
    Such advancements have been achieved by taking plants with 
desirable traits and crossbreeding them. In fact, almost all of 
today's commercial crops are now distant cousins from the 
plants that first appeared in this country. Biotechnology is 
merely the next stage of development in this age old process. 
And if you were a junior high student or in the early years of 
high school and studying, basically, the basics of 
reproduction, you always had the lessons of Mendel and how he 
took certain flowers and crossbred them and came up with a 
different variety. I mean, this has been going on for ages and 
ages.
    With respect to biotechnology research, both agricultural 
and pharmaceutical, the U.S. has been an undisputed world 
leader. In fact, in my district alone, two research facilities 
that directly contribute to the efforts in assisting third 
world countries through the development of drought resistant 
varieties of agriculture products exist. Yet, over the last few 
years, we have seen country after country implementing 
protectionist trade policies under the cloak of food safety, 
each one brought on by emotion, culture, or their own poor 
industry or history with food safety regulation and technology.
    Among others, China has developed new rules for the 
approval and labeling of biotech products. An overwhelming 
portion of the entire $1 billion U.S. soybean export crop is 
genetically modified. Although implementation has been delayed, 
such a labeling program would certainly result in higher food 
costs for consumers and higher production costs for farmers. 
And of course, most troubling, American farmers have been 
subject to an indefensible 5-year moratorium imposed by the 
European Union on agriculture biotechnology. This is non-tariff 
barrier based simply on prejudice and misinformation, not sound 
science. In fact, their own scientists agree that genetically 
modified foods are safe.
    Simply put, this type of non-tariff protectionism is 
detrimental to the free movement of goods and services across 
borders. We all know that free trade benefits all countries. 
However, free trade will be rendered meaningless if it is short 
circuited by non-tariff barriers that are based on fear and 
conjecture, not science. In fact, there is general consensus 
among the scientific community that genetically modified food 
is no different from conventional food. What is different is 
not the content of the food but the process by which it is 
made. Even labeling genetically modified products would only 
mislead consumers and create an atmosphere of fear.
    I congratulate President Bush and Ambassador Zoellick for 
meeting this resistance head on and putting American farmers 
and sound science first by challenging the EU's illegal trade 
ban on genetically modified foods before the WTO. And I applaud 
Argentina and Canada for joining us in this critical effort to 
support a technology that holds colossal benefits for producers 
and consumers throughout the world. As part of this endeavor, 
it is also important for the public to know that the U.S. 
Government has safely regulated biotechnology since its 
inception over 30 years ago. And with the rapid evolution of 
plant biotechnology in the early 1980's, additional regulation 
was added. Ask any American farmer about Government regulation, 
and not one will tell you that they are under-regulated.
    Biotechnology products are screened by at least one, and 
often by as many as three Federal agencies. From conception to 
commercial introduction, it can take up to 10 years to bring a 
biotech variety to market. Throughout the process, the public 
has ample opportunity for participation and comment and data on 
which the regulatory decisions are based and readily available.
    Mr. Chairman, I am going to let the rest of my comment go 
to the record, but let me just say a couple of things. Some of 
you had the opportunity to travel, and some of them was with 
great pleasure to travel with me. A couple of years ago, we 
went to South Africa, and on that trip we went out to a farm 
just north of Johannesburg. And on that farm were native South 
Africans growing crops. Side by side, the traditional maize or 
corn that they would grow, and next to it, the maize or corn 
that had been genetically modified. It was genetically modified 
so it didn't--it was drought resistant. It was genetically 
modified so it would resist the corn borer or the worms that 
penetrate into the plant of the corn, and it used less 
fertilizer. The plants stood side by side; the same soil, the 
same farmer, the same environment. One plant was infested with 
worms, it stood about three feet tall. The plant next to it had 
a huge amount of grain compared to the first plant, it had no 
worms, it stood about eight feet tall and, you know, it was a 
product that people could have and, you know, they could 
nourish themselves.
    Today, when we see starvation, especially in some of our 
African countries, we see people who are artificially putting 
barriers or threats to us being able to move good healthy food 
products into those countries. In my view, that borders on 
genocide. It is wrong, it shouldn't happen, and we need to use 
our science, we need to use our technology, and we need to 
fight those folks who are trying to stop this good, healthy, 
nourishing food from going to countries that need it.
    I thank you in this committee for your passion to make sure 
that we can deliver the best products not only to just the 
American people, but all the people in this world, and holding 
this hearing today to make sure that this could move forward. 
Thank you very much, Mr. Chairman, and Mr. Chairman, and all 
members. I appreciate your indulgence and your kindness.
    [The prepared statement of Speaker Hastert follows:]
            Prepared Statement of Speaker J. Dennis Hastert
    Thank you Mr. Chairman for the opportunity to appear before the 
Committee today to comment on the future of biotechnology research. I 
appreciate your Committee's work on this important issue, and thank you 
for holding this hearing.
    As the Representative of the 14th District in Illinois, my district 
currently covers portions of eight counties, including four of the top 
25 corn-producing counties, and three of the top 50 soybean-producing 
counties in the nation. The State of Illinois is the second largest 
producing state of both corn and soybeans in the country. Forty percent 
of this production currently goes to exports, valued at approximately 
$2.7 billion per year.
    U.S. agriculture ranks among the top U.S. industries in export 
sales. In fact, the industry generated a $12 billion trade surplus in 
2001, helping mitigate the growing merchandise trade deficit. It is 
important to realize, however, that 34 percent of all corn acres and 75 
percent of all soybean acres are genetically modified.
    And what exactly are we talking about when we say ``genetically 
modified?'' The EU and other countries would have you believe this is a 
new and special type of food, questionable for human consumption. In 
fact, since the dawn of time, farmers have been modifying plants to 
improve yields and create new varieties resistant to pests and 
diseases. Why would we want to snuff out human ingenuity that benefits 
farmers and consumers alike?
    Such advancements have been achieved by taking plants with 
desirable traits and crossbreeding them. In fact, almost all of today's 
commercial crops are now distant cousins from the plants that first 
appeared in this country. Biotechnology is merely the next stage of 
development in this age-old process.
    With respect to biotechnology research, both agricultural and 
pharmaceutical, the U.S. has been the undisputed world leader. In fact, 
my district alone includes two research facilities that directly 
contribute to the efforts in assisting third world countries through 
the development of drought-resistant varieties of agricultural 
products.
    Yet, over the last few years we have seen country after country 
implementing protectionist trade policies under the cloak of food 
safety--each one brought on by emotion, culture, or their own poor 
history with food safety regulation.
    Among others, China has developed new rules for the approval and 
labeling of biotech products. An overwhelming portion of the entire $1 
billion U.S. soybean export crop is genetically modified. Although 
implementation has been delayed, such a labeling program would 
certainly result in higher food costs for consumers and higher 
production costs for farmers.
    And of course most troubling, American farmers have been subject to 
an indefensible five-year moratorium imposed by the European Union on 
agricultural biotechnology. This is a non-tariff barrier based simply 
on prejudice and misinformation, not sound science. In fact, their own 
scientists agree that genetically modified foods are safe.
    Simply put, this type of non-tariff protectionism is detrimental to 
the free movement of goods and services across borders. We all know 
that free trade benefits all countries. However, free trade will be 
rendered meaningless if it is short-circuited by non-tariff barriers 
that are based on fear and conjecture--not science.
    In fact, there is general consensus among the scientific community 
that genetically modified food is no different from conventional food. 
What's different is not the content of the food, but the process by 
which it is made. Even labeling genetically modified products would 
only mislead consumers and create an atmosphere of fear.
    I congratulate President Bush and Ambassador Zoellick for meeting 
this resistance head-on and putting American farmers and sound science 
first by challenging the EU's illegal trade ban on genetically modified 
foods before the WTO. And I applaud Argentina and Canada for joining us 
in this critical effort to support a technology that holds colossal 
benefits for producers and consumers throughout the world.
    As part of this endeavor, it's also important for the public to 
know that the U.S. government has safely regulated biotechnology since 
its inception over 30 years ago. And with the rapid evolution of plant 
biotechnology in the early 1980s, additional regulation was added. Ask 
any American farmer about government regulation and not one will tell 
you that they are under-regulated.
    Biotechnology products are screened by at least one, and often by 
as many as three, federal agencies. From conception to commercial 
introduction, it can take up to 10 years to bring a biotech variety to 
market. Throughout the process, the public has ample opportunity for 
participation and comment, and data on which regulatory decisions are 
based are readily available.
    Nevertheless, regardless of the overwhelming evidence to the 
contrary, we should all be concerned that this irrational policy is 
spreading. And, as a point of fact, the worldwide impact has been 
staggering.
    The current EU moratorium on genetically-modified products has 
translated into an annual loss of over $300 million in corn exports for 
U.S. farmers. More disturbing is the recent trend in Africa, where 
several nations have rejected U.S. food aid because the shipments 
contained biotech corn. This based solely on the fear that EU countries 
will not accept their food exports if genetically modified seeds spread 
to domestic crops.
    Specifically, Zambia, Zimbabwe and Mozambique refused U.S. food aid 
which consisted of biotech corn. Zimbabwe and Mozambique eventually 
accepted the aid, but only after making costly arrangements to mill the 
corn so African farmers could not try to grow it.
    In addition, it was recently reported that Sudan denied the entry 
of genetically-modified agricultural products as aid in relief camps. 
According to USAID, this will bring harm to around 97 percent of 
children living in relief camps--this is simply unconscionable.
    Furthermore, the Ugandan Government has refused to take advantage 
of biotech bananas because of fears that the EU will retaliate and 
refuse to buy their exports.
    Consequently, U.S. farmers are already beginning to plant more non-
biotech seeds. This trend will increase farmers' cost of production as 
well as increase the damage from harmful insects. In fact, the U.S. 
Environmental Protection Agency has recently approved a corn technology 
that will allow the commercialization of the first corn designed to 
control rootworm--a pest that costs U.S. farmers approximately $1 
billion in lost revenue per year. It is absurd to think that farmers 
would not be able to take advantage of this technology.
    Clearly, the long-term impact of these policies could be disastrous 
for U.S. farmers and research efforts in terms of competitiveness and 
the ability to provide food for the world's population. Addressing 
world hunger is particularly critical when approximately 800 million 
people are malnourished in the developing world, and another 100 
million go hungry each day. Biotechnology is the answer to this 
pressing problem. Farmers can produce better yields through drought-
tolerant varieties, which are rich in nutrients and more resistant to 
insects and weeds, while those in need reap the benefits.
    Halting or even slowing down the development of this technology 
could have dire consequences for countries where populations are 
growing rapidly and all arable land is already under cultivation.
    One would think that the European Union, and any country that has 
adopted similar protectionist policies, would embrace a technology with 
such promising advantages. Sadly, they have not. It has become clear, 
that only official WTO action will send a convincing message to the 
world that prohibitive policies on biotechnology, which are not based 
on sound science, are illegal.
    Hopefully, the WTO will act quickly to resolve the Administration's 
case on behalf of American farmers and ongoing research efforts. 
There's no doubt that the U.S. and American agriculture go into this 
battle with the facts on our side. We simply cannot allow the free 
trade of our agricultural products to be restricted by these unfair and 
unjust policies. After all, the price of inaction is one we can no 
longer afford to pay.

    Chairman Smith. Mr. Speaker, again, thank you very much. In 
fact, we included testimony from a farmer from South Africa, 
T.J. Buthelezi, that had the same experience that you 
described, so tremendous potential. Thank you very much, for 
what I think your presence here does today is add momentum to 
the fact that we have got to continue to move ahead on 
something that can tremendously help the world, especially, 
developing countries, and expand trade. So again, thank you 
very much.
    Speaker Hastert. Thank you. You are very kind. I appreciate 
it.
    Chairman Smith. We will proceed with the opening 
statements, and I would call on Mrs. Johnson first and then I 
will follow her.
    Ms. Johnson. Thank you very much, Mr. Chairman. I am 
pleased to join you in welcoming our witnesses and I was 
delighted to see the Speaker. I was on the trip with him when 
we went to Africa a couple of years ago. I think that the 
hearing on Plant Biotechnology Research and Development in 
Africa: Challenges and Opportunities is a good topic and will 
focus on how plant biotechnology research can aid in efforts to 
combat hunger in Sub-Saharan Africa.
    The world population has topped six billion people and is 
predicted to double in the next 50 years. Ensuring an adequate 
food supply for this booming population is going to be a major 
challenge in the years to come. However, in recent years, Sub-
Saharan Africa is the only region where agricultural output has 
fallen behind population growth. Food demand in this region has 
been expanding at an annul rate of 3.1 percent since the mid-
1980's.
    It is estimated that about 200 million people in Africa are 
chronically hungry. At least 25 percent of the world's 
undernourished people live in the region. Millions of Africans, 
mostly children under the age of six years, die every year as a 
result of hunger. Plant biotechnology research has the 
potential to help Sub-Saharan Africa increase food security and 
improve the quality and nutritional content of food. 
Additionally, biotechnology can also improve the health of 
citizens of developing countries by combating illness.
    Substantial progress has been made in the developed world 
on vaccines against life-threatening illnesses but, 
unfortunately, infrastructure limitations often hinder the 
effectiveness of traditional vaccination methods in some parts 
of the developing world. For example, many vaccines must be 
kept refrigerated until they are injected. Even if a health 
clinic has electricity and is able to deliver effective 
vaccines, the cost of multiple needles can hinder vaccination 
efforts. Additionally, the improper use of hypodermic needles 
can lead to HIV virus infection and the spread of the virus 
that causes AIDS. Biotechnology offers the prospect of orally 
delivering vaccines to immunize against life-threatening 
illnesses through agricultural products in a safe and effective 
manner.
    During the 107th Congress, we successfully created a 
competitive merit-based grant program at the National Science 
Foundation to conduct basic genomic research on crops that can 
be grown in developing countries. We believe that this program 
can make an invaluable contribution in the fight against 
hunger, malnutrition, and disease, by providing research grants 
to U.S. institutions and scientists in developing countries to 
address agricultural challenges. I hope we will learn more 
today about how the program will accomplish these goals, and 
also, whether or not we have launched this grant program.
    It is our hope that trade disputes between the United 
States, the European Union, and African countries do not 
prevent this promising technology from benefiting ordinary 
Africans facing ongoing food shortages due to agricultural 
challenges such as pests, drought, and disease. With increased 
investment in genetic engineering that targets specific food 
production challenges, the region may achieve what is necessary 
to build the basis for food security, reducing dependency on 
food aid.
    Again, I would like to thank you, Mr. Chairman, for holding 
this hearing, because I think it is a very important issue. In 
addition, I would like to thank all of those in attendance for 
appearing at what promises to be a very informative hearing. 
And perhaps, Mr. Chairman, when we finish the hearings, we can 
go look at some of the work. Thank you.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
today to this hearing on Plant Biotechnology Research and Development 
in Africa: Challenges and Opportunities. This hearing will focus on how 
plant biotechnology research can aid in efforts to combat hunger in 
Sub-Saharan Africa.
    The world population has topped six billion people and is predicted 
to double in the next 50 years. Ensuring an adequate food supply for 
this booming population is going to be a major challenge in the years 
to come.
    However, in recent years Sub-Saharan Africa is the only region 
where agricultural output has fallen behind population growth. Food 
demand in this region has been expanding at an annual rate of 3.1 
percent since the mid-1980s.
    It is estimated that about 200 million people in Africa are 
chronically hungry. At least 25 percent of the world's undernourished 
people live in this region. Millions of Africans, mostly children under 
the age of six years, die every year as a result of hunger.
    Plant biotechnology research has the potential to help Sub-Saharan 
Africa increase food security and improve the quality and nutritional 
content of food. Additionally, biotechnology can also improve the 
health of citizens of developing countries by combating illness. 
Substantial progress has been made in the developed world on vaccines 
against life-threatening illnesses, but, unfortunately, infrastructure 
limitations often hinder the effectiveness of traditional vaccination 
methods in some parts of the developing world. For example, many 
vaccines must be kept refrigerated until they are injected. Even if a 
health clinic has electricity and is able to deliver effective 
vaccines, the cost of multiple needles can hinder vaccination efforts. 
Additionally, the improper use of hypodermic needles can spread HIV, 
the virus that causes AIDS. Biotechnology offers the prospect of orally 
delivering vaccines to immunize against life-threatening illnesses 
through agricultural products in a safe and effective manner.
    During the 107th Congress, we successfully created a competitive, 
merit-based grant program at the National Science Foundation (NSF) to 
conduct basic genomic research on crops that can be grown in developing 
countries. We believe that this program can make invaluable 
contributions in the fight against hunger, malnutrition and disease by 
providing research grants to U.S. institutions and scientists in 
developing countries to address agricultural challenges.
    It is our hope that trade disputes between the United States, the 
European Union, and African countries do not prevent this promising 
technology from benefiting ordinary Africans facing ongoing food 
shortages due to agricultural challenges such as pests, drought, and 
disease. With increased investment in genetic engineering that targets 
specific food production challenges, the region may achieve what is 
necessary to build the basis for food security: reducing dependency on 
food aid.

    Chairman Smith. A good time to bring that up with the 
Chairman of the Committee here, who will, I am sure, be 
delighted to approve our Code L to do that. Mr. Chairman, would 
you like to make a comment?
    Chairman Boehlert. No. I am just anxious to get on with the 
hearing. It is a very important subject, and we have some very 
distinguished witnesses, and we have been delayed somewhat, as 
to the Speaker's schedule, but I was so happy to see him here. 
I was privileged to accompany him on that trip and I saw and I 
marveled at the same things he saw and marveled at, and the 
potential is just unlimited. So the more good science we can 
introduce to the subject, the better off we are all going to 
be, and we are going to hear from some of the best, so let us 
get on with the hearing, Mr. Chairman.
    Chairman Smith. Well, I have to make a short opening 
statement, Mr. Chairman, but I want to welcome everybody to 
this hearing. I think it is exceptionally important. I, 
especially, compliment Representative Johnson, the Ranking 
Member of this committee, for her bill 2912 that was 
incorporated into the National Science Foundation bill that 
opens, really, the door for helping people in the world that 
need that help, and part of this hearing will be to review how 
we progress on that particular help.
    The Subcommittee is here to discuss these issues of 
biotechnology, their potential, their safety. Specifically, we 
will discuss this morning the status of plant biotechnology 
research and development in Africa, examine why most of Africa 
has not benefited from biotech crops today, and try to 
determine what factors may be limiting the research efforts in 
Africa. We will also review how the Federal Government, through 
USAID, NSF, USDA, other agencies, can improve coordination with 
each other and with non-Government entities, and ultimately, 
improve communication of accurate scientific information on the 
potential and safety of plant biotechnology. This will 
accelerate progress toward development and adoption of new 
beneficial crop varieties in Africa and other developing 
countries and throughout the world. I am also particularly 
interested in learning how NSF will be participating in this 
effort and how they will be implementing the plant genome 
centers and partnerships dealing with these developing 
countries.
    It is estimated that most of the people in Africa are 
undernourished, over 190 million people in that continent. 
Since 1990, per capita incomes there have actually been 
decreasing. If something isn't done, if action isn't taken, 
then we are going to be facing an even greater calamity than 
what can be avoided. The potential of biotechnology is only 
limited by the creativity of the science community in 
developing the kind of plant nutrition, developing the kind of 
products that can grow in the soil and the climate that 
heretofore haven't been able to produce adequate supplies of 
food. There is no question that we have made some inroads. 
There is no question that Administrator Natsios, and AID more 
probably than ever before in AID's history, has moved ahead in 
exploring agriculture as a fundamental need, as a starting 
point that needs to be accomplished if we are going to 
contribute significantly to aiding these countries that 
especially need our help.
    Without objection, the rest of my statement will be entered 
into the record, but I want to say through plant biotechnology 
research, scientists are developing a genetically modified 
banana that is resistant to a Black Sigatoka disease that is 
now spreading throughout the world. Our product that is going 
to resist that disease and produce a banana where you don't 
have to have the expense of these fungicides is, in effect, in 
the refrigerator ready to go, and there is an unwillingness in 
Africa to move ahead, and in other countries producing this 
banana, because of fear that Europe might shut off their 
exports. It seems to me that if we can just start doing some of 
the projects to help these people, if we can help convince 
Europe on the safety of these products, then we are going to 
have the ability to move ahead helping these countries. And 
with that, without objection, the rest of my statement will be 
entered into the record.
    [The prepared statement of Chairman Smith follows:]
               Prepared Statement of Chairman Nick Smith
    Good morning and welcome to this hearing of the Subcommittee on 
Research. Today the Subcommittee meets to discuss an issue of great 
interest to Ranking Member Johnson and I--advancing plant biotechnology 
research and development to help the world's poorest continent take 
advantage of a powerful tool in the battle against poverty and hunger.
    Specifically, we will discuss this morning the status of plant 
biotechnology R&D in Africa, examine why most of Africa has not 
benefited from biotech crops to date, and try to determine what factors 
may be limiting research efforts. We will also review how the Federal 
Government, through USAID, NSF, USDA, and other agencies, can improve 
coordination--with each other and with non-government entities--and 
ultimately improve communication of accurate scientific information on 
the potential and safety of plant biotechnology. This will accelerate 
progress toward development and adoption of new beneficial crop 
varieties for the countries of Africa. I am also particularly 
interested in learning how NSF will be participating in this effort, 
and how they will be implementing the Plant Genome Centers and 
Partnerships with the Developing World programs that we established in 
the new NSF authorization law, which to date has been unclear.
    It is estimated that 190 million people in Sub-Saharan Africa are 
undernourished. Since 1990, per capita incomes there have actually been 
decreasing. If action is not taken, conditions are expected to worsen 
even more. We work hard to provide adequate food aid to the people of 
Africa, but this only provides short-term relief. In the long term, 
increasing agricultural productivity is the best way to help Africa 
achieve food security. Even modest successes in this effort could have 
a tremendous impact on the people of Africa, with a one percent 
productivity increase estimated to bring six million African men, women 
and children out of poverty.
    Our best hope to realize those productivity increases is by 
harnessing the powerful tool of plant biotechnology. Plant 
biotechnology has the potential to create new varieties of crops that 
can tolerate drought and infertile soils, resist pests and disease, and 
provide other unique characteristics such as enhanced nutrient content.
    In some parts of Africa, farmers have already benefited from GM 
crops. We received written testimony for this hearing from T.J. 
Buthelezi, a cotton farmer in South Africa, whose crop yields doubled 
and pesticide applications decreased by more than 80 percent after he 
began planting biotech ``Bt'' cotton. Now, 90 percent of the farmers in 
Mr. Buthelezi's region are using Bt cotton. Similarly, researchers in 
Kenya are completing development of a virus resistant sweet potato 
capable of withstanding a disease that traditionally destroys 60 
percent of the crop in a normal year. Soon, Kenyan farmers will also be 
able to benefit from the reduced input costs and increased yields 
offered by many biotech crops.
    Contrary to what much of the organized opposition to plant 
biotechnology has argued, the farmers have overwhelmingly welcomed this 
new technology. As Mr. Buthelezi noted in his written testimony, ``We 
were not pushed to this improved seed, but we were attracted by the 
benefits.. . .Countries in Africa should be encouraged to use these 
improved crops because farmers will improve yields and make more money 
to improve their lives. That is what all farmers want.''
    Another example of the potential impact of biotech crops is in 
Uganda, where the Black Sigatoka fungus currently devastates banana 
yields by as much as 70 percent. Farmers are spending over 25 percent 
of their input costs on fungicides alone. But through plant 
biotechnology research, scientists are developing a GM banana that is 
resistant to the disease, and would reduce the need for fungicide 
applications while also dramatically increasing yields. I am concerned, 
however, that European trade pressures may be slowing the development 
of this new banana variety into commercial application, and I would 
like to discuss this more today.
    Indeed, many exciting opportunities are beginning to open up for 
the people of Africa. Unfortunately, the success stories in South 
Africa and Kenya have been the exception rather than the rule. It is 
important that other nations are equipped with the level of resources, 
expertise, and infrastructure needed to take advantage of these 
opportunities with the same degree of success that South Africa has.
    Now, perhaps more than any other time, the people of Africa are at 
a very important crossroads. One on hand, they face the ominous 
prospect of rapid population growth and continued agricultural 
productivity declines leading to increased poverty and starvation in 
the next decade. One the other, however, with the help of new tools 
such as plant biotechnology, they have the potential to dramatically 
increase agricultural productivity and consequently achieve food 
security. More than a political debate, this is a debate about the very 
lives and future of African people. To do our part to ensure the 
balance shifts toward increased food security, we must be proactively 
engaged in this issue.
    This will require an effective coordinated effort by federal 
agencies such as NSF and USAID, as well as non-governmental entities 
such as those we have before us this morning. It will also require that 
we ensure our policy approach to plant biotechnology minimizes the 
influence of politics and maximizes the influence of sound science, 
with full consideration given to the benefits, costs, and risks 
associated with the technology. This should be the case in all aspects 
of plant biotech policy--trade, research, regulation--we must demand 
sound science drives decision-making.
    I hope this morning's hearing will contribute positively to that 
effort.

                                Panel 2

    Chairman Smith. And if Director Colwell and Administrator 
Natsios will come to the witness table? Let me just say that 
Rita Colwell, who is Director of the National Science 
Foundation, is an exceptional leader in science. We have--under 
her leadership and guidance, we have moved ahead greatly over 
the last several years, so we appreciate you, Dr. Colwell, 
being in your job and giving it the effort that it takes to 
make it a success. And the Honorable Administrator Natsios, 
thank you for being here this morning. You have excited me 
personally in some of your testimony before Congress in terms 
of the kind of spirit and enthusiasm that it is going to take 
to make biotechnology a reality in the rest of the world. So 
with that, Dr. Colwell, first, we will call on you, and then 
Mr. Natsios.

 STATEMENT OF DR. RITA R. COLWELL, DIRECTOR, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Colwell. Thank you, Mr. Chairman, and Ranking Member 
Johnson, and Members of the Committee. I very much appreciate 
the opportunity to testify today on this very important topic, 
Plant Biotechnology and Research in Africa, but I want to say 
in aside, this is a very special day. To have the Honorable 
Speaker of the House testify on behalf of fundamental research, 
I have to tell you, I am a very happy scientist.
    I would also add for the record that a few weeks ago I 
visited the University of Illinois, Urbana-Champaign, on the 
occasion of the University commencement where I received an 
honorary degree. While I was there, I did, indeed, tour the 
fields where the crop research is being done, and the basic 
research is excellent and a major contribution to plant 
genomics.
    So let me now return to my testimony and tell you that for 
the past 50 years, the National Science Foundation, NSF, has 
been engaged with the global scientific community through 
collaborative partnerships. And in recent years, we have 
witnessed what I would call a very dramatic growth in the 
connectivity of the world's scientific and engineering 
community. It offers enormous opportunities and challenges. Of 
particular importance to the Foundation and to me personally 
are NSF's partnerships with scientists and engineers in the 
developing world. My own research career has built, really, 
very strongly on collaborative interactions and work with 
scientists in Bangladesh and India.
    The National Science Foundation's approach to collaborative 
work in the developing world has built on our principles of 
quality, merit review, and the integration of research and 
education. We are able to support the movement of students and 
researchers who travel to Africa and participate in seminars 
and research in Africa. These American researchers function as 
collaborators, and in some cases, their trainers. We estimate 
that NSF has spent approximately $63 million in the past four 
years on research with and about Sub-Saharan Africa.
    Now, based on the experiences of NSF with international 
collaborations and the importance of these efforts, we want to 
and will do more. NSF, under the auspices of the National 
Science and Technology Council's Interagency Working Group on 
Plant Genomes, has initiated discussions with AID, USAID, and 
also with the Department of Agriculture and the Department of 
Energy, to support research collaborations between scientists 
from U.S. academic institutions and developing countries in 
plant biotechnology. Although we are still early in the stages 
of these efforts, NSF is moving in the direction that is 
provided for in our recently enacted reauthorization and many 
of NSF's ongoing programs in plant genome research are going to 
be very important--in fact, instrumental--in meeting the 
Committee's interest in these areas.
    We currently support workshops, collaborative efforts 
throughout the developing world, but we want to expand these 
efforts and establish stronger partnerships which address some 
of the capacity needs in the developing world, and we will need 
to continue to partner with other agencies that are able to 
provide significant funds to institutions in the developing 
world. Now, as you know, at NSF we focus resources on funding 
U.S. scientists and institutions, but we also establish 
partnerships with other agencies, including USAID, and thereby, 
will be able to develop programs that address critical research 
topics, engage the U.S. scientific and engineering community, 
and build collaborative projects with developing country 
scientists, and contribute to capacity building in the 
developing world.
    Let me speak for a moment about how the interagency 
coordination takes place. The National Plant Genome Initiative 
was established in 1998, and I know you, Mr. Chairman, are a 
very strong supporter of the initiative. It is a coordinated 
National Plant Genome Research Program. Under the auspices of 
the NSTC, it includes representatives from the Department of 
Agriculture, Department of Energy, National Institutes of 
Health, National Science Foundation, Office of Science and 
Technology Policy, and the Office of Management and Budget. 
USAID joined in 2002. Simply stated, the National Plant Genome 
Initiative has transformed plant research in the United States. 
It has resulted in a new generation of scientists entering the 
field and it has changed the way research is conducted in plant 
biology. During the past five years, U.S. researchers and their 
international partners have formed research teams for wheat, 
rice, bananas, and cereal crops to coordinate research on crops 
that are grown in Africa and worldwide.
    Now, many assert, just as the Speaker has done, that 
science and technology can help bring food stability to regions 
like the Horn of Africa which has suffered from a terrible 
drought that has affected 15 million people. In July 2002, the 
Nobel laureate, the father of the Green Revolution, Dr. Norman 
Borlaug, said that he believes the world has the technology 
that is either available now or very well advanced in the 
research pipeline to feed on a sustainable basis a population 
of 10 billion people. Revolutionary advances in plant genomics 
can accelerate the process of knowledge transfer for the 
benefit of developing countries. A genomic based revolution in 
world agriculture, equaling a success of the Green Revolution 
that doubled the yield of cereal crops, is a real possibility, 
and it could, indeed, alleviate the suffering of millions of 
people.
    So let me conclude my brief remarks by saying that NSF and 
the NSF supported research community are poised to work with 
scientists in developing countries to realize the full 
potential of plant genomics on a global scale. We are 
enthusiastic about participating in this extremely important 
endeavor. We will bring our resources to bear. We are already 
working with our sister agencies through the established and 
very successful National Plant Genome Initiative. And I am 
going to close by again quoting Dr. Borlaug. ``It took some 
10,000 years to expand food production to the current level of 
about five billion gross tons per year. Within 25 to 35 years, 
or 30 years, we will have to nearly double the current 
production again. This cannot be done unless farmers across the 
world have access to current high-yielding crop production 
methods, as well as new biotechnological breakthroughs that can 
increase the yields, the dependability, and the nutritional 
quality of our basic food crops.''
    Thank you, Mr. Chairman, for your support and for this 
opportunity to testify. And I really want to express our 
appreciation for your continued very strong support of NSF. I 
will be happy to answer any questions.
    [The prepared statement of Dr. Colwell follows:]
                 Prepared Statement of Rita R. Colwell
    Mr. Chairman, Ranking Member Johnson, and Members of the Committee, 
I appreciate the opportunity to testify today on this important topic--
Plant Biotechnology and Research in Africa. Since its creation the 
National Science Foundation has recognized the central role 
international partnership plays in achieving America's research and 
development objectives. For over fifty years we have been engaged with 
the global scientific community through collaborative partnerships. In 
recent years we have witnessed a dramatic growth in the connectivity of 
the world's scientific and engineering community--which offers enormous 
opportunities and challenges.
    Of particular importance to the Foundation and to me personally are 
NSF's partnerships with scientists and engineers in the developing 
world. In the developing world there are scientific challenges and 
scientific expertise that are important to the U.S. Our partnership 
with the developing world holds the potential for growth in many areas. 
My own research career has built strongly on collaborative work with 
scientists in Bangladesh. Traditionally, NSF has worked with developing 
countries through its own programs and in the past, through 
partnerships with USAID.
    The Foundation's approach to collaborative work in the developing 
world has built on our principles of quality, merit review, and the 
integration of research and education. Our potential lies in our 
ability to mobilize and support the U.S. scientific and engineering 
community. We are able to support the movement of students and 
researchers who travel to Africa and participate in seminars and 
research. These American researchers function as collaborators and in 
some cases, trainers. American students who travel to Africa expand 
their own training, share their evolving expertise and contribute to 
research advances. In the past four fiscal years, we estimate that NSF 
has expended approximately $63 million on research with and about sub-
Saharan Africa.
    In the past strong partnerships across institutions and countries 
have resulted in important progress. The successful sequencing of the 
rice genome was the result of collaboration and investment by several 
partners--the Rockefeller Foundation, USAID (through its contributions 
to the Consultative Group on International Agricultural Research), NSF, 
USDA, DOE and the funding agencies of many of our international 
partners. The current efforts in rice functional genomics are 
coordinated by the International Rice Research Institute (IRRI) in the 
Philippines. Additionally, we have partnered with USAID, to work on the 
important topic of biodiversity in the developing world.
    Based on these experiences and the importance of these efforts we 
want and plan to do more. We have heightened our activity with our 
interagency partnerships, and are currently having discussions with 
both USAID and the World Bank. The interagency process for coordination 
of efforts is underway. We will continue to seek to develop 
partnerships that bring to bear the resources of the development 
agencies for capacity building that will mobilize and support the best 
scientists and engineers in the U.S. and its international partners.

Efforts to Establish a Plant Biotechnology Partnership for the 
                    Developing World

    Recognizing the readiness of the research community and the 
scientific opportunities available, NSF, through the auspices of the 
National Science and Technology Council's Interagency Working Group on 
Plant Genomes, has initiated discussions with USAID, the Department of 
Agriculture (USDA), and the Department of Energy (DOE) to support 
research collaborations between scientists from U.S. academic 
institutions and developing countries in plant biotechnology.
    The key interest is in greater engagement with developing countries 
in plant biotechnology research. We agree that plant genome research 
provides an ideal opportunity to work together toward this goal. A 
joint activity under discussion will link U.S. researchers with 
partners from developing countries to address developing country needs 
with the most current and appropriate technologies available, and to 
establish long-term relationships between participating scientists. It 
is important that exchange of ideas and people are reciprocal, and 
should be built on equal partnerships between the U.S. and scientists 
of developing nations.
    Although we are still early in the stages of these efforts, NSF is 
moving in the direction provided for in the National Science Foundation 
Act of 2002 (P.L. 107-368), and many of NSF's ongoing programs in plant 
genome research will prove instrumental in meeting the Committee's 
interests in these areas.
    Currently NSF's Office of International Science and Engineering is 
exploring how we can build on our existing investments and develop 
innovative programs with developing world scientists. We currently 
support workshops and collaborative efforts throughout the developing 
world. However, to expand these efforts and establish stronger 
partnerships which address some of the capacity needs in the developing 
world, we will need to continue to partner with other agencies that are 
able to provide significant funds to institutions in the developing 
world. As you know we must focus NSF resources on funding U.S. 
scientists and institutions. However, through partnerships with other 
agencies, such as USAID, we will be able to develop programs that 
address critical research topics, engage the U.S. scientific and 
engineering community, build collaborative projects with developing 
country scientists and contribute to capacity building in the 
developing world.

Coordination of Plant Biotechnology Research Activities

    The National Plant Genome Initiative (NPGI) was established in 1998 
as a coordinated national plant genome research program by the 
Interagency Working Group (IWG) on Plant Genomes, under the auspices of 
the National Science and Technology Council, with representatives from 
the Department of Agriculture (USDA), Department of Energy (DOE), 
National Institute of Health (NIH), National Science Foundation (NSF), 
Office of Science and Technology Policy, and the Office of Management 
and Budget (OMB). USAID joined the IWG in 2002.
    Under the NPGI, genomics has transformed plant research in the 
United States. It has changed the way research is conducted in plant 
biology; it has attracted a new generation of scientists into the 
field; and it has contributed new information and knowledge to science. 
The NPGI has built a foundation on which the scientific community can 
advance research, not only in plant genomics but also in diverse 
disciplines ranging from fundamental biological sciences to 
biotechnology.
    Recognizing that science is global, the NPGI actively encourages 
international partnerships. During the past five years, U.S. 
researchers and their international partners have formed the Cereal 
Genome Initiative, the International Genome Research Organization for 
Wheat; the International Rice Functional Genomics Consortium; and the 
Global Musa (banana and plantain) Genomic Consortium, to conduct and 
coordinate research on crops grown in Africa and worldwide.
    One of the scientific thrusts of the NPGI five-year plan is 
``Translational Plant Genomics.'' As functions are assigned to genes in 
a few key model plant species, this information can be used to explore 
basic plant biology and to develop technologies to enhance the yields 
of crops of economic value. These technologies will be especially 
valuable for addressing issues associated with crops grown in 
developing countries.

NSF's Plant Genome Research Program (PGRP) and Plant Biotechnology in 
                    Africa

    A regional drought in the Horn of Africa has created a food crisis 
affecting 15 million people in Eritrea, Ethiopia and Somalia. As a 
result, chronic child malnutrition is dangerously high and is creeping 
higher. In addition, substantial seed shortages exist that may inhibit 
recovery even if the rains materialize.
    While the issue is a complex one, many assert that science and 
technology can help bring food stability to regions like the Horn of 
Africa. In July 2002, the Nobel laureate and ``father'' of the ``Green 
Revolution,'' Dr. Norman Borlaug, said he believes the world has the 
technology--either available now or well advanced in the research 
pipeline--to feed on a sustainable basis a population of 10 billion 
people.
    To achieve this goal, U.S. and international organizations, such as 
USAID, the Consultative Group on International Agricultural Research 
(CGIAR), and the Rockefeller Foundation have been working to bring the 
latest scientific knowledge to the developing world.
    NSF's Plant Genome Research Program (PGRP) can play a pivotal role 
by bringing together scientists from the U.S. and developing countries, 
and by developing long-term partnerships. The PGRP supports research on 
many of the crops grown in Africa as well as on plant traits that are 
important to agriculture in Africa.
    Cereal crops grown in Africa include rice (African varieties) grown 
in Western Africa, wheat and barley in Northern Africa, Maize in sub-
Saharan Africa, sorghum which originated in Africa, and millet in the 
Sahelian Zone of Africa. In addition to grains for food, Africans 
utilize straws (stalks) of cereal plants for animal feed, building 
materials or fuels. Food legumes grown in Africa include chickpea, 
cowpea, beans, lentil, pigeonpea and soybean: Oil crops include coconut 
and groundnut. Other important crops grown in Africa are coffee, 
spices, cassava, potato, sweet potato, yam, banana and plantain.
    NSF also supports plant biotechnology research that holds 
significant promise to improve food security and foster sustainable 
agriculture in Africa. Examples include: the interactions between 
Striga (the number one weed pest in Africa) and host plants; tolerance 
to environmental stresses such as drought and salinity; insect 
resistance; and resistance to fungal and viral diseases.
    Research supported under the PGRP can contribute to identifying 
valuable genetic resources in native germplasm and marker-assisted 
breeding of African crops. More importantly, new and unexpected ways to 
improve plants or to use native plants will occur over time.
    Clearly, the NSF-supported researchers are poised to work with 
scientists in developing countries to collaborate on translational 
plant genomics, which will contribute to sustainable food security in 
developing countries.
    Revolutionary advances in plant genomics can accelerate the process 
of knowledge transfer for the benefit of developing countries. A 
genomic-based revolution in world agriculture, equaling the success of 
the Green Revolution that doubled the yield of cereal crops, is a real 
possibility, and could help alleviate the suffering of millions of 
people.

Concluding Remarks

    Mr. Chairman, NSF's ongoing efforts in these areas are consistent 
with the recommendations contained in the National Science Board's 2001 
report, ``Toward a More Effective Role for the U.S. Government in 
International Science and Engineering'' which observed that:

        L``. . .NSF can contribute significantly to the improvement of 
        scientific capabilities in a number of developing countries 
        through its support of global- and regional-scale research, and 
        by promoting increased interaction among U.S. scientists and 
        engineers and those in developing countries.''

    The Board went on to recommend that:

        L``NSF should take a more active role in facilitating 
        cooperation in international S&E and higher education. It 
        should work closely with other federal technical agencies and 
        multilateral scientific organizations that have S&E interests 
        in the developing countries, and with domestic and 
        international development assistance organizations in seeking 
        out opportunities, identifying goals and targets, and 
        developing cooperative projects in partnerships.''

    NSF and the NSF-supported research community are poised to expand 
our work with scientists in developing countries in realizing the 
potential of plant genomics to its fullest on a global scale. We are 
excited to participate in this extremely important endeavor and will 
bring our resources to bear. We are already working with our sister 
agencies through the established and successful National Plant Genome 
Initiative. I would like to close by again quoting Dr. Borlaug:

        L``It took some 10,000 years to expand food production to the 
        current level of about five billion gross tons per year. Within 
        25-30 years, we will have to nearly double current production 
        again. This cannot be done unless farmers across the world have 
        access to current high-yielding crop-production methods as well 
        as new biotechnological breakthroughs that can increase the 
        yields, dependability and nutritional quality of our basic food 
        crops.''

    Thank you Mr. Chairman for this opportunity to testify, and for 
your continued strong support of NSF. I would be happy to respond to 
any questions you might have.

                  Biography for Dr. Rita Rossi Colwell
    Dr. Rita R. Colwell became the 11th Director of the National 
Science Foundation on August 4, 1998. Since taking office, Dr. Colwell 
has spearheaded the agency's emphases in K-12 science and mathematics 
education, graduate science and engineering education/training and the 
increased participation of women and minorities in science and 
engineering.
    Her policy approach has enabled the agency to strengthen its core 
activities, as well as establish support for major initiatives, 
including Nanotechnology, Biocomplexity, Information Technology, 
Social, Behavioral and Economic Sciences and the 21st Century 
Workforce. In her capacity as NSF Director, she serves as Co-chair of 
the Committee on Science of the National Science and Technology 
Council.
    Before coming to NSF, Dr. Colwell was President of the University 
of Maryland Biotechnology Institute, 1991-1998, and she remains 
Professor of Microbiology and Biotechnology (on leave) at the 
University Maryland. She was also a member of the National Science 
Board (NSF's governing body) from 1984 to 1990.
    Dr. Colwell has held many advisory positions in the U.S. 
Government, non-profit science policy organizations, and private 
foundations, as well as in the international scientific research 
community. She is a nationally respected scientist and educator, and 
has authored or co-authored 16 books and more than 600 scientific 
publications. She produced the award-winning film, Invisible Seas, and 
has served on editorial boards of numerous scientific journals.
    She is the recipient of numerous awards, including the Medal of 
Distinction from Columbia University, the Gold Medal of Charles 
University, Prague, and the University of California, Los Angeles, and 
the Alumna Summa Laude Dignata from the University of Washington, 
Seattle.
    Dr. Colwell has also been awarded 26 honorary degrees from 
institutions of higher education, including her Alma Mater, Purdue 
University. Dr. Colwell is an honorary member of the microbiological 
societies of the UK, France, Israel, Bangladesh, and the U.S. and has 
held several honorary professorships, including the University of 
Queensland, Australia. A geological site in Antarctica, Colwell Massif, 
has been named in recognition of her work in the polar regions.
    Dr. Colwell has previously served as Chairman of the Board of 
Governors of the American Academy of Microbiology and also as President 
of the American Association for the Advancement of Science, the 
Washington Academy of Sciences, the American Society for Microbiology, 
the Sigma Xi National Science Honorary Society, and the International 
Union of Microbiological Societies. Dr. Colwell is a member of the 
National Academy of Sciences.
    Born in Beverly, Massachusetts, Dr. Colwell holds a B.S. in 
Bacteriology and an M.S. in Genetics, from Purdue University, and a 
Ph.D. in Oceanography from the University of Washington.

    Chairman Smith. Thank you, Madam Director. Mr. 
Administrator.

STATEMENT OF ANDREW S. NATSIOS, ADMINISTRATOR, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Natsios. Thank you very much, Congressman Smith and 
members of the Committee. I want to thank you for inviting us 
today to testify on this extraordinarily important subject, a 
subject that I am deeply concerned about. I am an Africanist. 
While I have responsibility for the whole world, developing 
world, I spent a good deal of my time in Africa, and so I am 
very familiar with the statistics that Congresswoman Johnson 
from Texas mentioned earlier, that 1/3 of Africans are 
chronically food insecure.
    The only way we can change this bleak situation in Africa 
is to invest more in agricultural development. Beginning in 
1987, we began cutting our agriculture budget in AID. We had a 
budget of $1.3 billion in 1986. When I arrived in AID in 2002--
I am sorry, 2001--our budget had declined to $243 million. So 
there was a $1 billion cut in agricultural development in AID 
over that period of time. And the whole constituency had 
deteriorated for agriculture, but there has been a terrible 
consequence for that, and that is that the only area of the 
world in which productivity is declining in agricultural 
production is Africa. The only way we are going to reverse this 
bleak situation is: (1) To put more money into agricultural 
development; (2) To invest some of that in biotechnology and 
biotechnology research in Africa to develop seed varieties 
appropriate to the agriclimatic conditions in Africa.
    Biotechnology is not going to solve all of the problems 
because poverty and hunger are a complex phenomena, but 
biotechnology can be an important part of a broader solution to 
increase productivity. Seventy percent of Africans depend on 
agriculture for their livelihood, 70 percent. And that is true, 
actually, worldwide, 70 percent of the poorest people in the 
world live in rural areas and they are farmers and herders. If 
we do not invest in agricultural development, we will not deal 
with the problem of global poverty.
    Let me just give you four statistics that are very 
disturbing. Yields of basic food grains in Africa per hectare 
are 1/5 of those in China, 1/5. Fertilizer use in Africa is 
eight kilograms per hectare, 8. In Latin America it is 60 
kilograms per hectare, in Asia it is 100 kilograms per hectare. 
Only four percent of Africa's farmland is irrigated, while in 
the Middle East it is 29 percent and in Asia it is 34 percent. 
The Green Revolution has only begun to touch Africa in the last 
decade. In Asia and Latin America, between 60 and 80 percent of 
the crop area is planted with modern improved varieties of 
different, either fruits or vegetables or grains. In Africa, 
the percentage is only 20 to 30 percent. The results are stark. 
Per capita agricultural activity has declined over the last 
four decades where everywhere else in the world it has 
increased.
    New research published last month in Science Magazine has 
shown that the Green Revolution is finally reaching Africa, and 
it is interestingly enough in the three countries in Africa we 
put a lot of money in agricultural production: Angola, 
Mozambique, and Uganda. That is where the biggest productivity 
increases have been shown based on improved seed technologies. 
We believe that if this Green Revolution can be accelerated, it 
can address the problem of chronic malnutrition and food 
insecurity.
    I want to go through some of the charges made against 
biotechnology by some of the groups that have been leading the 
charge against it, particularly, in Europe. The first argument 
is that biotechnology in Africa is taking investment away from 
other interventions. In fact, we are only spending about $25 
million on biotech out of our $300 million agriculture budget. 
We would like to increase that and we intend to over time as 
the research capacity improves. But biotechnology, if you talk 
to African scientists, African agriculture ministers, they 
believe this, in fact, holds one of the many solutions they 
need to catch up.
    The second is that accepting biotechnology crops will make 
African farmers dependent on multinational companies, and this 
is sort of part of the anti-globalization hysteria that we 
hear, that we have seen in some of the multilateral institution 
meetings. Well, we are actually working right now with African 
universities and national research programs to develop African 
solutions to African problems. I opened in January of last year 
a new biotechnology research center at the Ministry of 
Agriculture in Egypt that was jointly financed by the Egyptian 
Government and by USAID, the U.S. Government, and the State 
Department. The Minister of Agriculture was close to tears. He 
had been trying for 20 years--he is an agricultural scientist--
to get this center open. Finally, his dream was achieved and 
they are now beginning to develop varieties that would be 
appropriate for the agriclimatic soil conditions of Egypt.
    So we have begun this process already. We have also 
invested heavily in the capacity of South-African universities 
to develop material, genetic material, that is appropriate for 
South African and other African climates. Farmers in Africa 
will be their own judge of what is commercially viable for them 
in terms of biotech seeds. If it gives them a good return, they 
are going to buy it; if it doesn't, it is not going to. And if 
we start developing seed varieties that are in the public 
domain, which, in fact, is what we are doing in many of these 
countries, it is not a matter of multinational corporations. So 
this is really an illusion and I think it is a rhetorical 
excess to argue that multi-nationalism in terms of the 
international economy is going to somehow make Africa 
dependent. Latin American countries like Argentina, Asian 
countries like India and China, are already investing in this, 
and the Philippines, for example, another country that is 
investing in this technology now.
    The third argument is that biotechnology derived crops will 
adversely affect the environment in Africa. In science, there 
is no such thing as no risk with any new crop variety or any 
new technology. The question, of course, is an economist's and 
a scientist's question, what is the alternative? If the 
alternative is improved varieties or hybrids, there are risks 
with those as well. The question is, if we take the view that 
all improvements in technology and science cause unacceptable 
risks, then we will never make any scientific progress, and we, 
in fact, will not address the major agricultural and 
nutritional problems facing the continent.
    Canada, Argentina, the U.S., the Philippines, India, and 
South Africa have all shown that risks can be safely managed 
and effective. There is a wonderful book by IFPRI 
[International Food Policy Research Institute], which is a 
think tank on food security that is a subsidiary of the UN. It 
was run until recently by a Danish scientist, Per Pinstrup-
Andersen, a good friend of mine, and he wrote a wonderful book 
with another Danish colleague. I point this out because they 
are Europeans, let me just say, not Americans. They wrote a 
wonderful book called Seeds of Contention about biotechnology, 
and they go through the empirical evidence and the research, 
and they conclude, one, Africans and other third world 
countries need to make their own decisions. Obviously, all of 
us agree with that. But the evidence is overwhelming that this 
is an option that will help in many countries to deal with 
these problems.
    In China, we know that when biotech cotton was introduced, 
farmers no longer had to buy atropine. You know what atropine 
is for. For people who get poisoned, atropine is a way of 
preventing the person from dying. Literally, Chinese farmers, 
when they bought their pesticides, had to buy atropine because 
their kids would get poisoned with it. They are savings 
hundreds, if not thousands, of their own farmers lives now by 
not having to use pesticide anymore when they are growing their 
cotton crop; that is saving peoples' lives, and we have had 
Chinese farmers and scientists publicly testify at 
international meetings on this.
    This is the next charge, growing biotechnology derived 
crops will harm export of agricultural products to Europe. This 
is the thing that is most disturbing to me. When we had one of 
the most serious droughts in southern Africa in a very long 
time, during the Johannesburg summit, some groups began 
arguing--they were not African groups, I might add--that this 
was dangerous to accept food aid from the United States because 
our corn crop, one-third of our corn crop, is biotech corn, and 
it has been for seven years. I went on TV all over Africa and 
said the President eats it, all of our Members of Congress eat 
it when they eat cereals, and the reality is that there hasn't 
been any health problems, there haven't been any lawsuits, and 
we are a litigious society, and it is in our food system. And 
frankly, you have been eating it for seven years because you 
have been getting food aid from us. I find it curious that this 
issue was brought up after seven years of that food being 
distributed, and everybody knew in senior ministries that we 
had biotech corn in the United States and that was part of our 
food basket we provided food aid. They decided to bring it up 
in the middle of this conference, in the middle of a terrible 
food emergency facing 25 million people.
    Now, what was spread around Africa during that crisis is 
this. In one country, a science and technology minister who 
supported biotech privately told me in the Muslim areas of this 
country, the rumors are being spread by these groups that we 
had put pig genes into corn and that the corn we were providing 
in food aid had pigs in it, which, of course, is sacrosanct in 
terms of Islamic teaching. I said, none of our 52, or whatever 
it is, corn varieties--I think seven of which we actually have 
in our agricultural system--have any animal genes, let alone 
pig genes. I have never heard of a pig gene being in any of our 
research and certainly isn't in corn. Who told you this? And he 
said, these groups are spreading this in the Muslim areas to 
create a hysteria.
    The second rumor, this is in another country that exports 
vegetables, grains--not grains--vegetables, fruits, and nuts to 
Europe, but no grains. Europe is not going to import corn from 
Africa. They grow their own corn. They don't need corn from 
Africa. What they do need are various fruits, and vegetables, 
and nuts. They were told--the scientists were ignored in the 
ministries--these groups are spreading rumors around that if 
you plant the food aid that starving people would be getting--
by the way, I have never seen, and I have done famine work all 
over the earth--people who are hungry do not take food aid and 
plant it as seed. Do you know why? Because they are worried 
they are not going to survive until the next harvest. They are 
not going to plant it for food aid. We give them seed 
separately to plant and it is usually from local varieties or 
improved varieties. They don't use food aid for seed purposes, 
but they were told if you plant it, the corn will cross 
pollinate with your tomatoes, and your nuts, and your coffee, 
and your tea, and none of us in Europe will import it because 
of the damage it is going to do to your agricultural system.
    Well, I said, I am not a scientist, but our scientists tell 
me you cannot cross match through open pollination a corn that 
is planted, even though it is unlikely that would happen, with 
another variety. You can do it with another variety; you can't 
do it with fruits, or vegetables, or corn. It is just 
scientifically not going to happen. But once again, these 
rumors are being spread around. So most of this stuff, this 
material, this information that is being spread around, is 
deliberately designed to cause panic. So let me just--the final 
comment is that we are dumping surplus food that we won't eat 
ourselves. That is the argument I heard of our food aid in the 
developing world, because Americans won't eat it. That is 
complete nonsense. We all know that is nonsense, and I 
mentioned this argument repeatedly because of how fraudulent it 
is. We are not dumping anything, in fact. We buy the same food 
in the same markets in the same areas of the middle west for 
our food aid as the food we all eat on our breakfast table.
    So finally, I just want to say, we have a great opportunity 
to reverse this by public education, to push these groups aside 
that are misleading people so much. It is very troubling that 
this is happening. It is an enormous opportunity. I will, in 
the questions and answers, go into what we are doing and what 
we are investing in now, but my time has run out. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Natsios follows:]
                Prepared Statement of Andrew S. Natsios
    Chairman Smith and Members of the Committee, I am pleased to 
participate in this important discussion today on biotechnology 
research and development in Africa.

The African Challenge

    Hunger and poverty are widespread problems on the African 
continent. In sub-Saharan Africa, one-third of the population, almost 
200 million people, are food insecure--lacking enough food to lead 
healthy productive lives. Half of the population in this region, about 
300 million people, lives on less that $1 per day. If current trends 
continue, by 2010 Africa would account for nearly two-thirds of the 
undernourished people in the world. This vicious cycle of hunger and 
poverty must be broken.
    Agriculture offers the means to reverse the trends and stimulate 
wider economic growth. Seventy percent of the people in sub-Saharan 
African live in rural areas and are dependent on agriculture for their 
livelihoods. But in almost every crucial measure, African agriculture 
is lagging:

        <bullet> LGlobally, Africa suffers from the lowest productivity 
        of staple food crops. Yields of basic food grains in Africa are 
        one-fifth those of China.

        <bullet> LFertilizer use in Africa is 8 kilograms per hectare; 
        in Latin America it is over 60 kilograms per hectare, and in 
        Asia, over 100 kilograms per hectare.

        <bullet> LOnly 4 percent of Africa's farmland is irrigated; in 
        the Middle East and Asia, the figures are 29 percent and 34 
        percent, respectively.

        <bullet> LThe Green Revolution has only begun to touch Africa 
        in the last decade. In Asia and Latin America, between 60 
        percent and 80 percent of crop area is planted with modern 
        varieties; in Africa, the figure is in the 20 to 30 percent 
        range.

    The results are stark: While per capita agricultural productivity 
rose sharply in the last forty years in Asia and Latin America, it 
actually declined in Africa. There is less food per person now than at 
the time of independence, and in some countries, there is much less. 
You see the results in the headlines--hunger, famine, poverty, disease, 
and the social and political upheaval that accompany them.
    But there is hope. Last month's issue of the journal Science 
carried an article by Professor Robert Evenson of Yale University 
showing that, in the last decade, improved crop varieties are finally 
reaching African farmers. Progress has been slow because of the harsh 
physical environment and the many crop pests and diseases in Africa. We 
need to foster this new trend to increase productivity at the farm 
level so that agriculture becomes an engine of growth and prosperity in 
Africa. If this is done well, Africa will eventually be able to feed 
its people.
    The scientific resource base in Africa has suffered from years of 
under-investment. We need to invest in science to increase productivity 
in the basic food crops of Africa--corn, cassava, cowpeas, bananas, and 
rice. New tools in agriculture, such as the application of modern 
biotechnology, need to be brought to bear to address Africa's 
agricultural problems. Biotechnology alone cannot solve the complex 
problems of poverty and hunger; it is not a ``silver bullet.''
    But it is a critical part of the solution, and cannot be ignored. 
Why? Analysis from the International Food Policy Research Institute 
(IFPRI) shows that by 2020, between 6 and 16 million more African 
children will be malnourished if we do not turn the situation around. 
What does this mean? Sadly, it means that if we do not act, poverty, 
disease and death will increase in Africa. The World Health 
Organization tells us that 56 percent of all child mortality is due to 
underlying malnutrition that makes children vulnerable to disease and 
infection.
    But, if we can increase annual crop productivity growth from 1.5 
percent to 2.5 percent, the opposite happens. In that case, 11 million 
fewer children will be hungry, and millions less will die young from 
diarrhea, malaria and other diseases. Knowing this, can anyone in good 
conscience say that we should close off a whole new area of science 
that can help us reach these and greater goals?
    Unfortunately, some outside groups have actively spread 
misinformation about biotechnology, trying to sow confusion and fear. I 
would like to take a few minutes to describe to you some of the 
falsehoods that have been spread by those who for unfathomable reasons 
want to prevent the benefits of modern science from helping some of the 
world's poorest farmers.

Frequent Criticisms Leveled at Biotechnology

Charge: Biotechnology is not what Africa needs, and investment in it is 
taking away from other interventions.

    In the wake of the International Food Policy Research Institute 
studies, it is patently untrue to assert that Africa does not need 
biotechnology. Africa needs agricultural growth, and economic studies 
tell us that accelerated productivity growth due to biotechnology will 
be crucial to reducing hunger and poverty. It is not true to say that 
biotechnology takes away from our other investments; biotechnology 
complements and enhances those investments. What is true is that other 
donors should be doing far more, but because of political constraints, 
they under-invest in biotechnology.

Charge: Accepting biotechnology crops will make African farmers 
dependent on multinational companies.

    USAID is working with African universities and national research 
programs to develop African solutions to Africa's problems. In some 
cases, they may choose to work with international partners as a means 
of accessing important new technologies. Local companies may do the 
same thing. These alliances are happening in Africa, India and 
elsewhere. Farmers in Africa will be able to decide for themselves 
whether biotech crops are in their economic interest. If biotech seeds 
give them a good return, then and only then will they decide to 
purchase the seeds.

Charge: Biotechnology-derived crops will adversely affect the 
environment in Africa.

    In science, there is no such thing as ``no risk'' with any new crop 
variety of any other technology. But all experience to date, here in 
the United States, Canada, Argentina, the Philippines, India and South 
Africa, shows that potential risks can be managed in safe and effective 
ways. The safety of biotech-derived crops needs to be examined by 
applying science-based biosafety policies. USAID supports capacity 
building in public institutions in Africa so that they can operate 
good, effective regulatory systems. USAID is working with African 
partners to understand and manage potential environmental issues such 
as gene flow, for example.
    While not downplaying risk, we also need to consider the 
environmental and health benefits of biotechnology, for example, in 
reducing use of dangerous pesticides. The New York Times has reported 
that, in China, farmers who have adopted biotech cotton no longer need 
to purchase atropine for themselves and their children. Their children 
were literally being poisoned by pesticides. Now they can enjoy a safer 
and cleaner environment.

Charge: Growing biotechnology-derived crops will harm export of 
agricultural products to Europe.

    There is no question that the lack of a functional, science-based 
regulatory system and the irrational fear of biotechnology in the 
European Union have affected development of biotechnology products in 
Africa. The reality is that most biotechnology applications for small-
holder, food-insecure farmers in Africa are not likely to affect 
commodities exported to Europe. Unfortunately, misinformation has added 
to these concerns that somehow biotech genes will cross from one 
species to another, from corn to fruit trees, or equally wild 
assertions.

Charge: U.S. food aid containing biotech crops is a tool to dump 
unwanted grain and force Africans into accepting biotechnology.

    U.S. food aid makes the difference between life and death for 
millions of people in Africa. Despite this, rumors have been spread 
that pig genes are being cloned in crops destined for countries with 
large Muslim populations. Even African senior government officials have 
shared these concerns with me. The truth is that U.S. food aid is made 
up of the same safe food we consume here and export to Canada, Japan 
and dozens of other countries that purchase it. Furthermore, the food 
is intended for consumption and would be poorly adapted and of little 
interest to farmers if planted under Africa's environments.

Potential of Biotechnology in realizing Agricultural Productivity in 
                    Africa

    Africa presents the highest potential for realizing major benefits 
from biotechnology precisely because it lags behind the rest of the 
world in using agricultural inputs. Low yields due to pests, diseases, 
drought and even poor soils can be boosted by application of readily 
available tools of biotechnology, and bring significant economic 
benefits to small-scale farmers.
    This has been demonstrated to be the case in the adoption of 
biotechnology-derived corn and cotton among small-holder farmers in 
South Africa, the only country to adopt these crops in Africa. In the 
Makatini Flats in South Africa, seventy percent of the cotton grown is 
``Bt cotton,'' containing a pest-resistant gene derived from the 
bacterium Bacillus thuringiensis (Bt). Small-scale cotton farmers in 
this region, primarily women, typically farming just a few acres, have 
captured significant economic benefits due to increased yields, 
decreased pesticide usage and overall saving in farm labor. Yield 
increases have been greater than 30 percent. These increases combined 
with decreased input and labor costs have resulted in income increases 
of approximately 30 percent. Similarly, farmers growing insect-
resistant yellow and white corn in South Africa are starting to see 
increased economic benefits, and the acreage of these biotechnology 
derived crops is rising.
    To realize the potential of biotechnology we will need to foster 
international partnerships to enable African scientists to apply 
biotechnology in the near term, while building their human and 
institutional capacity in the longer term. Some African political 
leaders recognize the role of science and technology in improving 
African agriculture. President Obasanjo of Nigeria has publicly 
endorsed biotechnology and criticized the efforts of those seeking to 
prevent its benefit from coming to Africa. South Africa has moved even 
farther forward, approving new crop varieties just recently. It is 
encouraging to see Africa's two largest economies embracing these new 
technologies. We can hope their example is emulated elsewhere.

USAID's Biotechnology Effort

    USAID has been, and continues to be, a leader in taking on these 
challenges to ensure that Africa is part of this new scientific 
revolution. In the last three years, we have more than tripled our 
support for biotechnology through the launching of the Collaborative 
Agricultural Biotechnology Initiative (CABIO).
    The CABIO Initiative is one component of our overall agricultural 
strategy for stimulating economic growth and food security in 
developing countries. It brings to bear the tools of modern 
biotechnology to increase agricultural productivity and improve 
environmental sustainability and nutrition. We conduct research and 
analysis to develop technology and policy, we build human and 
institutional capacity, and we broadly engage our partner countries in 
every aspect of the program. The CABIO Initiative builds upon USAID's 
12 years of experience in biotechnology, carrying forward lessons 
learned while adapting to changes in the economic and regulatory 
realities.
    In Africa, the activities of the CABIO Initiative are directly 
linked to President Bush's Initiative to End Hunger in Africa (IEHA). 
This initiative calls for a partnership with African leaders and 
governments to work together to invest in a small-holder-oriented 
agricultural growth strategy. Science and technology, including our 
support for biotechnology, is one of the two major thrusts of IEHA, 
with markets and trade being the other.
    USAID's biotechnology approach in Africa has two goals:

        <bullet> Lto link Africans to the international research 
        community to develop biotechnology for the benefit of small 
        African farmers; and

        <bullet> Lto build African leadership and decision-making, vis-
        a-vis using biotechnology domestically, to ensure that Africa 
        drives its own future.

    To achieve these goals USAID has supported a number of important 
African organizations to develop strategies in biotechnology in leading 
countries like Kenya, Uganda, Nigeria, and South Africa. We also 
support networks of agricultural research institutions that can expand 
the impact of research beyond one country. These include the sub-
regional organizations, Association for Strengthening Research in East 
and Central Africa, and the West and Central African Council for 
Agricultural Research and Development. USAID is also supporting the 
Forum for Agricultural Research in Africa (FARA), an emerging voice for 
African agriculture, which is linked to the implementation of the 
African-led New Partnership for African Development (NEPAD).

Partnerships and Alliances

    As we move forward in realizing the potential of this technology 
for Africa, we recognize that we will have greater impact through 
strategic partnerships and alliances between our development resources 
and with those engaged in the cutting-edge science. Our key partners in 
this effort are public and private sector institutions, in the United 
States, in African countries and international organizations.
    U.S. universities and industry lead the world in biotechnology 
research. USAID is partnering with these institutions to develop crops 
resistant to diseases and pests. A number of U.S. universities partner 
with USAID in developing technologies to address agricultural 
constraints in Africa and in policy development and outreach activities 
in biotechnology. These include Cornell University, University of 
California at Davis, Tuskegee University, Michigan State University, 
and Purdue University. We also work closely with centers of excellence, 
the Danforth Plant Science Center in St. Louis being a prime example.
    Since the earliest programs in Africa, the Agency has leveraged the 
tremendous investments and technical expertise of the private sector 
through partnerships aimed at developing technology for small farmers. 
Beginning with a partnership with Monsanto Company to develop virus-
resistant sweet potatoes for Kenya in 1990, we have continued 
engagement with the private sector. We have an on-going partnership 
with Syngenta Company to develop insect-resistant potatoes for Africa.
    Biotechnology also opens up new avenues to fight old problems. The 
World Health Organization tells us that between 100 million and 140 
million children in the developing world suffer from vitamin A 
deficiency. Each year, between one-quarter and one-half million of 
these children go blind, and many more die as a result of greater 
susceptibility to infection. In a partnership involving Monsanto 
Company, Iowa State University, the University of Illinois, and two 
Consultative Group for International Agricultural Research (CGIAR) 
centers, USAID is supporting the development of vitamin A enhanced corn 
for Africa. In India, we are developing vitamin A mustard oil. It will 
also have potential to save lives in some parts of Africa.
    It is clear that projects such as these require the best science 
available. USAID is, of course, first and foremost a development 
agency. Although we are expanding our scientific staff and 
capabilities, we recognize that to capture the cutting edge of science, 
for example, to use crop genomics to produce more drought tolerant 
varieties, we will need to partner with the scientific resources of 
agencies such as the U.S. Department of Agriculture and the National 
Science Foundation. Similarly, the private sector is a major source of 
cutting-edge technology. We have found that those in the private sector 
are more than ready to see their skills applied to the needs of poor 
people. All of these alliances can lead to breakthroughs that can 
ultimately benefit farmers here at home, as well as in Africa and the 
rest of the developing world.
    We are also partnering with others outside the U.S. Government, 
such as the international agricultural research centers (IARCs) 
sponsored by the Consultative Group on International Agricultural 
Research. These centers provide a vital link in our efforts to 
integrate biotechnology into programs to develop improved, higher-
yielding and more stress-tolerant crop varieties. Some of the 
technologies we are supporting include virus-resistant cassava, fungal-
resistant bananas, ``golden maize,'' drought-tolerant wheat, insect-
resistant cowpea, and many others. The CGAIR centers serve as a bridge 
between universities and other advanced institutions in the United 
States and international nongovernmental organizations and other 
partners working with millions of farm families in Africa and elsewhere 
in the developing world. Increasingly, USAID is designing its 
investments to strengthen linkages between our U.S. partners and the 
research and development programs of the CGAIR centers, increasing the 
effectiveness of all partners in applying science and also in making 
sure that innovative technologies reach the farmer.
    We are also working closely with the Rockefeller Foundation to 
establish the African Agricultural Technology Foundation (AATF). The 
Foundation is a new and unique public-private partnership designed to 
assist small-holder farmers in Africa to gain access to existing 
agricultural technologies, including biotechnology, with the goal of 
relieving food insecurity and alleviating poverty. USAID contributes 
$500,000 a year of core support to the AATF. AATF complements and links 
with additional USAID funding through our African partners. I am sure 
Gordon Conway will discuss the AATF in more detail.

Summary and Conclusions

    I would like to conclude by underscoring the importance of African 
leadership and partnerships with African countries and institutions. 
The region faces the greatest needs, and provides a compelling case for 
harnessing all tools in the fight against hunger and poverty. These are 
not just biotechnology tools, but they include biotechnology, and these 
tools can help us realize a new Africa where food security and 
prosperity predominate, and where hunger and famine are things of the 
past.
    USAID's programs in biotechnology reinforce the ability of Africans 
to make their own decisions. Everything we do in biotechnology is done 
collaboratively--from problem identification and priority setting to 
aiding the development of policies designed to establish risk 
assessment programs and protect intellectual property. Our programs are 
demand-driven. Our African partners want and need the strategic uses of 
biotechnology in agricultural research and development. USAID is 
committed, with your help and support, to ensuring that the scientific 
revolution in agriculture bypasses no one, least of all poor farm 
families in Africa.
    A small farmer in South Africa is already living this vision of 
Africa. On his 10 acres, T.J. Buthelezi grows biotech cotton and gets 
four times the yield he used to. For the first time, he says, ``I'm 
making money!'' He and his wife have been able to decide how to spend 
and invest their newfound income, instead of struggling just at the 
subsistence level. His example is not unique. Farmers are finding that 
biotech crops can give them money for school fees, medicines and other 
necessities that just a few years ago were luxuries.
    I am glad to tell you that this hopeful outlook is Africa's own 
vision. Two weeks ago, the Forum on Agricultural Research in Africa, 
charged with the agenda of the New Program for Africa's Development, or 
NEPAD, held a meeting in Dakar. I would like to read you one of the six 
priorities that are contained in the Dakar Declaration:

        L`` [the participants]. . .declare their commitment to. . 
        .building Africa's human and physical capability in 
        biotechnology to be able to engage with global public and 
        private sector partners to capture the advances needed to 
        sustainably intensify African agriculture.. . .''

    That need is urgent. This year the Horn of Africa is in the middle 
of a serious food security crisis caused, in part, by drought and low 
agricultural productivity. The United States alone has provided more 
than $350 million of food aid to address urgent food needs in the 
region. In order to break the cycle of crisis in the Horn of Africa and 
other vulnerable regions around the world, donors must make available 
and countries must utilize all resources, including biotechnology, to 
improve their ability to meet their food needs. Through biotechnology, 
improved drought and pest resistant seeds have been developed that 
mitigate the effects of adverse weather and insects on food production. 
Through U.S. leadership in investments in science and technology, the 
international community can help Africa strengthen its agriculture and 
ensure that the specter of famine is someday just a memory.
    USAID is ready and eager to work with your committee, with others 
in Congress, and within the Executive Branch in making our common 
vision, shared between the United States and Africa, of an Africa 
without starvation and famine, a reality in our lifetime.
    Thank you.

                    Biography for Andrew S. Natsios
    Andrew S. Natsios was sworn in on May 1, 2001, as Administrator of 
the U.S. Agency for International Development (USAID). For more than 40 
years, USAID has been the lead U.S. government agency providing 
economic and humanitarian assistance to transitioning and developing 
countries.
    President Bush has also appointed him Special Coordinator for 
International Disaster Assistance and Special Humanitarian Coordinator 
for the Sudan.
    Natsios has served previously at USAID, first as director of the 
Office of Foreign Disaster Assistance from 1989 to 1991 and then as 
assistant administrator for the Bureau for Food and Humanitarian 
Assistance (now the Bureau of Democracy, Conflict and Humanitarian 
Assistance) from 1991 to January 1993.
    Before assuming his new position, Natsios was Chairman and Chief 
Executive Officer of the Massachusetts Turnpike Authority from April 
2000 to March 2001, and had responsibility for managing the Big Dig, 
the largest public works project in U.S. history. Before that, he was 
Secretary for Administration and Finance for the Commonwealth of 
Massachusetts from March 1999 to April 2000. From 1993 to 1998, Natsios 
was Vice President of World Vision U.S. From 1987 to 1989, he was 
Executive Director of the Northeast Public Power Association in 
Milford, Massachusetts.
    Natsios served in the Massachusetts House of Representatives from 
1975 to 1987 and was named legislator of the year by the Massachusetts 
Municipal Association (1978), the Massachusetts Association of School 
Committees (1986), and Citizens for Limited Taxation (1986). He also 
was Chairman of the Massachusetts Republican State Committee for seven 
years.
    Natsios is a graduate of Georgetown University and Harvard 
University's Kennedy School of Government where he received a Master's 
degree in public administration.
    Natsios is the author of numerous articles on foreign policy and 
humanitarian emergencies, as well as the author of two books: U.S. 
Foreign Policy and the Four Horsemen of the Apocalypse (Center for 
Strategic and International Studies, 1997), and The Great North Korean 
Famine (U.S. Institute of Peace, 2001).
    After serving 23 years in the U.S. Army Reserves, Natsios retired 
in 1995 with the rank of Lieutenant Colonel. He is a veteran of the 
Gulf War.
    A native of Holliston, Massachusetts, Natsios and his wife, 
Elizabeth, have three children, Emily, Alexander, and Philip.

                               Discussion

    Chairman Smith. That was part of my concern, Administrator. 
In going around to different countries over the last eight 
years, asking our people in the State Department, asking our 
people, our agriculture attaches even, the USAID people, the 
people in Commerce at the different embassies around the world, 
do you know why--what the requirements are in the United States 
to help assure that these biotech products are going to be safe 
to people, to animals, and the environment, and my 
consternation was that they didn't know what the scientific 
evidence was. And so that is why we--I think we sent you a 
draft proposal of the bill, saying that we have--and what I put 
in the State Department authorization bill was that we need the 
kind of written, accurate, scientific information so that our 
American people around the world have better knowledge when 
they talk to the people in these other countries.
    Mr. Natsios. We will support your amendment, Congressman.
    Chairman Smith. Good. Well, and I assume, Dr. Colwell, that 
the NSF would like to be part of this group if it is going to 
exist to coordinate, to cooperate, to make sure that that 
scientific, accurate, factual, scientific information is out 
there.
    Dr. Colwell. As a scientist, I couldn't do otherwise.
    Chairman Smith. Let me ask the question on trade that you 
mentioned, Dr. Natsios. Is the threat of trade restrictions of 
some of those products going to Europe part of the reason that 
is holding down research at the African universities?
    Mr. Natsios. It is not holding down the research.
    Chairman Smith. The biotech research.
    Mr. Natsios. It is affecting the farmers' use of the 
improved varieties of the biotech material. The scientists 
still want to get the research, and most of the heads of state, 
even the one country that actually banned it completely. By the 
way, that is the only country in Africa that has banned 
completely any biotech food aid from the United States. The 
perception was everybody was doing it. One country did it. Even 
Zimbabwe, and Dr. Mugabe is not one of my favorite people. He 
is destroying his country. But he banned it because of this 
cross pollination thing, even though it was inaccurate; not 
based on health requirements. And he didn't ban its use; he 
just required that it be milled before it was distributed. And 
even in the country that banned it, Zambia, they want the 
technical help to build up their capacity to do this research 
themselves. They asked for it when I met with the president of 
the country. He asked for it and we brought those scientists to 
the United States. The National Science Foundation has helped 
us, USDA has helped us, the EPA has helped us, in terms of 
taking scientists from Africa and economists around to show 
what our regulatory systems are, how careful we are about this, 
what our regimes are, how we do research. And we sent them up 
to Harvard, because a Kenyan scientist heads the biotech 
research center at Harvard University and is a big advocate of 
biotech research himself. He is an African scientist at 
Harvard. And it was very useful, but we need more of these.
    Chairman Smith. Dr. Colwell, can you be more definitive in 
terms of, for the record, what we put in the NSF bill in terms 
of the competitive merit based awards for partnerships that 
entered into a partnership that shall include one or more 
research institutions in one or more of the developing 
countries to have that? Has a request for proposals been sent 
out? Will universities start putting in proposals for this 
specific partnership with researchers in other countries to 
make sure that we move ahead on that section of the law?
    Dr. Colwell. We are working through the auspices of the 
NSTC and the working group on the plant genomes. We initiated 
discussions with USAID, the Department of Agriculture, the 
Department of Energy, to support these research collaborations.
    Chairman Smith. But this is partnerships with scientists, 
African scientists, in their particular country?
    Dr. Colwell. Yes.
    Chairman Smith. To try to develop products that are going 
to be most helpful for their countries?
    Dr. Colwell. Yes. We are funding already U.S. scientists 
who are partnering with African scientists. We are providing 
the training.
    Chairman Smith. Can you give me some examples?
    Dr. Colwell. Training, NSF awards have enabled African 
researchers to come to the U.S. for collaborative research and 
training, and we have been funding projects for African based 
equipment, scientists, and we have leveraged funds as well by 
providing funds that then can be matched in the country. So we 
are working very strongly.
    Chairman Smith. Well, just I hope you will review the 
language.
    Dr. Colwell. Sure.
    Chairman Smith. And I don't mean to be in a scolding nature 
or anything, but specifically, we wrote in that, institutions 
in those African countries that we would partnership with, so 
maybe review it. I just think it is so important that we work 
with those countries, with scientists in those countries, that 
are going to add to the credibility of the product that they 
develop and with the helpful assurance that it is going to be 
something that is going to help with their needs of more 
quantity of agricultural production or more quality in terms of 
health.
    Dr. Colwell. One area that I feel very strongly that we 
need to strengthen is the microbiological resource centers in 
the biotechnology centers that have been set up that are 
located in Kenya, and Uganda, and so forth. These, I think, 
already are doing biotechnology research, and I think can be 
enhanced and strengthened at the grassroots level. And I think 
that is very important to do.
    Chairman Smith. Well, we tried--and just to wrap it up--we 
tried to assure that--we said that some of the money that is 
being appropriated in Section 5 has to be used for this kind of 
partnership, so please review that.
    Dr. Colwell. I will indeed.
    Chairman Smith. Representative Honda.
    Mr. Honda. Thank you, Mr. Chairman. I appreciate you having 
this hearing and appreciate the testimony, also. For a long 
time, I have had interest in things that are not going on in 
Africa and our attention to that country, so I think it is very 
appropriate that we look at this. My question would be more in 
line with trying to analyze the resistance rather than trying 
to promote biotech. I mean, I am on it, I support it. One of 
the questions I have is all I heard so far about biotech is the 
production of corn and the deployment of corn in terms of 
biotech. Are you looking at plants and food stuffs that are 
native to Africa that people are more used to? Because when I 
was in the Peace Corps back in the 1960's, you know, one of the 
things I tried to show is that we can increase production 
tenfold if we use hybrid corn seeds. And we showed that we 
could increase the production, but they said, you know, you are 
right, we can, but do you know what? The corn tastes different, 
you know. So there are probably some biases within a culture 
and a country, but then I think there are some advantages of 
taking what it is that they understand and know and develop 
that, too.
    And I guess the other question is, if we are trying to 
address the issue of famine by introducing biotech, is biotech 
the only factor that lends itself to famine, or is it the way 
land is used, is it the way ownership is done? Because with 
USAID, understand in different countries, you know, land 
ownership could be hierarchal and poor farmers are not the 
large landowners, so they may not be the one that does the 
export. So are there class differences and are there other 
social differences that we need to pay attention to as we move 
forward on biotech?
    Dr. Colwell. Your questions are extraordinarily perceptive, 
and indeed, the first question with respect to the varieties 
you are familiar with in a country, that is entirely important. 
That is to have African rice genetically engineered to be 
resistant to fungus and infection, and at the same time to be 
enriched with vitamin A to prevent blindness, those varieties 
in the country are the ones that should really be addressed. 
And I think that will also enhance acceptance, because as you 
say, it can be as simple as taste. It can be texture or 
whatever. But it is important and it is critical. So we are, in 
fact, focusing on the foods that are used in the country.
    And I also find your comment and question about other 
applications of biotech. Plant biotech is important, but 
bioprocessing is also very important. And use of biotechnology 
for maintaining, let us say, treatment of soil and also for 
treatment of waste products, so that they can be reused and 
recycled is very, very important. So plant biotech is, of 
course, the subject of today's hearing, but it is but one of 
many opportunities and applications that can be made. So this 
is--to bring the technology, the tools, the methods, the 
fundamental research into the hands of the scientists and the 
agriculturists in the countries is clearly very, very 
important.
    Mr. Honda. Then to follow up with the Chairman's question 
about reading the bill, will the bill provide you the 
flexibility you need in order to create the process that you 
are describing? Because a lot of times bills will be very 
narrow and prescriptive.
    Dr. Colwell. May I respond to you in writing, because I 
want to be precise and I want to be very helpful. And rather 
than just answer off the cuff----
    Mr. Natsios. If I could add, what we are doing in AID, we 
have already invested in research in 26 African food crops for 
basic research through biotechnology to deal with diseases and 
improved efficiency. Let me give you some examples. We are 
developing a vitamin A enhanced corn for Africa. Vitamin A, by 
the way, can reduce by 25 percent the death rate among children 
under 5 because it protects a child against infection. And 
vitamin A deficiency is a major problem that we face in 
countries that have a very limited food basket. In other words, 
they don't have a lot of variety in their food. They don't have 
vitamin A. We just introduced sweet potatoes into South 
Africa--I mean, Mozambique, because a vitamin A deficiency is 
killing so many children. Now, we will permanently get it into 
the agricultural system.
    We are developing a cassava biotech variety in Nigeria, 
Ghana, Kenya, Danforth Center, a cowpea improvement project in 
Nigeria. Rinderpest, which is a major problem for cattle in 
Africa and Kenya, a papaya resistant--there is a papaya 
ringspot virus in the Lake Victoria region of Africa. We are 
doing that with USDA. The banana disease that you mentioned, 
Mr. Chairman, earlier is, in fact, we have invested in that 
research as well. So there are 26 of these different--they are 
insects, viruses, some of them are animal, some of them are 
plant, but they are all using biotechnology and they do this 
through a thing called the Collaborative Agricultural 
Biotechnology Initiative. We call it CABIO. It invests $15 
million to $20 million a year in this sort of research through 
institutions where we match an American research facility with 
one in Africa or another country around these specific issues.
    So we are focused specifically on exact diseases and local 
varieties. They have to be acceptable, because if people eat 
them and they don't like them, they are not going to use them 
and the farmers will never grow them. So we have a whole set of 
tests we go through, not just to solve a technical problem, but 
they have to sell the taste test and everything else. We are 
also working with a number of foundations like the Rockefeller 
Foundation. Gordon Conway is one of the leading experts in the 
world on this, and we have been very close to Rockefeller, 
actually, since the Green Revolution. The Green Revolution was 
the World Bank, the Rockefeller Foundation, and the USAID with 
Norman Borlaug 35 years ago that helped create this Green 
Revolution. We believe by the use of this technology and other 
reforms in the markets that we can deal with the problem of 
famine in Africa.
    One of the reasons that we face famine in Africa, only one, 
is, in fact, drought. A South African scientist is now taking a 
gene from what they call a de minimis plant. It is a plant that 
needs almost no water. They are taking the gene and they are 
going to cross match it, cross breed it, with a maize variety, 
a corn variety, that will be extremely drought resistant. And 
if we can get that variety to be acceptable to people and to do 
what it needs to do, we may solve one of the ongoing problems 
in Africa that famine is driven by, and that is drought. It 
doesn't solve all the problems. You have to deal with markets, 
you have to deal with infrastructure, you have to deal with 
predatory governments like the Zimbabwe Government, but drought 
is one of the major factors, and we can deal with this, we 
believe, through this research, and we are supporting this 
research.
    Chairman Smith. Mr. Atkin indicated that he doesn't have 
any questions at this time, so I would call on Representative 
Lofgren.
    Ms. Lofgren. Thank you. And Mr. Chairman, I think this is a 
very important hearing, and I appreciate the fact that we are 
having it. Thinking about what is going on in famine and the 
lack of uptake of the technology in Africa leads me to think 
about the EU. And in some ways, I think it is so shocking and 
really scandalous that people in Europe who have so much would 
take the actions they have done to disadvantage the poorest 
people on the planet, really, who live on the continent of 
Africa. I just think it is outrageous. So I am thinking what 
you are doing is important. It is good, it is thoughtful, but 
if we don't actually deal with Europe, we are facing barriers 
to actually achieving a goal that is so decent and good.
    And I am wondering if you have given any thought to how we 
might not only deal with the governments of Europe, but with 
some of the interest groups that are behaving in this 
shockingly bad way, how we might influence that.
    Dr. Colwell. Well, there is a certain irony in that NSF 
participates in a direct partnership with the European 
community in a biotechnology initiative which has been ongoing 
for several years, maybe as long as 10 years, and a lot of the 
research is going on there. So there is a very dramatic irony 
in the situation. It is really a consumer issue. It is not a 
science question with respect to not accepting the 
biotechnology products. And I would say that, as a scientist, I 
believe that if the African Government leaders, and some have 
spoken out very strongly, and the individual African consumers 
can see the direct tangible benefits, I think they will embrace 
the technology.
    Mr. Natsios. Let me just add, most of the development 
ministers in Europe are very good friends of mine, and I would 
say at least half the development agencies, the USAID's of 
Europe, strongly support biotech research and use of biotech 
seed in the developing world as one of the many things we need 
to do to deal with this problem of hunger and of drought and 
famine. And they actually invested money in it, but there is a 
hysteria that has been whipped up and many of them are on the 
defensive now as a result of their support for this, and we 
talk about how to deal with this. Tony Blair realizes it is 
damaging British agriculture to have this kind of hysteria. 
Part of it is this animal disease that devastated their animal 
herds in Europe. That, apparently, is one of the things that 
some of these advocacy groups have played on, in terms of 
public fears, to turn around public opinion on this subject.
    The European Union actually, privately, had already 
approved I think five of our corn varieties before this became 
a big controversy, and we were exporting the corn to Europe, 
and they already take our soybeans now. And I think 70 or 80 
percent of our soybean crop is biotech. They are using it in 
Europe now. I might also add that three or four percent of the 
corn crop in France is already biotech, and I am told that 
German scientists are now developing biotech grapes for the 
vineyards in Germany. So the scientists are okay and most of 
the political leaders I deal with are okay and understand this. 
The problem is there is a divide between public opinion because 
of what happened with these animal diseases and the political 
leadership.
    Blair is having a series of town meetings across Britain 
because he thinks it is hurting the long-term economic 
interests of British agriculture to have this hysteria against 
it. A lot of research is going on, but what is happening also 
now is because of the hysteria, the research has slowed down 
and the seeds are not being used in the agricultural system and 
they are behind us. So you are having a marrying of some 
extremist advocacy groups with agricultural interests who want 
this, but because they are far behind us, are very worried that 
we are going to take over their markets because we are doing 
this so much better than they are. Having those two interests 
married at the same time is not in anyone's interest, but it 
has happened. So they are facing a very difficult situation 
now, and unfortunately, it is getting worse and worse.
    Ms. Lofgren. I don't know if you are able to do this, but 
can you identify kind of the sector where this hysteria is 
originating in the EU?
    Mr. Natsios. I would rather not do it publicly at this 
meeting, because I have to deal with these people, and some of 
them will get upset. If I tell you which development ministers 
are pro-biotech, they may get removed.
    Ms. Lofgren. No, I don't mean that. Actually, I am not 
being clear with my question. There are private groups, I 
presume, and this isn't just necessarily emanating from 
governments, that are spreading rumors in Africa, of 
distributing lies that actually are resulting in the starvation 
of young children. I would like to know who those people are.
    Mr. Natsios. I will tell you what the groups are later. I, 
actually, made a public statement at--they demanded my 
resignation. I said it publicly who the groups are at the 
Johannesburg conference. They demanded my resignation, they 
have issued long, some of them personal, attacks on me, on 
USAID, and some of these groups, full of the most 
extraordinarily abusive slant.
    Ms. Lofgren. Well, it can be after this meeting, but it 
seems to me that we ought to take some action that is necessary 
legally, but I mean, the church groups ought to become 
involved. What these groups are doing is unconscionable and 
they ought to be ashamed of themselves.
    Mr. Natsios. I think they should be ashamed.
    Ms. Lofgren. It is like a war crime what they are doing and 
we should start a counter effort because we should just not 
accept this.
    Mr. Natsios. When I said this publicly in August of last 
year, it was very interesting. One of the groups said they 
would suspend their opposition because I accused them of, in 
fact, starving people to death, by name. They did not like it 
and they said they would suspend their opposition to biotech 
for the extent of the food emergency. But then two weeks later, 
someone convinced them that that was the wrong thing to do and 
they announced they were still opposed to any food aid being 
imported. I said if the Europeans want to import food, or 
export food to Africa in the form of food aid to take the place 
of ours, I am happy to do it. But they don't do a lot of food 
aid, so they couldn't do it. We were it, basically, in terms of 
the great bulk of the food that was going to these emergencies.
    So there is a problem. Some of them are simply 
irresponsible. I have never seen such egregious abuse of fact 
and science as the material they put out. It is on their 
websites. I saw a card being sent out by one of these groups in 
South Africa at the Johannesburg summit, and it said you will 
change your gene pool if you eat biotech corn. That is what it 
said. They were sending these postcards out to people. I said, 
what is this based on?
    Ms. Lofgren. Well, my time is up, but I would very much 
like to have some further information after this hearing about 
the origin of this assault on the children of Africa. Thank 
you.
    Chairman Smith. Zoe, your terminology is great, and thank 
you for your comments. It was interesting, when I was visiting 
with the scientists, the research scientists, the Federal 
research that is the equivalent of NSF in the Netherlands, they 
said, well, you folks in America are a little dumb on how you 
are going about this. Why don't you start producing things that 
are going to really help people? Producing food where they 
can't produce enough and they are starving now, or producing 
the kind of food that is going to be more nutritious. And I 
think that is sort of what inspired me to generate this kind of 
hearing and the language that the Ranking Member and I have 
tried to push, that if we can get our foot in the door in 
Africa, then it is going to be the start of a better 
understanding. And with that, I would ask the Ranking Member.
    Ms. Johnson. Thank you, Mr. Chairman. I would like to 
understand better the relationship between the NSF and USAID 
and other Federal agencies and how you might work together with 
this plant biotechnology development of something in Africa.
    Mr. Natsios. What we do together, and not just in this area 
but in the health field and other fields, is we jointly fund 
things. So we will--USDA and AID will jointly fund a research 
project in South Africa, for example, or Kenya, or something 
like that. Or the National Science Foundation will do the same 
thing, or with the EPA. So we do this jointly in terms of 
funding. Our scientists talk to the scientists from other 
Federal agencies all the time on these sorts of things and we 
have a structure, CABIO, as I described earlier, which is a 
network of American universities that partner with African 
universities, and some of these partnerships that are dealt 
with through CABIO grants involve other Federal agencies that 
we also get funding for.
    Ms. Johnson. Is it a formal coordination or just informal?
    Mr. Natsios. Is there a formal mechanism?
    Dr. Colwell. It is a bit of both. In some programs, such as 
the plant genome centers, the research that is done and the 
interactions are regularized. But we also do a lot of sharing 
of information and developing programs together, and that is 
more or less ad hoc, so it is a mixture.
    Ms. Johnson. Okay. For the USAID supported research at U.S. 
universities that address agricultural problems in Africa, to 
what extent are African scientists involved in the activities, 
including the setting of goals and that sort of thing?
    Mr. Natsios. Let me just give you an example. I visited the 
Danforth Center in St. Louis, which is one of the premiere 
institutions in terms of research. We are supporting a cassava 
biotechnology for Africa, but it is being done by training 
African scientists from Nigeria, Ghana, and Kenya. In fact, 
some of them I met when I was there. Some of them already have 
their Ph.D.'s as scientists and they are getting post graduate 
research work done, and then they go back to the universities 
and teach it at their universities. In other cases, we have 
actual universities in Africa that have agriculture schools 
where there will be a partnership between an American 
university and an African university, and some of this work is 
done through the ministries of agriculture in Africa. So it 
depends on the--I can give you a list, actually, of the 
portfolio, and you can see some of the things that we have that 
we do try and do.
    [Note: Information referred to is located in Appendix 2: 
Additional Material for the Record.]
    Ms. Johnson. Okay. There are a few land grant colleges 
throughout the country that have agricultural programs, and I 
wonder if you work with any of them in relationship with 
Africa?
    Mr. Natsios. Yes, we do, definitely. Michigan State, 
Cornell University is on the list here, Tuskegee, Purdue.
    Dr. Colwell. Riverside.
    Mr. Natsios. University of Florida, UC Davis. Those are 
just some of them. We will give you a list.
    [Note: Information referred to is located in Appendix 2: 
Additional Material for the Record.]
    Ms. Johnson. Okay. I wonder about Texas A&M or----
    Mr. Natsios. Texas A&M, yes, is definitely on the list.
    Ms. Johnson. Okay. Thank you, Mr. Chairman.
    Mr. Natsios. You are from Texas, Congresswoman, I did 
remember that.
    Chairman Smith. I suspect you knew that. We have three 
votes. We have probably the most outstanding panelists on the 
third panel that any committee in Congress could bring together 
to give Congress, this committee and Congress, guidance on 
where we go. We have a 15-minute vote that is in process now, 
two 5-minute votes, so it is my guess that it will be about 20 
minutes then we will reconvene. So again, Dr. Colwell, 
Administrator Natsios, thank you very much, again. We hope that 
you are open for additional questions that haven't been asked, 
if we could send them to you.
    Mr. Natsios. Absolutely.
    Dr. Colwell. Absolutely.
    Chairman Smith. And with that, the Subcommittee is in 
recess at the call of the Chair.
    [Recess]

                                Panel 3

    Chairman Smith. The Subcommittee will end its recess and 
come back to order and work. I would like to make a couple of 
comments before we proceed. Number one, thank you so much for 
your time and being at this panel. Dr. Conway, Dr. Kilama, and 
Dr. Horsch, a video, not only the transcript, but a video of 
your testimony will be made available to the rest of the 
Committee, plus it will be made available to interested parties 
in biotech. I am a member of the Biotech Caucus in Congress, 
and so we very much look forward to your comments and 
testimony.
    A statistic that Dan has given me--and Dan Byers, thank you 
so much for all of your work in having a great hearing this 
afternoon--is the fact that a tremendous impact on the people 
of Africa where a one percent productivity increase is 
estimated to bring six million African men, women, and children 
out of poverty. So just even some small changes and the 
potential for great changes, I think, is with us if we are 
smart enough to move ahead. And probably, we are not going to 
stop biotech development, but some of the environmental groups 
that want an emotional issue, that are looking for a 
precautionary principle to slow down the advancement, are going 
to slow it down. But it is such a tremendous opportunity for 
the many populations of the world that, eventually, it is not 
going to be stopped.
    With that, let me introduce our third panel, and Mr. Akin 
has suggested that he would like to introduce Dr. Horsch in a 
little more detail. Dr. Gordon Conway is President of the 
Rockefeller Foundation, a New York based charity dedicated to 
improving food security around the world. Dr. Conway's previous 
positions include Vice Chancellor of the University of Sussex 
in England; Director of the Sustainable Agriculture Program of 
the International Institute for Environment and Development in 
London, and he has authored Unwelcome Harvest: Agriculture and 
Pollution, 1991; and The Doubly Green Revolution: Food for All 
in the 21st Century, in 1999.
    Dr. John Kilama is President of the Global Bioscience 
Development Institute, a firm developing training and 
consulting to policy-makers in developing countries on 
biotechnology regulation, intellectual property rights, and 
international trade development. His background is in 
pharmaceutical and agricultural biotechnology and 
agrichemistry. And previously, Dr. Kilama worked at the Dupont 
Company, specializing in developing chemicals for crop 
protection and establishing collaborations between Dupont and 
institutions in developing countries. And with that, I would 
yield to Mr. Akin for an introduction.
    Mr. Akin. Thank you, Mr. Chairman, and I appreciate this 
opportunity to do a little bragging and also introduce our 
third panelist. I really appreciate your holding the hearings. 
I also thank the panelists for their long suffering. We have 
had--it has been a pretty long series of meetings today. Of 
course, Monsanto is headquartered in my hometown of St. Louis, 
and that is our area. It is a leading provider of agricultural 
products and integrated solutions for farmers, and it is a 
critical element of the Missouri economy. In the past few 
years, the St. Louis region has been recognized as the biobelt, 
the world class center for plant and life science research, and 
Missouri researchers are discovering new genes that could 
increase drought tolerance or utilize nitrogen more 
efficiently, thereby, requiring fewer fertilizers, which in 
Africa is also expensive. And as we have heard in previous 
testimony, hard to come by. The work is groundbreaking and will 
save countless lives.
    Monsanto is also partnered with Donald Danforth Plant 
Science Center in St. Louis, and the Danforth Plant Science 
Center is an independent, not for profit, research center in 
the St. Louis area. It has made a special commitment to 
assisting countries in the developing world, including many in 
Africa, in building their capacity for sustainable agriculture 
and nutrition. Efforts are underway at the Danforth Center to 
develop crops with increased resistance to disease and pests. 
For example, scientists are working to develop varieties of 
cassava, a starchy root crop that is Africa's most important 
staple food, that are resistant to the devastating plant 
disease known as mosaic virus. It is estimated that upwards of 
35 million metric tons of food are lost in Africa each year due 
to the devastating impact of that virus alone. These important 
discoveries are vital to increasing crop yields and resistance 
in many developing countries where the majority of people 
depend on agriculture for their livelihood.
    More importantly, on a continent where at least 1/3 of the 
population lacks adequate food supplies, it is essential that 
we remain committed to plant biotechnology research. There is 
little doubt that these findings could contribute to an overall 
growth of the country's economy by reducing property and 
increasing the ability to grow and buy food, and creating 
higher standards of living, including better health and 
education. For all these reasons, it is my great pleasure to 
introduce Dr. Robert Horsch, the Vice President of Product and 
Technology Cooperation for the Monsanto Corporation. He has led 
the company's plant science culture and transformation efforts 
contributing to the development of the Bollard, the YieldGard, 
and Roundup Ready traits which are in broad use today.
    In 1999, Dr. Horsch received the Presidential Medal of 
Technology for his contributions to the development of 
agricultural biotechnology. He is also a member of the Private 
Sector Committee of the Consultant Group of International 
Agricultural Research. It sounds like CGIAR when you put it 
together. And the United Nations Millennium Project Task Force 
for Hunger. Doctor, it is a pleasure to have you here and the 
rest of our panelists. Unfortunately, I have got two other 
concurrent meetings, so you are going to have to excuse my 
slipping out. Mr. Chairman, thank you very much, and thank you 
very much for just a great series of hearings.
    [The prepared statement of Mr. Akin follows:]
                   Prepared Statement of W. Todd Akin
    Thank you Mr. Chairman. I would like to thank you for holding this 
important hearing and I want to thank the witnesses for testifying in 
front of the Committee today.
    Headquartered in my hometown St. Louis, Missouri, Monsanto employs 
approximately 14,700 people in 60 different countries worldwide. 
Monsanto is a leading provider of agricultural products and integrated 
solutions for farmers and is a critical element of Missouri's economy.
    In the past few years, the St. Louis region has been recognized as 
the ``Biobelt'' a world-class center for plant and life sciences 
research. Missouri researchers are discovering new genes that could 
increase drought tolerance or utilize nitrogen more efficiently, 
thereby requiring fewer fertilizers, which in Africa is often expensive 
and hard to come by. This work is groundbreaking and will save 
countless lives.
    Monsanto has also partnered with the Donald Danforth Plant Science 
Center in St. Louis.
    The Donald Danforth Plant Science Center is an independent, not-
for-profit research center in St. Louis. The Center has made a special 
commitment to assisting countries in the developing world, including 
many in Africa, in building their capacity for sustainable agriculture 
and nutrition. To deliver on this commitment, the Danforth Center has 
established a series of objectives for the next five years, among which 
are to:

        <bullet> LMake discoveries that can benefit developing 
        countries;

        <bullet> LEstablish meaningful collaborations with research 
        institutions in developing countries;

        <bullet> LFacilitate the development of biotechnology products 
        for developing countries;

        <bullet> LIntegrate training with research and development for 
        developing countries;

        <bullet> LImprove the regulatory climate for biotechnology in 
        developing countries; and

        <bullet> LRaise understanding of the potential benefits of 
        biotechnology for developing countries.

    Efforts are underway at the Danforth Center to develop crops with 
increased resistance to disease and pests. For example, scientists are 
working to develop varieties of cassava--a starchy root crop that is 
Africa's most important staple food--that are resistant to a 
devastating plant disease known as the mosaic virus. It is estimated 
that upwards of 35 million metric tons of food are lost in Africa each 
year due to the devastating impact of this virus.
    Danforth Center scientists are also developing plants to improve 
human nutrition and health--for example, plants with increased levels 
of iron and folate. They are also studying plant nutrition to better 
understand how roots absorb minerals and survive drought. This research 
could lead to plants that can grow in mineral-poor, arid or saline 
soil, and foods enriched in essential elements.
    The Danforth Center is working to share the benefits of 
biotechnology with the developing world and in doing so is 
demonstrating in a very clear way that cutting-edge plant science can 
contribute to improvements in agriculture, nutrition and health in poor 
nations.
    These important discoveries are vital to increasing crop yields and 
resistance in many developing countries where the majority of people 
depend on agriculture for their livelihood.
    More importantly, on a continent where at least one-third of the 
population lacks adequate supplies of food, it is essential that we 
remain committed to plant biotechnology research. There is little doubt 
that these findings can contribute to the overall growth of a country's 
economy by reducing poverty, increasing the ability to grow and buy 
food and creating higher standards of living including better health 
and education.
    For all these reasons, it is my great pleasure to introduce Dr. 
Robert Horsch, the Vice President of Product and Technology Cooperation 
for the Monsanto Corporation. He has led the company's plant tissue 
culture and transformation efforts, contributing to the development of 
the Bollard, YieldGard, and Roundup Ready traits, which are in broad 
use today. In 1999, Dr. Horsch received the Presidential Medal of 
Technology for his contributions to the development of agricultural 
biotechnology. He is also a member of the Private Sector Committee of 
the Consultative Group for International Agricultural Research (CGIAR) 
and the United Nations Millennium Project Task Force for Hunger.

    Chairman Smith. I did mention that the testimony will be 
made available to you. You will be tested on all of the 
testimony, especially, of Dr. Horsch. I would like to also 
mention that----
    Mr. Akin. I notice there is no one else here. This is a 
tough committee.
    Chairman Smith. I would like to mention, also, that I 
requested and we received written testimony for this hearing 
from T.J. Buthelezi. He is a cotton farmer in South Africa. His 
testimony is in each one of the member's folders, plus is 
available on the distribution table outside. And in his own 
words, it was just very interesting that he talked about 
raising the biotech cotton, and he started with just a small 
plot, and as he saw that he could save labor, and pesticides, 
and the potential damage of applying that extra pesticide, he 
kept expanding. I think he started with three hectares, and 
then he went to five, and now he is up to twenty-six, and his 
testimony is very interesting, because unlike a lot of farmers 
in the world, he indicated he has got so much money now. And 
with that, Dr. Conway, please proceed.
    [Note: The statement of Thembeitshe Joseph Buthelezi 
appears in Appendix 2: Additional Material for the Record.]

    STATEMENT OF DR. GORDON CONWAY, PRESIDENT, ROCKEFELLER 
                           FOUNDATION

    Dr. Conway. Thank you, Mr. Chairman, Ranking Member 
Johnson, and the entire distinguished Subcommittee. I am 
pleased to be here for this hearing on an extraordinarily 
important subject. I am delighted you are going to be setting 
an examination at the end. As a former professor, I will slip 
in a trick comment. The central mission of the Rockefeller 
Foundation for its 90-year history is to improve the lives and 
livelihood of poor and excluded people around the world. And 
this inevitably involves food and hunger. And I want to point 
out, of course, that we were as Dr. Natsios said, at the 
beginning of the Green Revolution in the 1940's. Norm Borlaug 
was a member of the staff of the Rockefeller Foundation when he 
did this groundbreaking work.
    But today, of course, it is Africa that is the top of the 
list of the world's regions where the poor are chronically 
hungry. And at this point in time, it will be impossible to do 
too much to address this problem. In my oral testimony, I would 
like to focus on three key issues. First, I want to briefly 
describe some of the key challenges faced by Africa and its 
agricultural sector. Second, I will talk about some principles 
that I believe can guide policy-makers who are considering 
biotechnology applications in Africa. And finally, I will 
briefly describe some of the Rockefeller's specific efforts 
that may be of interest in this field.
    The facts concerning Africa are well known and have been 
laid out before you all this morning. Very simply, Africa is 
not currently growing enough food. In most African countries, 
the per capita food production is going down. There are many 
reasons for this: conflicts, disease. They are all taking a 
terrible toll on Africans, including farmers. But one important 
cause is simply that agricultural productivity is just too low. 
The average yield on African farms is the same as the average 
yield on European farms at the time of the Roman Empire 2000 
years ago.
    The typical African farmer today is a woman with a family, 
farming a small plot of low fertility land, confronted by a 
variety of challenges: pests, diseases, terrible roads, erratic 
rainfall, lack of fertilizers. And everyone agrees that 
improvements in her productivity will be beneficial to her and 
to her family. What, of course, is disputed is whether 
biotechnology can be helpful to African agriculture. And the 
skeptics fall in one of two camps. There are those who are 
concerned about the health, environmental, and safety impacts. 
Then there are the others who are concerned that so much of the 
new technology is in the hands of western companies, that it is 
expensive to purchase, it may be inappropriate for use in 
developing countries.
    These are important concerns, but for us at the Rockefeller 
Foundation, what we are attempting to do is address two central 
questions. First of all, how can we help poor, small holder, 
African farmers increase their food security? And secondly, 
what tools can be made available to them to address the 
difficult challenges they face in producing a healthy harvest? 
And in considering those two questions, we have to be 
absolutely clear that biotechnology is but one tool in a larger 
toolbox, from which African farmers must themselves choose. 
There is no magic solution to the problems of African hunger 
and African agriculture, but the problem is so big that the 
Africans should have the right to consider every possible tool 
at their disposal. We believe that Africans should be the ones 
to weigh the cost and benefits, and we believe Africans should 
have access to the knowledge to help themselves, and we have 
constructed our strategy around that goal.
    This principle, that Africans should be able to choose, has 
led us to work toward putting African scientists and farmers in 
positions to draw down upon the new technologies and to adapt 
them for their uses. Western corporate ownership of much of the 
intellectual property necessary for use in biotechnology 
presents an impediment. We need to go to public resources to 
help African institutions and regulatory bodies, its 
scientists, and its farmers. The fact is that improvements in 
African agricultural productivity are not likely to be made in 
American laboratories, but in applied settings by African 
scientists, drawing upon the best of the world's know-how in 
real situations. Africans need commitments from governments, 
their own governments and western governments, to help in 
building the necessary capacity in Africa. And they need 
western companies to make available the knowledge that might be 
adaptable, and that is what we at the Rockefeller Foundation 
are trying to do.
    We recently created the African Agricultural Technology 
Foundation, which is African led, African based. It is designed 
to resolve many of the barriers that prevent small farmers, 
small holder farmers, from gaining access to enabling 
agricultural technologies. It is based in Nairobi Kenya, and 
directed by Dr. Eugene Terry from Sierra Leone, who is superbly 
qualified in his field. We have also worked to help strengthen 
African regulatory bodies and to train hundreds of African 
scientists. We make grants to help appropriate regulatory and 
managerial systems so they can function effectively.
    We have made a number of other grants in Africa, undertaken 
a variety of other efforts, but in my opening remarks, I want 
to suggest this central principle and goal to you. Let us look 
at how Africans can be free to make choices and use the full 
range of ideas and techniques, from conventional crop breeding 
and soil fertility improvement to advanced technologies, to 
help themselves.
    I spent most of my life not in New York or London, but in 
the field, in developing countries, working as an ecologist. 
Many parties working together learned a lot, including learning 
what did work and what did not work as a result of the so 
called Green Revolution in Asia in the 1960's and 1970's. I was 
proud to be a part of that. Now we must all focus new and 
innovative ideas on helping Africa be in a better position to 
help itself, and I am grateful for your inviting me here for 
this most important discussion. Thank you, sir.
    [The prepared statement of Dr. Conway follows:]
                  Prepared Statement of Gordon Conway
    Thank you Mr. Chairman, Ranking Member Johnson, and the entire 
distinguished Subcommittee. I am pleased to be here for this hearing on 
an extraordinarily important subject and to represent the Rockefeller 
Foundation.
    I know that we have been asked to limit our spoken testimony to 
approximately five minutes. Like the other panelists, I have submitted 
longer written testimony to the Committee and will answer any questions 
about those submissions. In my oral testimony I'd like to focus on 
three areas that I believe are central to successfully dealing with the 
current situation. First, I will very briefly describe some key 
challenges faced by Africa and its agricultural sector. Second, I will 
talk about some principles that I believe can help guide policy-makers 
who are considering biotechnology's applications in Africa. Finally I 
will briefly describe some of Rockefeller's specific efforts that may 
be of interest in this field.
    The facts concerning Africa's current situation are well known to 
you--and very serious. As we meet this morning in Washington, there are 
literally millions of people in Africa who do not have enough to eat 
and are at risk of starvation. While this current crisis is real, it is 
not new. There are about 200 million chronically malnourished human 
beings in Africa and 40 million African children who are severely 
underweight for their age. One estimate is that there are about six 
million children a year who perish in the world from illnesses related 
to malnutrition--six million children dying without enough to eat is a 
terrible reality, a horrifying number that I believe should shame every 
civilized person.
    The next fact that must be mentioned is that Africa is not 
currently growing enough food. There are many, many reasons for this--
armed conflicts and disease among other factors are taking a terrible 
toll on Africans, including farmers. But one important cause is simply 
that agricultural productivity in Africa is just too low. Indeed, the 
average African farmer's crop yields are about the same as those 
enjoyed by some farmers during the Roman Empire. That too is a shame, 
and many parties, including the Rockefeller Foundation, are trying to 
improve agricultural productivity in Africa.
    But I do not want to just reiterate facts about the need to improve 
African agricultural productivity. Everyone likely agrees that 
improvements in productivity would be beneficial. What is sometimes 
disputed is whether biotechnology can be helpful to African 
agriculture.
    Skeptics of biotechnology for Africa usually come from one of two 
camps. First, some are concerned over the health and safety impact of 
new technologies. Second, others are troubled that so much of the new 
technology is developed by Western companies, it is expensive to 
purchase, and it may be inappropriate for use in developing nations.
    These are important concerns. In charting our course at Rockefeller 
and trying to answer them, we have found a single central principle has 
helped guide us. That is, how can we help Africans be in a better 
position to evaluate what technologies are right for them, and to be 
able to obtain and implement helpful technologies? We believe Africans 
should be the ones to weigh costs and benefits. And Africans should 
have access to the knowledge to help themselves and their farmers. We 
have constructed our strategy around that goal.
    Here in the United States, and many other places, the decision has 
been made to use biotechnology--indeed more than 75 million acres in 
the United States are planted with genetically modified crops. As some 
of you know, I am an applied ecologist, and I have looked into the 
scientific issues extensively. I could talk at some length about my 
opinion on the subject.
    But my ultimate conclusion is that just as Americans and Europeans 
are free to make reasoned and fair decisions for themselves, so should 
Africans have the same choice.
    Similarly, our principle--that Africans should be able to choose--
has led Rockefeller to work towards putting African scientists and 
farmers in a position to draw upon and adapt new technologies. Western 
corporate ownership of much of the intellectual property necessary to 
use biotechnology is a problem. We need greater public resources to 
help African institutions and regulatory bodies, its scientists and its 
farmers. The fact is improvements in African agricultural productivity 
are not likely to be made in American labs, but in applied settings--
most likely by African scientists drawing upon the best of the world's 
know-how in real world situations. Africans need commitments from 
governments to help build the necessary capacity, and they need Western 
companies to make available knowledge that might be adaptable.
    In Asia, locally based scientists have made thousands of important 
advances and are experimenting with hundreds of new crops. Africa needs 
to be in a position to do the same--it needs a variety of institutions 
to help Africans be able to evaluate and develop potentially useful 
technologies.
    That is what we at the Rockefeller Foundation are trying to do. We 
have recently helped create an African-based, African-led organization, 
the African Agricultural Technology Foundation, designed to resolve 
many of the barriers that have prevented smallholder farmers from 
gaining access to enabling agricultural technologies. It is based in 
Nairobi Kenya, and directed by Dr. Eugene Terry who is originally from 
Sierra Leone and is superbly qualified in the field.
    We have also worked to help strengthen African regulatory bodies 
and train hundreds of African scientists. We make grants to help 
appropriate regulatory and managerial systems so they can function 
effectively.
    We have undertaken a variety of other efforts in Africa, but in my 
opening remarks I wanted to suggest this central principle and goal to 
you--let us look at how Africans can be free to make choices and use 
this technology to help themselves.
    I have spent most of my life not in New York or London, but in the 
field, in developing countries, working as an ecologist. Many parties 
working together achieved great things as part of the so-called Green 
Revolution in Asia in the 1960s and 1970s. I was proud to be a part of 
it. Now we must focus new and innovative ideas on helping Africa be in 
a better position to help itself.
    I look forward to our discussion, and working together to improve 
the situation of many millions of very poor people.
    Thank you.

                      Biography for Gordon Conway
    Gordon Conway, a world-renowned agricultural ecologist, was elected 
the 12th President of the Rockefeller Foundation in New York City, in 
April 1998. He is the first non-U.S. citizen to lead the Foundation, 
which was founded in 1913 by philanthropist and international 
businessman John D. Rockefeller. Prior to joining the Foundation, Dr. 
Conway was Vice Chancellor (President) of the University of Sussex in 
Brighton, one of the United Kingdom's leading research universities, 
and Chair of the University's Institute of Development Studies.
    The Rockefeller Foundation is a knowledge-based, global foundation 
with a commitment to enrich and sustain the lives and livelihoods of 
poor and excluded people throughout the world. Dr. Conway oversees the 
Foundation's philanthropic grant-making in its four program themes: 
Food Security, Health Equity, Working Communities and Creativity & 
Culture. The four themes and a cross theme of Global Inclusion fund 
program initiatives including those to increase food production in 
developing countries; develop medicines and vaccines for diseases like 
HIV/AIDS, tuberculosis and malaria; and, in the United States, to 
create strategies to move people out of persistent poverty and to 
reform public schools.
    Dr. Conway pioneered integrated pest management in Sabah, North 
Borneo, Malaysia, in the 1960s; developed agroecosystems analysis in 
Thailand in the 1970s; and in the 1980s was one of the first to define 
the concept of sustainable agriculture--a field that is critical to 
successful development of poor countries--as the Director of the 
Sustainable Agriculture Program of the International Institute for 
Environment and Development in London. Dr. Conway developed 
interdisciplinary centers of environmental education at London 
University in the 1970s and helped set up similar centers in the Sudan, 
Indonesia, the Philippines and Thailand.
    In the late 1980s Dr. Conway worked on participatory projects in 
northern Pakistan and Ethiopia, which enabled villagers in these 
countries to analyze, define and implement solutions to their own 
agricultural and environmental problems.
    Dr. Conway has written more than 100 papers, monographs and books 
on applied ecology, resource and environmental management, and 
international development. His most recent book, The Doubly Green 
Revolution: Food for All in the 21st Century (Penguin and University 
Press, Cornell), was published in 1999.
    A former Ford Foundation representative for India, Nepal and Sri 
Lanka, Dr. Conway spent 12 years as an Administrator, Director and 
Professor at England's Imperial College of Science, Technology and 
Medicine. He also chaired the Commission on British Muslims and 
Islamophobia for the Runnymede Trust, a U.K. think tank on race and 
ethnicity.
    Dr. Conway has worked with several American-based research 
institutions including leading a team charged with producing a new 
vision for the Consultative Group on International Agricultural 
Research in Washington, D.C., that coordinates the work of the 
International Agricultural Research Centers, many of which are or have 
been Rockefeller Foundation grantees.
    Dr. Conway has a Bachelor's degree in zoology from the University 
College of North Wales, Bangor, United Kingdom, a diploma in 
agricultural science from the University of Cambridge, United Kingdom, 
and a diploma in tropical agriculture from University College of West 
Indies, Trinidad. He received his doctorate degree in agricultural 
ecology from the University of California, Davis. He holds honorary 
fellowships from the Institute of Biology and the University of Wales, 
Bangor, United Kingdom; and honorary degrees from the Universities of 
Sussex and Brighton, United Kingdom, and the University of the West 
Indies, Trinidad. He is a fellow of the American Academy of Arts and 
Sciences, an Emeritus Professor at the University of Sussex and 
Visiting Professor at Imperial College.
    Dr. Conway is married with three children. He and his spouse, 
Susan, reside in Sleepy Hollow, New York.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Smith. Dr. Conway, thank you very much, and it is 
awkward. We just finished voting on the last vote. I voted 
quickly and then came over, but I would like to also mention 
that this is live on our Science Committee website, and it will 
be available on the website for anybody's review for the next 
year-and-a-half until the conclusion of this Congress. Dr. 
Kilama.

  STATEMENT OF DR. JOHN KILAMA, PRESIDENT, GLOBAL BIOSCIENCE 
                     DEVELOPMENT INSTITUTE

    Dr. Kilama. Thank you, Honorable Chairman Nick Smith, and 
Honorable Eddie Bernice Johnson, Ranking Member, for providing 
me with the opportunity to speak to you, and distinguished 
Members of the Subcommittee on Research, regarding Plant 
Biotechnology Research and Development in Africa: Challenges 
and Opportunities. Mr. Chairman, the tragic truth is 
unavoidable. Despite the great potential of plant biotechnology 
to improve food production, Africa is losing the war against 
hunger. As USAID Administrator Natsios has noted, an estimated 
435 million Africans could face severe food insecurity by the 
year 2010. And yet, this doesn't mean that plant biotechnology 
has failed in Africa. On the contrary, plant biotechnology has 
not been given a chance to work in Africa.
    Why is plant biotechnology research and development not yet 
successful in Africa? We have the temptation to blame the 
European Union moratorium on GMOs for Africa's failure to adopt 
biotechnology. But in my opinion, there is more fundamental and 
more troubling factors that are responsible. Even if the 
European Union ends its moratorium on GMOs, and surely it will, 
plant biotechnology will still face a bleak future in Africa 
unless we develop a clear roadmap to address the root causes of 
this crisis, rather than its symptoms.
    In my view, developing a roadmap for creating sustainable 
biotechnology applications that eliminate food insecurity in 
Africa must consist of the following steps. We must focus on 
financial support of the long-term strategic plan, not on 
making short-term investments. These plans would include 
developing a process for coordinating all the efforts of the 
African assistance for biotechnology that are currently 
provided to Africa by various U.S. agencies.
    We must revive and rebuild Africa's battered capacity for 
applied research and make research institutions a cornerstone 
of our efforts. This process should encourage a spirit of 
entrepreneurship and the incubation of private companies that 
commercialize innovations that come out of Africa applied 
research centers at various universities.
    We must focus on applied research to solve problems that 
Africans themselves identify as essential and relevant to the 
food crisis. Africans must be involved at every stage of the 
planning and implementation.
    We must rebuild Africa's battered infrastructure for 
agricultural extension at a time when it is more essential than 
ever. We must help Africans create legal certainty, 
predictability, transparency to help spur investment from the 
public sector and to nurture an entrepreneurial spirit. And we 
must act very quickly because technology is moving so fast, and 
if Africa is already behind and nothing is done, it is 
unbelievable what is going to happen in 10 or 15 years. We have 
seen Asia move, we have seen South America move. Africa is 
moving backwards.
    Mr. Chairman, continuing to apply short-term fixes will not 
reduce potential food catastrophe in Africa. Only long-term 
strategic investment will address the problems. We need to 
support the building of African university institutions by 
providing adequate funding and working with university 
officials in partnership with African policy-makers to help 
them understand their options for making decisions about 
biotechnology research. The support would be on the basis of 
how they may contribute to solving the hunger problem five 
years or ten years down the road.
    Mr. Chairman, Africa's infrastructure for applied research 
in biotechnology is in bad shape. In a recent study, Dr. 
Alhassan, a visiting scientist at the International Institute 
of Tropical Agriculture pointed out that the National 
Agricultural Research System of the following seven countries 
in West Africa, Burkina Faso, Cameroon, Cote d'Ivoire, Ghana, 
Mali, Nigeria, and Senegal has no capacity to do any advanced 
research. So the question I would ask then, how can we expect 
advanced research to take place when African scholars are 
poorly paid? Libraries lack modern research tools such as 
computerized databases. Research institutions lack internet 
connectivity. African scholars are isolated from the main 
currents in their discipline, both within Africa and across the 
globe.
    We know it doesn't have to be this way because in the 
1960's and the 1970's it wasn't. During that period, many 
African universities enjoyed a significant budget for applied 
research. Most African governments spend at least one percent 
of their GDP on scientific research. Today, you would be hard 
pressed to find even five governments that spend as much as one 
percent of their GDP on research. Many governments only spend 
one-tenth of one percent. What went wrong? It is easy to point 
fingers, civil wars, corrupt self-serving governments that are 
very oppressive and ill informed about biotechnology. Even the 
World Bank, in pursuit of structural adjustments, put pressure 
on African government to discourage research and higher 
education in favor of short-term approaches. At least now, I 
have seen they are beginning to review that policy.
    In any case, finger pointing won't get the job of 
rebuilding done. So where do we start? Across the continent, 
there are several African leading universities and research 
institutions that have considerable potential to emerge as 
centers of quality research in plant biotechnology. Among those 
I would include the University of Botswana, Ahmadu Bella 
University in Nigeria, and I would include Yaounde University 
in Cameroon, the National University in Cote d'Ivoire, Addis 
Ababa University, Omar Bongo University in Gabon, the 
University of Ghana, the University of Namibia, University 
Cheikh Anta Diop of Dakar, and Makerere University in Uganda. A 
number of African research institutes, as well, are very 
active, and one of them is KARI [Kenya Agricultural Research 
Institute], which has now produced some variety in sweet 
potatoes as a result of partnership between USAID and Monsanto 
Company.
    It is very important that innovations within African 
universities be given a chance to move into the private sector, 
and I want to give one example. The University of Western Cape 
in South Africa can serve as a role model. At that university, 
the South African National Bioinformatics Institute, SANBI, is 
developing bioinformatics analysis site and using it as an 
incubator for new companies. The mission is very simple. It is 
to produce innovations which can then be passed on to private 
sectors. And I believe the solutions for food security is not a 
matter of simply producing food for Africans to eat. It has to 
be looked at in the global system, economic system, and I 
believe that is one way in which we can be able to reduce 
hunger in Africa.
    It is important to bring biotechnology to the heart of the 
African people, rather than create centers of excellence that 
are far away and far less responsive. Africa needs to bring 
biotechnology to its grassroots. Technology must be supported 
by local expertise and local universities that understand local 
needs. Sources of knowledge and support must be on the ground 
close to the farmers. I want to give you an example. I live in 
Delaware. If the chicken farmers or the poultry farmers in 
Delaware had to rely on centers of excellence in, let us say, 
Nebraska or California, I don't think that would be serving the 
interests of the farmers in Delaware. And that is why the 
center of excellence for poultry is located in the University 
of Delaware. So why should we really begin to try to introduce 
scientific research from far away and not creating those 
centers within each country? And I think it is very important 
that the source of strength for developing capacity in plant 
biotechnology has to lie within the university.
    I want to say that during my recent trip to Brazzaville, 
the capital of the Republic of Congo, I met with Honorable 
Jeanne Dambendzet, the Minister of Agriculture, and during our 
meeting, she expressed great concern about the problems that 
they are experiencing with cassava blight, which is a disease 
that is destroying the cassava. And by the way, cassava is the 
second leading source of carbohydrates after rice, and yet, 
there is not sufficient funding that is available to provide 
the opportunities for Africans to grow cassava, which is 
essential in most of West Africa and East Africa Central, 
including even South America and Asia.
    One other thing, also, I discovered within Central Africa 
is a product they call koko, and this is harvested wild, and it 
is a very important source of protein for a lot of people in 
Central Africa, from Cameroon to Gabon, to Congo, to Central 
Africa. And yet, there is an issue of it being destroyed in the 
environment. So allow me to conclude by saying that it is very 
important that whatever we try to do, it has to be long-term, 
and we begin to see the benefits of long-term strategy in Asia, 
which is bearing fruit today. If we continue to provide short-
term fixes, it will not solve the problems of Africa. And in 
fact, it is very important that research become a cornerstone 
of our efforts, and it has to be imbedded in universities, 
strengthened universities.
    And one last point, when I was growing up and going to high 
school, there were so many Americans who were imbedded in the 
universities as professors. Today, you would be hard pressed to 
find any single individual in most of these universities who 
are serving one year of sabbatical in African universities. In 
fact, we prefer Africans to come into the United States. I 
think that is beneficial, but it is more beneficial if we begin 
to have the traffic both ways. And I think one of the efforts 
that should be done by the National Science Foundation is to 
encourage the university professors here to go and spend a year 
or two years, and by doing that, it provides opportunities for 
the African scientists to learn some of the more sophisticated 
ways of conducting research. And I thank you for giving me the 
opportunity.
    [The prepared statement of Dr. Kilama follows:]
                   Prepared Statement of John Kilama
    Thank you, Hon. Chairman, Nick Smith and Hon. Eddie Bernice 
Johnson, Ranking Minority Member, for providing me with the opportunity 
to speak to you and Members of the Subcommittee on Research of the U.S. 
House of Representatives' Committee on Science regarding ``Plant 
Biotechnology Research and Development in Africa: Challenges and 
Opportunities.''
    The tragic truth is unavoidable: Africa is losing the war against 
famine. Despite the enormous potential of plant biotechnology to 
improve food production, Africa is losing the war against hunger. As 
USAID Administrator Andrew Natsios has noted, an estimated 435 million 
Africans could face ``severe food insecurity'' by the year 2010,
    And yet, this doesn't mean that plant biotechnology has failed in 
Africa. On the contrary, plant biotechnology has not been given a 
chance to work its wonders in Africa--and that is almost as terrible a 
tragedy.
    Why hasn't plant biotech been given a chance? Although it is 
tempting to blame the European Union's moratorium on GMOs for Africa's 
rejection of biotech, more fundamental--and more troubling--factors are 
responsible. Even after the European Union ends its moratorium on 
GMOs--as surely it will--plant biotechnology will have a bleak future 
in Africa unless we develop a clear road map to address the root causes 
of this crisis--rather than its symptoms.
    In my view, developing a road map for creating sustainable 
biotechnology applications that eliminate food insecurity in Africa 
must consist of the following steps:

        1) LWe must focus on financial support of a long-term strategic 
        plan; not on making short-term investments. This will require 
        developing a process for coordinating all the efforts of 
        foreign assistance that are currently provided to Africa by 
        various U.S. agencies.

        2) LWe must revive and rebuild Africa's battered capacity for 
        applied research, and make research institutions a cornerstone 
        of our efforts. This process should encourage a spirit of 
        entrepreneurship--and the incubation of private-sector 
        companies that commercialize innovations that come out of 
        applied research centers at Africa's universities.

        3) LWe must focus on applied research to solve problems that 
        Africans themselves identify as essential--and relevant--to the 
        famine crisis. Africans must be involved at every stage of 
        planning and implementation.

        4) LWe must rebuild Africa's battered infrastructure for 
        agricultural extension at a time when it is more essential than 
        ever.

        5) LWe must help Africans create legal certainty, 
        predictability and transparency to help spur investment from 
        the public sector, and to nurture an entrepreneurial spirit.

    We must act with a sense of urgency, because the gap between the 
technology ``haves'' and the ``don't-haves'' is expanding daily. As 
technology becomes increasingly sophisticated, that gap will continue 
to widen--unless we act decisively.
    Allow me, please, to elaborate my approach in a bit more detail.

An Emphasis on the Long-term

    First, instead of continuing to apply short-term ``fixes,'' we need 
to focus on long-term strategic investments. We need to patiently 
nurture and rebuild African university institutions--and work with 
African policy-makers to help them understand their options for making 
decisions about biotechnology research--and its enormous potential for 
eliminating hunger, and fueling economic development. We must assist 
African universities with both financial and strategic planning so as 
to rebuild Africa's deteriorated university systems.
    The consequences of a long-term approach are profound. We need to 
evaluate biotechnology options and technologies--not by assessing how 
much they will pay off this year or next year, but on the basis of how 
they may contribute to solving the hunger problem five years or ten 
years--or even further down the road.
    Although this means taking risks--and betting on uncertain, new 
options--we cannot afford not to take risks, if we want to develop 
long-term meaningful solutions. If we don't think long-term, there is 
no doubt that we--or our counterparts--will be discussing the issue of 
African famine in even more dire terms, some ten or twenty years from 
today.
    To monitor the progress of our long-term approach, we also need a 
process for coordinating the efforts of various U.S. agencies--in order 
to make sure that their programs are consistent, and there is no 
redundancy.

Focusing on Applied Research

    Next, we must rebuild Africa's battered infrastructure for applied 
research, and make it a cornerstone of our long-term efforts. Africa's 
infrastructure for applied research in biotechnology is in tatters. 
Biotechnology budgets have dried up, and professional standards have 
declined to the point where advanced research is virtually non-
existent.
    In a recent study, Dr. Walter S. Alhassan, a Visiting Scientist at 
the International Institute of Tropical Agriculture (IITA) in Ibadan, 
Nigeria, pointed out that the National Agricultural Research Systems 
(NARS) of the following seven African countries have no capacity to 
conduct advanced biotechnology: Burkina Faso, Cameroon, Cote d'Ivoire, 
Ghana, Mali, Nigeria, and Senegal.
    Elsewhere, the situation is similar, except for in South Africa. 
How can we expect advanced research to take place? Consider that:

        <bullet> LAfrican scholars are poorly paid.

        <bullet> LLibraries lack modern research tools such as 
        computerized databases.

        <bullet> LResearch institutions lack Internet connectivity.

        <bullet> LAfrican scholars are isolated from the main currents 
        in their discipline both within Africa and across the globe.

        <bullet> LThere is no credible legal system to protect 
        innovations of Africans through fundamental international 
        standards such as the WTO Agreement on Trade Related Aspects of 
        Intellectual Property rights.

    We know that it doesn't have to be this way--because from the 1960s 
through the 1970s, it wasn't. During that period, many African 
universities enjoyed a significant budget for applied research. Most 
African governments spent at least one percent of their GDP on 
scientific research. Today, you would be hard pressed to find even five 
governments that spend as much as one percent of their GDP on research. 
Many governments only spend one-tenth of one percent.
    A generation ago, professional standards were high. Moreover, 
Africa's researchers had ample opportunity to engage in exchange 
programs with their counterparts in the United States and Europe. Many 
Americans took sabbaticals in Africa, as did some of their counterparts 
in Europe. These reciprocal exchanges strengthened the skills of 
African professionals, and kept them up-to-date with their colleagues 
elsewhere around the world.
    What went wrong? It's easy to point fingers. Civil wars. Corrupt, 
self-serving governments that are repressive and ill informed about 
biotechnology. Even the World Bank, in pursuit of ``structural 
adjustments,'' put pressure on African governments to discourage 
research and higher education in favor of shorter-term approaches. Now 
I am glad to see that they are reversing that policy, and recognizing 
the importance of quality research and high standards.
    In any case, finger pointing won't get the job of rebuilding done.
    So where do we start? Across the continent, several of Africa's 
leading universities and research institutions still have considerable 
potential to emerge as centers of quality research in plant 
biotechnology--provided that we make a patient, long-term commitment to 
funding--and guiding--their progress along the right path. According to 
the same study by Dr. Alhassan, The West and Central African Council 
for Agricultural Research and Development (WECARD)\1\ recognizes the 
importance of biotechnology for agricultural research in the region.
---------------------------------------------------------------------------
    \1\ CORAF (Conseil Quest et Centre Africain pour la Recherche et le 
Developement Agricoles)
---------------------------------------------------------------------------
    Some highlights of Dr. Alhassan's study:

        <bullet> LThere is considerable strength in tissue culture and 
        a growing potential for molecular biology work in Cameroon.

        <bullet> LExcept for a shortage of manpower, the infrastructure 
        for biotechnology in Cote d'Ivoire is above average for the 
        subregion.

        <bullet> LIn Ghana, the biotechnology infrastructure is weak 
        but the manpower base is relatively strong.

        <bullet> LNigeria has a strong infrastructure in tissue culture 
        work, but it is relatively weak in molecular biotechnology 
        infrastructure. However, this will develop over time, as 
        Nigeria draws up its guidelines for biotechnology development 
        policy and biosafety, and as it establishes institutions to 
        promote biotechnology research and joint development with 
        emerging local entrepreneurs.

        <bullet> LSenegal has the best laboratory infrastructure and 
        manpower for agricultural biotechnology in the subregion. Its 
        standard of biotechnology work is relatively more advanced than 
        the neighboring countries.

    Several African universities have considerable potential, if their 
infrastructures are provided with additional support. Among these, I 
would include the University of Botswana--which has one of the best 
chemistry departments in Sub-Saharan Africa except for in South 
Africa--and Ahmadu Bello University in Nigeria, which is headed by a 
no-nonsense administration that is looking for funding to engage in 
applied research in biotechnology. Other universities with significant 
promise include the University of Yaounde (Cameroon); the National 
University of Cote d'Ivoire; Addis Ababa University in Ethiopia; Omar 
Bongo University in Gabon; the University of Ghana; the University of 
Namibia; University Cheikh Anta Diop of Dakar, Senegal; and Makerere 
University in Uganda, the country in which I was born.
    A number of African research institutes, as well as institutes 
within ministries of agriculture, are also in a position to emerge as 
applied research centers in plant biotechnology. Most remarkable is the 
Kenya Agriculture Research Institute (KARI), which is already engaged 
in a fruitful partnership with the USAID and the private sector. The 
fruits of that partnership are already apparent in the form of 
genetically modified sweet potatoes.
    For an example of how university research can incubate new 
companies--and strengthen entrepreneurship--the University of the 
Western Cape, in South Africa, can serve as a role model. At that 
university, the South African National Bioinformatics Institute (SANBI) 
is developing a bioinformatics analysis site, and using it as an 
incubator for new companies. The mission of SANBI is to ``develop 
analysis systems relevant to the South African Community.'' Instead of 
relying on a developed country to come in and rescue Africa from its 
problems, young companies such as Electric Genetics believe that South 
African citizens should learn about bioinformatics and help themselves. 
Gensec Bank and Real Africa Holdings launched the first biotech venture 
capital fund, Bioventures, in 2001.
    We should also do everything in our power to reduce the painful 
isolation of Africa's scientific community--by fostering exchange 
programs and sabbaticals that expose Africa's Molecular biologists and 
biotechnologists to the ferment of new ideas and new technologies in 
the United States. In this regard, I suggest we leverage the sizable 
community of African scientists who are permanent residents in the 
United States, including many U.S. citizens. Many members of this 
African Diaspora are ready and willing to contribute their skills and 
perspectives, without necessarily relocating to Africa.

Bringing biotech to the heart of the people

    Next, we must bring biotech to the heart of African people rather 
than create ``centers of excellence'' that are far away--and far less 
responsible. Africa needs to bring biotechnology to its grass roots. 
Technology must be supported by local expertise at local universities 
that understand local needs.
    Sources of knowledge and support must be on the ground, close to 
farmers--and readily available to support them--not halfway across 
Africa, as some people have proposed. Imagine poultry farmers in 
Delaware relying on research support centers in faraway Nebraska or 
California, instead of centers at the University of Delaware. It's hard 
to see how that sort of research center can be responsive to the needs 
of farmers in Africa, who are far more isolated than farmers in 
Delaware. Moreover, it's a lot cheaper to create three or four first-
class institutes in a country than to ask people to bear the impossible 
cost of traveling abroad for assistance.
    On the contrary, local communities must become engaged in making 
vital decisions about where and how to apply biotech research efforts. 
Only then--and only after gradual, patient efforts--will plant biotech 
be viewed as ``local'' and ``African''--rather than alien and 
threatening.
    We must work with local communities to identify their needs, their 
priorities--and the technologies that are the best fit. Local 
communities will be the best judges of research projects that are worth 
pursuing, not faraway institutes that deal with only a handful of 
scientists from each country.
    How exactly can locally focused applied research help? Here are 
several options that seem especially promising:

    First, applied research can help develop new varieties of plants 
that are critical to African nutrition--but are currently threatened by 
disease or biodiversity loss. Although most of the genetically modified 
organisms intended to be introduced to Africa are in cotton, rice and 
corn, there is a good opportunity for biotechnology to have a 
significant impact on the production of cassava, which is currently 
suffering widespread blight disease in Africa. Cassava is the second 
most important source of carbohydrates in the world--and the 
consequences for African famine will be devastating if production drops 
severely.
    During my recent trip to Brazzaville, capital of the Republic of 
the Congo, I met with the Hon. Ms. Jeanne Dambendzet, the Minister of 
Agriculture. During our meeting, the Minister expressed her deep 
concern about the devastation of cassava blight disease in her country. 
She is very fearful of the impact on local cassava production and how 
Congolese rural communities will cope with the shortages of food. 
Madame Ambassador Robin Sanders, U.S. Ambassador to the Republic of the 
Congo, arranged my trip. Ambassador Sanders is taking a leading role in 
assisting the efforts of Congolese leaders to combat the problem of 
serious cassava blight disease. At the moment, there is no light at the 
tunnel for solving this blight--because there is not enough funding 
directed towards solving the cassava problems in Africa, or anywhere 
else.
    Second, applied research can help local communities effectively 
cultivate and commercialize many wild products that are popular--but 
whose future is threatened by over-harvesting. One such product is 
Gntum leaves that are known throughout Central Africa, mostly by the 
vernacular name koko.\2\ Commercial activity in these leaves has been 
increasing for several years. Today they are sold in most European 
countries. In all Central African countries, women play a primary role, 
from gathering to selling. An investigation in 1980\3\ found that the 
trade in Gnetum in the Koilou region of the Congo employed over 400 
women to harvest the leaves from the wild. It's a popular but 
endangered wild plant.
---------------------------------------------------------------------------
    \2\ Mialoundama, F., ``Nutritional and Socio-Economic Value of 
Gnetum Leaves in Central African Forest,'' Chapter 14, Man and the 
Biosphere Series, Volume 13.
    \3\ Mialoundama, F., (1980). ``Action regulatrice des feuilles sur 
l'activite morphogenetique du bourgeon terminal chez Gnetum africanum 
Welw.'' Comptes Rendus des Seances de l'Academie des Sciences; Paris, 
291, 509-512.
---------------------------------------------------------------------------
    Many Central Africans, especially in Cameroon, Congo, Gabon and the 
Central African Republic, depend on koko for the nutritional value of 
its leaves, a significant source of protein, essential amino acids, and 
mineral elements. Yet koko could soon become extinct if researchers 
don't get a solid opportunity to apply biotechnology to its 
cultivation. Hon. Djombo, Minister of Forest Economy and Environment, 
for the Republic of the Congo echoed these concerns during our recent 
meeting in Brazzaville.
    Next, applied research can help us develop a model for moving 
biotechnology into local communities effectively. Although 
biotechnology has the power to enhance valuable traits--and ward off 
disease--crops that are genetically modified can nevertheless suffer 
from weeds. So we need research that helps farmers manage their crops 
that include genetically modified organisms.
    Which research projects will turn out to be the most useful? I 
can't tell you--and neither can anyone else. Only local African 
communities will be able to make that judgment--and only if their local 
applied research institutions are allowed to flourish--and share their 
knowledge. Only if local communities can get involved in monitoring 
programs--and seeing which projects are really addressing their needs 
and which are not.

Strengthening infrastructure for agricultural extension services

    In addition, we need to see revive institutions of applied research 
as the source of agricultural extension services that African farmers 
need to survive--and thrive--in the age of biotechnology and global 
markets.
    Several factors make agricultural extension more essential than 
ever before: The faster pace of technological change; the globalization 
of agricultural markets; and the growing integration of biotechnology 
with information technology.
    These factors make the challenges confronting Africa's farmers 
today very different from the challenges that faced my father in Uganda 
when I was growing up in that country.
    When I was a child, my father grew tobacco and cotton on a farm 
that benefited enormously from the ``Green Revolution.'' If it hadn't 
been for the Green Revolution, my father would not have had the 
resources to make a good living--and lay the seeds for my higher 
education and career as a scientist.
    Unfortunately, few African farmers today are making the smooth 
adjustment to new agricultural technologies that my father did during 
my childhood. Many farmers who have been introduced to new technology 
are abandoning their farms--because of the failure of today's 
infrastructure for agricultural extension.
    To understand why, consider the fundamental contrast between the 
Green Revolution and the Biotech Revolution of today--and the greater 
demands on agricultural extension today. The Green Revolution brought 
new technology in the form of fertilizers, fungicides, insecticides and 
herbicides. Although new, these technologies did not require the long 
learning curve required of today's line-up of new products. They were 
not only less sophisticated than today's new technologies, they weren't 
changing rapidly. A fertilizer was a fertilizer; it was not being 
continually redesigned and improved--like today's products in 
biotechnology and information technology. Getting a handle on new 
technology today is harder than ever--because technology is a moving 
target. Anyone who works with computers knows that.
    In my father's generation, it was also much less of a challenge to 
understand the risks involved in using new technologies, as well as 
their impact on the economic and social patterns of communities. In 
those days, African farmers did not have to become skilled in the new 
art of risk assessment. There weren't as many new products--and the 
risks were easier to assess. Nor did farmers have to learn about 
regulatory regimes; or about regional, national--even global economic 
conditions that affect their livelihood.
    Now, at the very time when African farmers must learn continuously 
in order to survive, agricultural extension services designed to help 
them have been gutted by budget cutbacks, and other forces we have 
discussed earlier. At a time when Africa's farmers need more support 
than ever, the infrastructure for agricultural extension has eroded.
    Is it any wonder that many farmers fail to take full advantage of 
the biotechnology that is made available to them? Is it any wonder that 
so many abandon their farms--and return to the city? Is it any wonder 
that they become biotechnology Luddites--rejecting a technology that 
could do them so much good because they don't have the resources--
including funding and skills--to use it effectively?
    Plant biotechnology is constantly changing, and farmers need to 
understand complex processes of risk assessment. New products are newer 
and harder to grasp; that is the wonder of biotechnology--but also a 
challenge for gaining acceptance.
    We must also make sure that agricultural extension services are 
equipped to explain regulatory issues to farmers, as well some of the 
economic complexities that reflect the influence of the global 
marketplace. All of these efforts must be continuous--rather than one-
shot efforts at training--because everything is always changing.

Creating Legal Certainty, Predictability and Transparency

    Research is expensive and we can't depend on governments alone to 
get the job done. We need to get the private sector actively involved. 
A key to boosting biotechnology lies in developing strategies for 
stimulating private-sector investment. However, the current absence of 
legal certainty, predictability and transparency creates major 
obstacles to investment for research-intensive industries in the 
biotechnology sector. Without laws that conform to minimal 
international standards--such as the WTO Agreement on Trade Related 
Aspects of Intellectual Property Rights--businesses are unable to make 
the investments needed in terms of capital and technology transfer; and 
in the training and upgrading of local personnel.
    In the long run, these factors are critical to sustainable economic 
diversification and sustainable economic growth. In the absence of 
protection for trademarks, patents, undisclosed information and 
copyrights, African countries are unable either to protect the 
intellectual capital of their own elites or attract foreign capital 
from innovative multinational companies. The absence of IP protection 
also contributes substantially to brain-drain. Many of Africa's most 
talented and capable scientists, doctors and inventors have ``voted 
with their feet.'' They have emigrated to European and American 
laboratories or clinical research facilities, where they have greatly 
enriched global science and technology across many sectors. However, 
they have been unable to contribute to the economic development of 
their home countries, apart from sending remittances.

Staying the Course

    If we neglect this approach--and focus on technology, rather than 
the entire agricultural system--many farmers are likely to throw up 
their hands in defeat, when they hit their first hard times.
    If we continue to focus on the short-term, and neglect the kinds of 
applied research that can bring science to the people, biotechnology 
will have a bleak future in Africa. And if we don't focus on bringing 
biotech to the heart of the people, hundreds of millions of Africans 
will lose their best chance to stave off famine. But if we act now to 
take a more strategic, longer-term view, I'm confident that we can turn 
the corner in the struggle against famine.

About GBDI

    Since GBDI was established in 1999, we have conducted 
multidisciplinary training sessions about biodiversity, biotechnology 
and related intellectual property law in Kenya, Botswana, Nigeria, 
Tanzania, and Benin. Overall, nearly 500 scientists, lawyers, public 
officials and other professionals from 43 sub-Saharan countries in East 
Africa, West Africa and Southern Africa have received GBDI training and 
consultation in biodiversity, biotechnology and related law. We are 
also deploying our professional resources to provide consultations for 
public- and private-sector institutions that want to expand their 
presence in promising markets for bioresources--or move into new 
markets.
    A major goal of our current efforts is a program designed to 
overcome the barriers that have stood in the way of passing biosafety 
regulation throughout Africa. Biotechnology in Africa faces a critical 
challenge. Not one country in Africa has yet to enact biosafety 
regulatory law, despite the fact that biosafety regulations are 
mandated by the Biosafety Protocol. Unless African leaders pass 
biosafety regulatory laws--and implement them effectively--Africa will 
never adopt and develop biotechnology, or acquire biotechnology through 
technology transfer from the U.S. or other trading partners.
    In addition, we are planning to work with the Republic of the Congo 
(Brazzaville) and the U.S. Embassy in Brazzaville to organize a 
conference for African heads of state, to focus on the critical issue 
of cassava blight and how biotechnology offers a great solution to it.
    Some of these programs that we want to implement will depend on the 
availability of funds.

                       Biography for John Kilama
    Dr. John Kilama, President of Global Bioscience Development 
Institute, has a broad background in the pharmaceutical, agricultural 
biotechnology and agrochemical chemistry. Born in Uganda, Dr. Kilama 
received his Ph.D. in Medicinal Chemistry from the University of 
Arizona in Tucson, Arizona in 1988, a Pharmacy degree from the 
University of Kentucky, Lexington, Kentucky in 1979 and a BA in 
chemistry from Berea College, Berea, Kentucky in 1976.
    Dr. Kilama worked in DuPont Company as a Senior Medicinal Research 
Chemist, and was awarded several patents that cover innovative 
applications of new classes of chemicals for crop protections and 
published several scientific peer-reviewed articles in the 
agrochemicals journals. At DuPont, he developed a natural product team 
in the Chemical Discovery Department. He also helped established 
several collaborations between DuPont and other institutions in 
developing countries. He developed an approach to establishing a long 
lasting, workable relationship between multi-national corporations and 
institutions in developing countries.
    GBDI brings very unique experiences of organizing complex training 
in developing countries and an unparalleled network among scientists, 
lawyers, political leaders, and policy-makers in developing countries.

ADDRESS

    Ph.D., President, The Global Bioscience Development Institute, 
Inc., 702 West Street, Suite 205, Wilmington, DE, USA 19801; E-mail: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f050406030e020e2f080d0b0641001d08">[email&#160;protected]</a>; Web address: www.gbdi.org; Tel: +1 (302) 656-6439; 
Cell: +1 (302) 898-0008; Fax: +1 (302) 656-6442

CAREER SKILLS/KNOWLEDGE

Management

        <bullet> LOrganizing professional training sessions on 
        biotechnology, biodiversity and intellectual property law for 
        the promotion of economic development.

        <bullet> LRaising funds from leading international 
        organizations.

        <bullet> LAnalyzing international trade regulations and their 
        impact on the economic development of developing nations.

        <bullet> LEvaluating technical assistance most suited for 
        promoting economic growth of developing countries in 
        biotechnology, biodiversity and intellectual property.

        <bullet> LFormulating effective private/public sector 
        partnerships.

        <bullet> LRecruiting and managing professional staff in the 
        research and development of pharmaceuticals and agricultural 
        products
Pharmaceuticals

        <bullet> LExtensive background monitoring the use of drug 
        products at the community level.

        <bullet> LDesigning and managing mechanisms for distribution of 
        pharmaceutical drug products at community levels.

        <bullet> LSupervising and directing advanced research and 
        development in pharmaceuticals and agricultural products.
Biotechnology

        <bullet> LFormulating biosafety guidelines for developing 
        countries.

        <bullet> LPublic speaking on economic development issues 
        related to biotechnology, biosafety and intellectual property.

        <bullet> LEvaluating biotechnology policy options and setting 
        priorities for developing countries.

CAREER ACHIEVEMENTS

        <bullet> LAs founder and president of the Global Bioscience 
        Development Institute, Inc. (GBDI), created and supervised 
        intensive practical training about global biodiversity, 
        bioprospecting, biotechnology and intellectual property law for 
        500 executives and officials from 45 countries.

        <bullet> LRaised and managed over $750,000 in funding for GBDI 
        operations since its establishment.

        <bullet> LEstablished GBDI training curricula used by numerous 
        national leaders in Africa and Asia as a model for practical 
        professional training beneficial to sustained economic 
        development.

        <bullet> LCreated and led several effective partnerships 
        between multinational corporations and institutions (private 
        and public) in developing nations.

        <bullet> LCited as an expert on biotechnology, biodiversity and 
        intellectual property in leading publications around the world.

        <bullet> LDelivered numerous presentations at professional 
        conferences and seminars hosted by leading bioscience 
        institutions around the world.

        <bullet> LActive participant in advisory boards of World Health 
        Organization--IPPPH (Initiative on Public-Private Sector 
        Partnership for Health) in Switzerland, and the International 
        Organization for Chemistry in Development (IOCD), in Belgium.

        <bullet> LAs senior medicinal research chemist at DuPont Co., 
        awarded several patents covering innovative applications of new 
        classes of chemicals for crop protection.

        <bullet> LAs senior medicinal research chemist at DuPont Co., 
        headed a team that utilized natural products as a broader 
        research and development program.

CAREER EXPERIENCE

MANAGEMENT

Global Bioscience Development Institute, Inc., Wilmington, DE--1998-
Present

President

    Total responsibility for managing GBDI, a global institution 
providing practical training in biodiversity, biotechnology and related 
intellectual property law for scientists, senior executives, government 
officials, lawyers, economists, intellectual property professionals and 
technology transfer professionals.

        <bullet> LDirect all fundraising efforts for programs that have 
        trained more than 500 professionals in 45 countries around the 
        world.

        <bullet> LWork with professional trainers to develop targeted 
        course work that meets the needs of local institutions and 
        professionals.

RESEARCH AND DEVELOPMENT

DuPont Life Sciences, Wilmington, DE--1990-2000

Senior Medicinal Chemist, Chemical Discovery Dept., Agricultural 
Division

        <bullet> LCreated and led successful project teams combining 
        chemical, biochemical and physical techniques such as molecular 
        modeling to design and synthesize novel biologically active 
        compounds.

        <bullet> LDeveloped a workable approach to establishing long-
        term relationships between multinational corporations and 
        institutions in developing countries. Awarded several patents 
        covering innovative applications of new classes of chemicals 
        for crop protection.

CLINICAL PHARMACY PRACTICE

Community Practice and Consultant
    Wilmington, DE--1994-present

    Tucson, AZ--1984-1990
Presbyterian Hospital
    Dallas, TX, Clinical Hospital Pharmacist, Pharmacy--1979-1982

PRESENTATIONS ON BIOTECH AND BIODIVERSITY POLICY

        <bullet> LApril 2002: ``BioEconomy: The Future of World Economy 
        in the 21st Century,'' at the ``BangaloreBio2002: Showcasing 
        Karnataka's Biotechnology Agenda'' conference in Bangalore, 
        India.

        <bullet> LMarch 2002: ``BioDiversity--A Key to Economic 
        Prosperity in Africa,'' at the ``Sasol Scifest 2002'' 
        conference in Grahamstown, South Africa.

        <bullet> LMarch 2002: ``Challenges to Adopting Science and 
        Technology to Create Wealth in Africa,'' at the ``Sasol Scifest 
        2002'' conference in Grahamstown, South Africa.

        <bullet> LMarch 2002: ``Appropriate Information on 
        Biotechnology: Key to Understanding the Opportunities That 
        Biotechnology May Offer to African Seed Trade Association 
        (AFSTA) and Africa,'' at the African Seed Trade Association's 
        (AFSTA) congress in Dakar, Senegal.

        <bullet> LMarch 2002: ``Bread for the World Institute's 
        Conference on Agricultural Biotechnology: Can it Help Reduce 
        Hunger in Africa?'' at ``Key Food Safety & Biodiversity 
        Concerns on Agricultural Biotechnology in Africa'' conference 
        in Washington, DC.

TRADE MISSIONS

        <bullet> LSept. 2002: Delegate from Philadelphia to the 
        People's Republic of China.

        <bullet> LJuly 1994: Member of U.S. delegation to Uganda headed 
        by Congressman Tony Hall (Ohio).

EXAMPLES OF SCIENTIFIC PUBLICATIONS

        <bullet> L``Aryl-substituted quinoxalines and related 
        heteroarenes as novel herbicides prepared via palladium-
        catalyzed cross-coupling methods.'' ACS Symposium. Ser. (1995), 
        584 (Synthesis and Chemistry of Agrochemicals IV), 171-85 (with 
        Smith, Ben K.; Denes, Radu; Selby, Tom).

        <bullet> L``A new synthetic approach to the C-D ring portion of 
        streptonigrin analogs.'' J. Heterocyclic Chem. (1990), 27(5), 
        1437-40 (with Iyengar, Bhashyam S.; Remers, William A.; Mash, 
        Eugene A.).

        <bullet> L``Racemization-Free amidation of unprotected alpha 
        amino acids or ester via aluminum amides.'' 206th American 
        Chemical Society National Meeting, Chicago, II, 1993 (with Tim 
        Neubert).

EDUCATION

Postdoctoral, University of Minnesota, Minneapolis, MN--1988-1990

Ph.D., Medicinal Chemistry, University of Arizona, Tucson, AZ--1983-
1988

BS.C., Pharmacy, University of Kentucky, Lexington, KY--1976-1979

B.A., Chemistry, Berea College, Berea, Kentucky--1973-1976
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Dr. Kilama, thank you. Very good. Dr. 
Horsch.

STATEMENT OF DR. ROBERT B. HORSCH, VICE PRESIDENT, PRODUCT AND 
              TECHNOLOGY COOPERATION FOR MONSANTO.

    Dr. Horsch. Thank you, Mr. Chairman, and Members of the 
Subcommittee. I would like to submit my entire statement for 
the record. I will be brief right now. I appreciate this 
opportunity to testify today, and I thank Congressman Akin for 
his very kind introduction. Today, I lead Monsanto's 
partnerships with public institutions and nonprofit foundations 
to help small holder farmers in developing countries. We help 
them to gain access to better agricultural products and 
technologies and research that will lead to that.
    Monsanto's presence in Africa is centered in South Africa, 
where we have an advanced breeding and research facility in 
Petite. There we develop seeds for much of Sub-Saharan Africa. 
This includes both conventional seeds and seeds improved with 
biotechnology traits. The Speaker and Representative Johnson 
toured our Petite research facility on a fact finding tour of 
issues facing Africa a year or two ago.
    How can we improve productivity in Africa and can biotech 
play a key role? The biggest problems in my studies and travels 
have been pests, depleted soils, drought, and poor human 
nutrition from inadequate completeness of the diet. On pests, 
the tropics have much worse pest problems than we face here, 
where our winters set the pests back every year. Africans 
either use chemical pesticides, or much more often, nothing at 
all and suffer the losses. Biotech is a proven solution for 
controlling key pests everywhere in the world it has been 
applied. And researchers are pursuing genes that will control 
many other serious pest problems beyond those we have solutions 
for today.
    Depleted soils: The soils in Africa are fragile and 
depleted of nutrients plants need to grow and develop. By 
combining biotech with no till farming, the soils can be 
restored. A concerted research effort on improving nitrogen use 
efficiency by the crops could increase productivity where 
fertilizer is limiting and expensive.
    Drought: Desertification or failure of rains to come at 
critical times during plant growth frequently leads to crop 
failure. We have heard a lot about, and I have seen preliminary 
results with genes designed to alleviate and reduce drought 
stress and losses due to drought that are promising in 
greenhouse tests and lots of technology and science that is 
promising to help solve this problem.
    Human Nutrition: Essential nutrients can be built into 
starchy staple foods, such as rice or corn, right on the farm 
in areas where there are no groceries to provide enriched 
processed foods or dietary supplements.
    We already know biotech can be used successfully by small 
holder African farmers because they have been using it in 
biotech cotton for several years already to great advantage, 
and Chairman Smith has provided the testimony of T.J. 
Buthelezi. I will just point out similar results are being 
obtained by thousands of his neighbors in South Africa.
    Ongoing biotech research is aimed specifically at African 
problems in growing staple foods. I mentioned sweet potato, 
which is also an important subsistence crop because it will 
grow in poor soil and survive droughts already, but it suffers 
from a devastating viral disease. With partial funding from 
USAID, Dr. Florence Wambugu and other Kenyan scientists have 
worked in my lab and then returned to Kenya to continue work to 
finish developing a biotech solution for the sweet potato virus 
problem. You have heard from Congressman Akin and others about 
work on cassava diseases ongoing at the Donald Danforth Plant 
Science Center, and Monsanto is fully supportive of the new 
African Agricultural Technology Foundation that Gordon Conway 
has described. Other examples are in my written submission.
    Mr. Chairman, I would like to emphasize three 
recommendations to this committee. We should continue to 
strengthen investment in basic and applied research and in 
agricultural innovation and conservation in the United States. 
Our leadership benefits our country and it benefits the rest of 
the world as well. We should continue our leadership in 
establishing science based regulatory principles and policies 
and help other countries to do so, too. Lack of working 
regulatory systems is becoming a major obstacle to introducing 
new biotech products in other countries or even just to conduct 
the science and field tests to do product development locally, 
as Dr. Kilama has so ably recommended as important.
    Finally, and most importantly, I think we must work 
together to get needed products into farmers' hands and 
farmers' fields sooner rather than later. To do this, we will 
need to create a new focus and priority on turning research 
into products that farmers need and can use to grow more and 
better food. And then we must gain the appropriate regulatory 
approvals and find mechanisms to deliver these public goods, 
biotech products, such as the disease resistant cassava, sweet 
potatoes, or improved nutrition staples that I mentioned 
earlier, to the subsistence farmers across Africa. And I would 
agree with my esteemed colleagues here that it must be done in 
a way that gives each country choice, each farmer choice, about 
how this is done, and that much of the local adaptation and 
research work must be done in partnership and at the local 
institutions. Mr. Chairman, thank you.
    [The prepared statement of Dr. Horsch follows:]
                 Prepared Statement of Robert B. Horsch

Introduction

    Mr. Chairman, Members of the Subcommittee, my name is Rob Horsch 
and I am Vice President of Product and Technology Cooperation for 
Monsanto Company. I appreciate this opportunity to meet with you today.
    First, I would like to give you some background on my career in 
science and agriculture, which will explain why I am here today, and 
why I am so passionate about the need for agricultural research and 
development in Africa and the rest of the developing world.
    I received my Ph.D. in genetics at the University of California, 
Riverside in 1979, and conducted postdoctoral work in plant physiology 
at the University of Saskatchewan. I then joined Monsanto as a 
scientist in 1981 to lead the company's plant tissue culture and 
transformation efforts, and contributed to the development of the 
insect-protected and herbicide-tolerant biotechnology traits in broad 
use today in soybeans, corn, cotton and canola.
    In 1999, I, along with three of my colleagues, was honored to be 
awarded the National Medal of Technology by the President of the United 
States for our contributions to the development of agricultural 
biotechnology.
    Today I lead Monsanto's efforts to partner with public and private 
institutions to help farmers in developing countries gain access to 
better agricultural products and technologies. We share fundamental 
scientific data; technology, including genes and traits; training to 
move technology into crops important for food security; consultation on 
environmental stewardship and information on food safety; and licenses 
to patented technologies--all to develop crops that can produce more 
food, use less pesticide, and improve people's health around the world.
    This commitment to the developing world dovetails with our 
corporate mission at Monsanto to make a positive difference in 
agriculture--arguably still today the world's most important industry.

Monsanto Company's Commitment to Plant Biotechnology

    The vision of the people at Monsanto is abundant food and a healthy 
environment. We are working to deliver products and solutions that help 
to meet the world's growing food needs, while conserving natural 
resources and protecting the environment.
    Monsanto has a long history of turning innovative science into 
successful, high-value products that improve the efficiency of crop and 
animal agriculture.
    Biotechnology is an example of our commitment to agricultural 
innovation. We developed Roundup Ready seeds that have been genetically 
enhanced to provide herbicide tolerance, thereby allowing Roundup 
herbicide to be applied directly over the top of the crop in the field. 
This provides outstanding weed control without damaging the crop, and 
protects the environment.
    In fact, according to a recent study by the National Center for 
Food & Agricultural Policy, the eight biotech crop varieties currently 
grown in the United States like corn, cotton and soybeans have reduced 
pesticide use in 2001 by 46 million pounds.
    That's millions and millions of pounds of synthetic chemicals that 
biotechnology eliminated in just one year. And reductions in pesticide 
use continue to increase each year as farmers substitute more biotech 
crops for pesticides.
    We have also developed YieldGard and Bollgard seeds that protect 
themselves from harm by damaging insect pests. This provides 
outstanding pest control, built right into the seed, without the use of 
chemical insecticides.
    We also believe that biotechnology will be an important tool in 
helping to feed our planet's population.
    In the last 60 years alone, the world's population has tripled from 
2 billion to 6 billion. The United Nations estimates there will be 
another 2 billion people by the year 2020, most living in the world's 
poorest regions.
    With more people in the world, we're going to have to find ways to 
provide more food. According to Nobel Laureate Dr. Norman Borlaug, 
``You've got two choices. Either you improve yields so that you can 
continue to produce the food that is needed on the soil that is well-
adapted to agricultural production, or you'll be pushed into cutting 
down more forests.''
    We believe that biotechnology will be a crucial part of expanding 
agricultural productivity in the 21st century because it will help 
people to grow more and better food that is needed today, while also 
conserving natural resources that are important for a sustainable 
future.
    This technology can be particularly beneficial for Africa and the 
developing world where productive agriculture is so crucial.

Agricultural Situation in Africa

    I understand that Speaker Hastert and Congresswoman Eddie Bernice 
Johnson recently visited Africa to view the challenges faced by African 
farmers first-hand. In fact, they visited Monsanto's Petite Facility in 
South Africa.
    We are one of the largest and highest quality seed producers on the 
African Continent and have invested in advanced breeding and research 
facilities at Petite, serving the needs of much of sub-Saharan Africa. 
We also have invested in top quality seed production facilities in 
Africa and serve customers in South Africa, Zimbabwe, Malawi, Tanzania, 
Kenya, Uganda, Mozambique and Zambia.
    Through my position at Monsanto, I also have had the opportunity to 
travel to many of these countries and to witness the daunting 
agricultural challenges faced by farmers in Africa.
    Mr. Chairman, I'd like to share with you and the subcommittee my 
assessment of the agricultural challenges faced in Africa--challenges 
that make it difficult for farmers there to grow a healthy harvest.
    In general, there is a lack of infrastructure and markets in Africa 
to support development of local businesses, economy, and trade. In 
terms of agriculture, this lack of infrastructure makes it difficult to 
get modern tools to farmers, including fertilizer, improved seed, and 
crop protection chemicals.
    In addition to this lack of infrastructure, environmental 
conditions in Africa make it difficult for farmers there to cultivate a 
healthy crop.
    All across Africa, despite hard work and ingenuity, significant 
portions of the harvests are often lost to factors farmers cannot 
control. These factors include depleted soils that lack sufficient 
nutrients to grow a decent crop; a lack of rainfall and water for 
irrigation results in severe and frequent drought; and plagues and 
pests, including weeds and insects.
    Robert Paarlberg, professor at Wellesley College, in an article 
titled Environmentally Sustainable Agriculture in the 21st Century 
recently said, ``The social welfare consequences of this farm 
productivity failure in Africa have been devastating. Lagging 
productivity on small farms is the chief reason why 30 percent of 
children in Africa are still chronically malnourished. For Africa more 
than any other region, the problem of inadequate food consumption grows 
directly from an unsolved farm production problem.''
    According to the Food and Agriculture Organization, cereal 
production in sub-Saharan Africa is now 19 percent lower on a per-
capita basis than it was in 1970. And grain production is the lowest in 
the world at 1.7 tons per hectare--less than half the global average of 
4 tons per hectare.

Biotech's Relevance to Africa's Needs

    Given the enormous infrastructural and environmental challenges for 
agriculture in Africa, biotechnology can be an extremely beneficial 
tool for farmers there because the technology is delivered directly 
through the seed. Biotech crops don't require additional inputs to make 
the technology work, like expensive farm equipment or extensive 
training.
Pests
    The first generation of biotech products was developed to help 
farmers to control insect, virus and weed pests. This application of 
biotech has proven its relevance to agriculture in all world areas, 
including Africa. The results have been striking in boosting 
productivity, and are now being well documented by third-party studies. 
And there is much more that can be done to solve other insect and viral 
diseases, to solve fungal and bacterial infections, to solve nematode 
and parasitic weed attacks.
Depleted Soils
    Biotech solutions for adding nitrogen to starved soils may not 
occur during my career, but improving nitrogen use efficiency is 
possible and may help modest levels of fertilizers produce a bigger 
harvest. And in an indirect, but very real way, reducing pest damage 
helps to get more food from whatever nutrients are available to the 
crop. The biggest need for depleted soils is fertilizer (either 
inorganic or organic), but biotech can help make its use more 
efficient.
Drought
    In a similar way, biotech can not substitute for rainfall, 
irrigation or good water management practices, but it can help improve 
water use efficiency by reducing yield loss from drought stress and by 
increasing yield potential in water limited environments. I have seen 
tremendously exciting, although preliminary, results in greenhouses 
tests of new genes designed to protect against the damage of drought 
stress. We typically measure yield per acre of land. In the future, we 
may come to measure yield per gallon of water. Here too, yield lost to 
pests is a waste of water as well as a waste of soil nutrients and 
labor.
Nutrition
    Nutritional enhancements like the higher beta carotene (vitamin A 
precursor) in golden rice are being expanded to include golden mustard 
oil and other golden staples. Beyond that, promising research on 
increasing iron availability and other vitamins, minerals and proteins 
can provide much needed enriched food on the farm where grocery store 
access to enriched processed foods or multi-vitamins is neither 
possible nor affordable.
    Many people in Africa don't even have enough basic calories to lead 
a healthy and active life. Increases in productivity and yield are 
needed to boost total food production. And because of the AIDS epidemic 
in Africa, in some regions of the country human labor is the limiting 
factor in how much food can be grown--and lack of good nutrition can be 
a hindrance to avoiding infections or respond well to medical 
treatment.
Poverty
    Similarly, biotechnology can't solve poverty in a direct way, but 
it can increase ag productivity in ways that help resource poor farmers 
to become more economically successful. And because it is information 
technology, not resource and energy intensive material technology, it 
can be shared without being consumed.
    Biotechnology can't create markets and infrastructure of course, 
but because it is built into the seed, it holds promise to bypass this 
critical lack and help jump-start nutritional and economic successes 
that could then help markets to develop.

A Success Story in Makhathini Flats, South Africa--Insect-Protected 
                    Cotton

    Where developing countries have reviewed and approved biotech crops 
for planting, farmers have benefited dramatically.
    South Africa has approved four GM crops for commercial release: 
insect tolerant cotton (approved 1997); insect tolerant maize (approved 
1998); herbicide tolerant cotton (approved 2000) and herbicide tolerant 
soybeans (approved 2001). The total area under GM crops in the 2001/
2002 summer season was estimated at almost 200,000 hectares.
    Since their approval in South Africa, farmers have eagerly adopted 
biotech crops, which provide better yields, more convenience, improved 
personal safety and environmental advantages.
    For example, Monsanto's insect-protected cotton has been a 
particular advantage to growers in the Makhathini Flats region of South 
Africa, one of the poorer regions of the world, where bollworms 
traditionally have destroyed up to 60 percent of growers' harvests. 
Insect-protected cotton, enhanced through biotechnology to repel 
bollworms, significantly reduces pesticide use and increases yields.
    Average yields for biotech cotton in South Africa from 1998 and 
2001 were 25 percent higher than for conventional varieties, according 
to one study. Another study of the 1999-2000 growing season said 
average yields were 93 percent higher than for conventional varieties--
with an average earnings increase of 77 percent.
    Any yield increase can make a significant difference in an area 
where half the people survive on less than $1 per day, and three-
quarters on less than $2 per day. According to a 2001 study by the 
United Kingdom's Department for International Development, even a one 
percent increase in overall yields would help raise the incomes of six 
million people above $1 per day.
    ``In low-income developing countries, agriculture is the driving 
force for broad-based economic growth and poverty alleviation,'' wrote 
Per Pinstrup-Andersen and Marc Cohen of the International Food Policy 
Research Institute, in an article titled ``Modern Biotechnology for 
Food and Agriculture: Risks and Opportunities for the Poor.''
    That's particularly significant given that 70 percent of the 
African population relies on agriculture for their sole source of 
income.
    T.J. Buthelezi one of the first farmers to plant biotech cotton in 
South Africa, says higher yields from biotech cotton have helped him 
invest for the future in more land and better equipment. T.J. recently 
told me, ``For the first time I'm making money. I can pay my debts.''
    The successful adoption of biotech cotton clearly shows the power 
and relevance of biotechnology for Africa.

Other Biotech Products in Development for Africa--Sweet Potato

    Biotechnology is also being applied to staple food crops in Africa 
to help develop a product that can survive difficult environmental 
conditions, or that is enhanced to provide improved nutrition.
    For example, several research institutions in Africa are partnering 
with others, including Monsanto, to help save the sweet potato, one of 
the most important food crops for small-scale farmers in Africa. Sweet 
potato is an important subsistence crop in many parts of Africa because 
it will grow in poor soils and survive droughts that will kill other 
crops like corn.
    However, the sweet potato feathery mottle virus, a virus spread by 
insects and is resistant to chemical control, robs African farmers of 
up to 80 percent of their sweet potato yield each year. Indeed, 
Africa's yield is less than half of the world average for sweet potato.
    The project to find a biotech solution to the feathery mottle virus 
began in 1991 when, with partial funding from USAID, I recruited a 
bright young scientist from the Kenyan Agricultural Research Institute 
named Dr. Florence Wambugu--a specialist in sweet potato viral disease.
    Florence joined my laboratory in St. Louis, Missouri for two years, 
sharing her knowledge of the crop and the disease. Several other Kenyan 
scientists followed in Florence's footsteps, steadily making progress 
on this difficult problem.
    In 2000, I had the pleasure to visit the first field tests of 
engineered sweet potato in Nairobi, along with Florence who had long 
before returned to her homeland to continue her work to bring new 
technology to Africa.
    The first field test revealed what virtually all first tests 
reveal--more work is still needed to produce a satisfactory product. 
The commercial biotech products my company began selling in 1996 are 
the result of going back to the drawing board four or five times.
    The project has a way to go before African farmers are able to 
realize the benefits of virus resistant sweet potatoes. But while the 
problem is a difficult one and the resources and capacity for solving 
it have been modest, progress has been steady and the method has been 
proven for other crops and viruses.

Other Biotech Products in Development for Africa--Cassava

    In addition, the Donald Danforth Plant Science Center--a not-for-
profit research facility in St. Louis, Missouri, dedicated to 
agricultural research to benefit the developing world--is actively 
conducting research on disease in cassava, another staple food crop 
grown in Africa.
    Cassava, a tropical crop grown for its starchy, tuberous roots, 
contributes to food security and rural income in many developing 
countries and feeds nearly 600 million people daily. However, cassava 
is estimated to be performing at only a tenth of its production 
potential due in large part to drought, pests and diseases, including 
Cassava Mosaic diseases.
    Cassava must be processed soon after it is harvested to prevent 
spoilage, which places a burden on small farmers to get the crop from 
the field to the table. Also, the protein content of cassava could be 
increased significantly, providing a more stable and dependable source 
of nutrition for the developing world.
    The Danforth Center is partnering with several international 
organizations to develop a comprehensive global research plan to 
conduct research and develop a comprehensive global research plan to 
tackle the most significant challenges facing cassava farmers, 
including control of disease, post-harvest deterioration, and enhancing 
the nutritional content of the crop.
    In order to accelerate the center's efforts, Monsanto granted the 
Danforth Center a royalty-free license to use proprietary enabling 
technologies in this research. Monsanto philanthropic arm, the Monsanto 
Fund, also supports research at the Danforth Center on virus-resistant 
cassava through a multi-year grant.

Partnerships to Develop Biotech Products for Africa

    The key to encouraging continued biotech research for Africa--and 
eventually successful adoption of these products--are the partnerships 
that have been formed to pool and deploy the resources of public and 
private organizations from around the world.
    As a company dedicated to sharing our knowledge and technology, we 
participate in many global partnerships.
    For example, at a policy level, we recently joined the Partnership 
to Cut Hunger and Poverty in Africa, a new coalition developed to focus 
policy, public attention, and new resources on the continuing problems 
of hunger and malnutrition in Africa. The Partnership focuses solely on 
the agriculture sector, and is asking the United States to increase 
assistance in several areas, including improving agricultural 
technology development and transfer, such as biotechnology.
    In addition, Monsanto is a supporter of the African Agricultural 
Technology Foundation (AATF), which was launched by the Rockefeller 
Foundation earlier this year to make important genetic information 
developed by the major Western agricultural companies--including Dow, 
Dupont and Syngenta--available to African subsistence farmers.
    We also work with partners to facilitate the sharing and transfer 
of the broad range of technologies needed by resource poor farmers in 
Africa, Asia and Latin America.
    Over the past decade, we have assisted hundreds of thousands of 
farmers in the developing world by partnering with local communities, 
government entities, public and private sector institutions, and non-
governmental organizations. Together, we work to understand the full 
range of needs that these farmers have in order to provide enough food 
for their families and communities.
    The solutions provided to these farmers are often a package of 
existing commercial technologies, including improved seeds, 
biotechnology traits where approved and applicable, conservation 
tillage practices, crop protection products and other inputs, as well 
as training and technical assistance.
    Monsanto and its partners also often provide for self help group 
formation, support for the creation of other income generating 
activities, access to microcredit, as well as linkages to grain traders 
and processors who purchase surplus crops, produced as a result of the 
improved technology package.
    Farmers participating in these programs have experienced an 
increase in social, economic and environmental benefits, including an 
increase in food security and income. In 2001, Monsanto participated in 
21 projects in 13 countries, reaching more than 330,000 small holders 
farming 400,000 hectares of land. These countries included Mexico, 
India, Indonesia and ten countries within Sub-Saharan Africa, a cross 
section of key geographies.
    These projects support our company's pledge ``to bring the 
knowledge and advantages of all forms of agriculture to resource poor 
farmers in the developing world, to help improve food security and the 
environment.''
    Only by working together and continuing to share our resources can 
we bring the tools of modern agriculture to those who may not otherwise 
have access to them. In doing so, we're helping people initiate a more 
positive economic cycle for their own benefit and that of future 
generations.
    I and my colleagues at Monsanto hope sharing our data and 
technologies encourages additional research and collaborations that 
will lead to a wide variety of discoveries to enhance food security and 
nutritional needs throughout the developing world. Although much is 
being done to make new technologies available to resource-poor farmers 
worldwide, there is still more that we can do together.

Recommendations to Address Challenges and Take Advantage of 
                    Opportunities in Africa

    In conclusion, Mr. Chairman, I would like to make the following 
recommendations, which I believe will serve to augment plant 
biotechnology research and development in Africa, and help ensure that 
African farmers have access to the most modern agricultural tools 
possible.

        <bullet> LFirst, we must continue to strengthen investment in 
        basic science and education in the United States, such as is 
        supported by the National Science Foundation and conducted at 
        U.S. universities and research centers.

          LIt is hard to prove looking forward, but abundantly clear in 
        hindsight, that breakthroughs in basic research today will 
        provide technologies and benefits for the future that we can 
        scarcely imagine. Investment in education and the development 
        of our country's human capacity has never failed to return 
        benefits exceeding expectations.

        <bullet> LWe must continue to strengthen support for innovation 
        and conservation in U.S. agriculture, as is the mission of the 
        U.S. Department of Agriculture and the Land Grant Colleges.

          LOur farmers are among the most productive and efficient in 
        the world, and our country has benefited from their abundant, 
        diverse, and nutritious harvests. We have re-invested some of 
        these gains in conservation and restoration of wetlands and 
        wildlife habitat and improvements in water quality without 
        sacrificing our economy or our food supply. As a result, our 
        agricultural system is the envy of the world, which sends its 
        brightest to study at our universities and bring home important 
        knowledge to improve their own agriculture.

          LOur leadership benefits our country and the rest of the 
        world as well.

        <bullet> LWe must continue our country's leadership in 
        developing open trade policies and practices around the world, 
        as is the mission of the U.S. Trade Representative.

          LThe recent trade-related fears of several African countries 
        acceptance of U.S. Food Aid are a terrible consequence of the 
        squabble with the EU. The reality is that Americans have been 
        very generous in sharing the bounty of our harvests for 
        emergency food aid needs around the world.

          LOur country's trade policies ensure that our producers are 
        as competitive as possible in an open global market place, 
        bringing high quality food and other agricultural products to 
        growing markets around the world. By our example, hopefully one 
        day consumers around the world will be able to benefit from our 
        productivity as we enjoy their goods and services in exchange.

        <bullet> LWe must continue our leadership in establishing 
        science-based regulatory policies.

          LThe so-called precautionary principle advocated by the 
        Europeans fails to recognize the greater risks and harm that 
        will certainly be caused by moving more slowly than is 
        warranted by careful analysis of risks and needs. The 
        opportunity cost for developing countries to forgo much needed 
        benefits for the principle of precaution at any price is too 
        great a price to pay--and certainly not necessary to ensure 
        safety.

          LThe United States has acted with precaution--but followed by 
        learning and progress in biotechnology. As a result, we enjoy 
        both the safety and benefits of biotech crops and products.

          LUSAID's current support for building the capacity of African 
        decision-makers to assess and approve the biosafety of 
        biotechnology crops will help ease the most significant 
        constraint to the introduction of biotechnology products that 
        work for small-holder farmers.

        <bullet> LWe must reverse the declines in international 
        agricultural development assistance as pledged by the current 
        administration and as being implemented by USAID.

          LThe vicious trap of poverty can only be broken in our 
        lifetime if we and other developed countries extend a helping 
        hand in development. This will require both funding and know-
        how to reach the people who most need our help.

          LI think one of the best ways to do this is my last and 
        perhaps most important recommendation:

                <bullet> LWe must get needed products into farmers 
                hands and fields sooner rather than later. To do this, 
                we need to create a new focus and priority on finishing 
                and delivering public-sector biotech products--such as 
                virus-resistant sweet potatoes, cassava, and other 
                staple food crops in Africa--to subsistence farmers 
                sooner rather than later--a goal consistent with the 
                vision of the Rockefeller Foundation, USAID and the 
                newly launched African Agricultural Technology 
                Foundation.

                  LThe partnerships I described earlier and others I 
                did not have time to mention have made admirable 
                progress. But they are still far short of the need.

                  LWe must mount a bigger and more focused effort to 
                reach developing country farmers with products they can 
                put to use in their fields to increase the food on 
                their tables and the income in their households. 
                Private investments such as my company is making will 
                flow where the infrastructure, markets and regulatory 
                policies make it financially worthwhile.

                  LBut to serve subsistence farmers who are a long way 
                from the market economy, public investment is critical 
                in developing and delivering products--public goods 
                products that will not attract private investments in 
                any reasonable timeframe.

Closing

    I mentioned earlier that as part of my position at Monsanto I am 
able to travel to areas of the developing world to see with my own eyes 
the challenges farmers and their families and communities face in 
Africa and other areas of the developing world.
    During my travels I've seen stunted and yellowed fields of corn 
that might yield less than the grain used to plant them. I've seen the 
ravages of caused by the twin scourge of hunger and poverty due to 
decimated harvests. I've seen teenagers in Africa who looked like 8-
year-olds because they were suffering from chronic malnutrition caused 
by both a shortage of calories and lack of sufficient proteins and 
vitamins.
    But I've also seen the hope for more and better food that is 
possible by applying modern science to solving age-old problems in 
agriculture. In Malawi, I saw farms with fields of corn that were as 
green and laden with ears as I have seen in Missouri because the farmer 
was given access to modern agricultural tools, including better seed 
and fertilizer. In Kenya, I saw the field trials of sweet potatoes that 
have new genes for virus protection added using biotechnology.
    Research is underway at Monsanto and in laboratories throughout the 
world to develop hardier and more nutritious food crops that would 
benefit Africa and other areas of the developing world. As legislators, 
researchers, philanthropists, and business leaders, it is in our best 
interests to ensure these products make it from the lab to the fields 
of Africa and beyond.
    Mr. Chairman, the people of Monsanto look forward to working 
together with you, the Members of this committee, and African growers 
to help find solutions to the complex issues discussed during the 
Committee hearings. Thank you.

                     Biography for Robert B. Horsch

Education:

    B.S. Biology, University of California, Riverside, 1974; Ph.D. 
Genetics, Genetics Program, University of California, Riverside 1979; 
Postdoctoral Fellow, Plant Physiology, University of Saskatchewan 1979-
1981.

Employment:

    Dr. Horsch joined Monsanto Company in May of 1981 and is currently 
Vice President, Product and Technology Cooperation, in the Global 
Product Management Division, with responsibility for small-holder 
agricultural development partnerships and public-private technology 
cooperation programs. He led the company's plant tissue culture and 
transformation efforts from 1981 until 1995. In that capacity, he 
contributed to the development of the Bollgard, YieldGard, and Roundup 
Ready traits in broad use today. In 1996 he became Vice President and 
General Manager of the Agracetus Campus of Monsanto Company's 
Agricultural Sector in Middleton, Wisconsin, serving in that capacity 
until the end of 1999.

Selected Awards and Honors:

1985-88--Invited to co-organize the Plant Molecular Biology Course at 
        Cold Spring Harbor Laboratories.

1986--Thomas & Hochwalt Award: Monsanto Company's highest award for 
        science & technology.

1987-present--Appointed Adjunct Professor of Biology, Washington 
        University.

1988-94--Founding co-editor of The Plant Cell--now the leading journal 
        in the plant sciences.

1989--Principle Investigator on Technology Transfer grant award from 
        USAID (Virus resistant sweet potatoes for Africa).

1990--Appointed to National Research Council Panel on the Status of 
        Plant Science in the U.S.

1992--Organizer of FASEB Conference on Plant Molecular Biology.

1993-present--Invitations to speak, review, debate, or organize 
        workshops, scientific meetings and university seminars; 
        appointed to Editorial Boards of several major journals; 
        invitations to advise government agencies, universities, 
        international programs.

1996--Appointed Chairperson, Committee of Visitors, Developmental 
        Biology Program, National Science Foundation.

1997--Appointed member of Basic Energy Sciences Advisory Committee, 
        Department of Energy (until 2001); appointed member of Bio-
        advisory Board, National Science Foundation (served until 
        2001); appointed member of Panel on Proprietary Science and 
        Technology for the Consultative Group on International 
        Agricultural Research, and invited to testify before the Senate 
        Agriculture Committee on the National Research Initiative.

1998--Appointed to the Board of Trustees for Lindenwood University, St. 
        Charles, MO (served until 2000).

1999--Awarded the National Medal of Technology by the President of the 
        United States for contributions to the development of 
        agricultural biotechnology.

2000--Appointed to the Private Sector Committee of the Consultative 
        Group for International Agricultural Research (CGIAR).

2001--Appointed to the Board of Visitors, University of Wisconsin, 
        Madison; Appointed as a founding Editor to launch a new 
        scientific journal called Plant Biotechnology in 2002.

2002--Named as the Distinguished Alumnus of the Year, University of 
        California, Riverside.

Publications:

    Author of over 50 articles on plant biology and plant 
biotechnology.

Selected Recent Speeches:

Isadore Bernstein Symposium at the University of Michigan School of 
        Public Health, October 26th, 2001, ``Agricultural 
        Biotechnology--the information age comes to agriculture''

University of Wisconsin, Madison, March 22, 2001 ``Plant Biotechnology 
        and Agriculture''

EMBO meeting, October 16th, 1999, Prague, Czech Republic, Science and 
        Society Symposium, ``Environmental and economic impacts of 
        agricultural biotechnology''

New York Society of Security Analysts, June 3, 1999, New York, NY, 
        ``Creating Shareowner Value Through Sustainable Business 
        Development''

The Fourth Nathan Lecture on the Environment in honour of Lord Nathan 
        given by Robert B. Horsch, Ph.D., on April 6th, 1999, at the 
        Royal Society of Arts, chaired by Sir William Stewart 
        ``Economic growth sustained by sunlight and information''

Remarks prepared for seminar at Harvard University, March 23rd, 1999, 
        Boston, MA, ``Transgenic Crops: possibilities for small farmers 
        & food security in Asia''

Remarks prepared for seminar at Yale University, March 24th, 1999, New 
        Haven, CT, ``A Vision for the Future of Agriculture''

Remarks prepared for seminar at the University of California, 
        Riverside, March 4th 1998, Riverside, CA, ``Agricultural 
        Biotechnology and Sustainable Development''

Remarks prepared for the Department of Energy, Basic Energy Sciences 
        Advisory Committee meeting on February 23rd, 1998, in 
        Gaithersburg, MD, ``On the importance of plants and plant 
        science for energy, environment and economy''

Remarks prepared for the meeting on Biotechnology and Biosafety 
        sponsored by the World Bank, October 9-10, 1997 in Washington, 
        DC, ``Biotechnology and sustainable development''

Remarks prepared for the Prince of Wales Business and The Environment 
        Programme, Salzburg, Austria, September 15, 1997, ``Decision 
        and Risk''

Testimony of Robert B. Horsch, Monsanto Company, before the United 
        States Senate, Committee on Agriculture, Nutrition and 
        Forestry, March 18, 1997, ``Why investing in public research is 
        important''
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

    Chairman Smith. Thank you. Yesterday, I met with 
representatives of USDA, our regulatory review groups, Food and 
Drug, and USDA, and EPA. USDA and the Food and Drug said, 
probably, testing genetically modified agricultural products 
developed in Africa or any other place in the world, probably 
examining them for being healthy to people and animals, could 
be accommodated in this country very easily. EPA was a little 
more reluctant, thinking that maybe some of the environmental 
considerations should be actually done in place on those--in 
the countries and areas where they should be provided. Is the 
regulatory structure to develop the sample food plots and to 
help assure safety to people in the environment, how big a 
problem is that in terms of restricting, having some of the 
technology developed and implemented? Let us go right down the 
line, Dr. Conway, Dr. Kilama, and Dr. Horsch.
    Dr. Conway. Well, obviously, it is still an impediment in 
Africa. There are only a few countries in Africa that have got 
the beginnings of a regulatory system. Kenya is one, Nigeria is 
another, Uganda. I think the advice you got was probably 
correct. I think you can do the regulatory and safety testing, 
as far as human and animal health is concerned, in a single 
location, whether it be in Africa or elsewhere. I think when it 
comes to the environmental consequences of growing GM crops, 
then you do have to have a degree of local specificity, because 
one of the questions you want to ask is whether genes can flow 
from the GM crop to the wild relatives. And so if you are 
growing a crop that has got wild relatives in Africa, then you 
need to look at that much harder. If you are growing GM maize 
then, of course, it is not an issue because you don't have the 
wild relatives.
    So you have to treat each situation in its own right and 
look at what is needed, but you will need in Africa a growth of 
local regulatory and biosafety capacity.
    Chairman Smith. Dr. Kilama, is it restricting to some 
extent the implementation of it?
    Dr. Kilama. Mr. Chairman, you probably put your finger on a 
very critical issue, and let me address it this way. When I was 
growing up in Uganda, my father grew tobacco and cotton, and 
used a little bit of the Green Revolution to be able to provide 
for my education. At that time, my father did not require to 
know anything about risk assessment, didn't have to deal with 
the intellectual property issues, didn't have to deal with many 
of the issues that pertain to the food safety. And I think if 
there is one thing that we really need to pay a great deal of 
attention to, it is the regulatory issues in the continent of 
Africa, and that in itself might be one single most important 
reason why there hasn't been a considerable movement in the 
biotechnology area.
    There is not a single African country south of the Saharan 
Africa, it could include the whole of Africa, even north, that 
has really enacted any biosafety laws that have gone through 
the legislative branches where they have debated, where the 
public has some input, to be able to enact it as the law. In 
Nigeria, they are using a constitutional loophole. In Kenya, 
they are using a constitutional loophole in order to get the 
biosafety protocol for allowing for GMOs or for any genetically 
modified organisms to be tested. And my feeling is that--and I 
have been to both of those countries a great deal. I don't 
believe once, especially, in Nigeria, when GMOs begin to really 
come into the picture in terms of field testing, the population 
probably will have problems with it, and that is because a 
substantial number of the population of Nigeria hasn't really 
been brought to understand the important biotechnology. Yes, 
there are people in the government that understand that. Yes, 
there are ways in which you can actually get around it, to be 
able to try to do field testing. But until we really try to 
address the issue of regulatory, there will be problems in the 
future. Not only problems for developing biotechnology, but 
also, problems for encouraging private sectors like Monsanto 
and others to really invest in the country, which are very 
important.
    Chairman Smith. I mean, part of it, it seems to me, would 
be real in terms of examining the safety. Part of it is a 
psychological, maybe, or an emotional reaction of consumers and 
farmers being comfortable, that somehow there is something out 
there that helps give that assurance. Dr. Horsch.
    Dr. Horsch. I would just add that, first, the answer is 
yes. The slowness of regulatory system development is hindering 
the scientific research, product development, and product use. 
Solutions to it have been suggested by my colleagues. I would 
like to point out, though, that biotechnology is at its very 
beginning of what will be a very long-term future as science 
develops over the next century. And that today, we don't have 
to anticipate and regulate the entire and future area of 
technology on the backs of the very first applications, which 
are much simpler and clearer cut than the potential of anything 
you could do with biotech. And the U.S. system is very facile 
in this, starting out precautionary and then learning and 
making progress based on data and experience to move to 
deregulate aspects of this science that have proven to be safe 
in experience and data, while keeping a precautionary stance 
for things in the future that may have more risk than what we 
are using today, and that would be a very useful tool in the 
toolkit. Thank you.
    Chairman Smith. Now, Dr. Conway, you mentioned that 
recently you testified before the British Parliament. What was 
their reaction?
    Dr. Conway. This was a meeting that included both members 
of the House of Lords and members of the House of Commons, and 
also, members of the public. I think most of those who were at 
the meeting were people who were very concerned about the 
situation of food in Africa and in the developing world as a 
whole. I think they were very sympathetic to the argument that 
there is a great deal that has to be done, which includes, as 
we have heard today, fertilizers, and roads, and markets, and 
improved nutrition of the soils, but they all, I think, as I 
understood it, accepted that biotechnology had a role to play. 
It was one of the tools that needed to be used. That was the 
reaction I got from that audience.
    Chairman Smith. Let me ask a question on the African 
Agricultural Technology Foundation that you mentioned. What is 
the reaction of African scientists and political leaders to 
that effort?
    Dr. Conway. Well, this is something which has very much 
come out of the concerns of African scientists. African 
scientists, plant breeders, and others are very frustrated 
because they see difficulties in getting hold of proprietary 
technologies to do the work they want to do. And so in a sense, 
many of them came to us and said, can you help us with 
providing access to some of these technologies that are held by 
companies like Monsanto and so on? These aren't, necessarily, 
GM technologies. They can be tissue culture or even 
conventional breeding technologies that are held by western 
companies. And so it was a scientist who, basically, said, we 
would like to see this happen. And so we set up this foundation 
with support from USAID and with very warm support from 
Monsanto and other western companies. Under this agreement, 
African scientists who are trying to produce some new kind of 
resistant crop or whatever it happens to be, will say, look, to 
make this happen, I need this kind of technology. We think 
Monsanto has it or another company has it. Can you broker an 
arrangement and a legal agreement with Monsanto so that we have 
got access to this technology for us to use in Africa, not for 
us to use in the United States but for us to use in Africa?
    Chairman Smith. But I hear you saying the support is good. 
You are reacting to a need and the support is good. Dr. Kilama 
and Dr. Horsch, help us understand a little better some of the 
things that are impeding some of this research actually being 
done in Africa at African research centers. Is it equipment, 
communication, water, some of the things that are most needed 
to best stimulate more research? Dr. Horsch, why don't you go 
first, and then Dr. Kilama.
    Dr. Horsch. I think I would agree with Dr. Kilama's 
assessment of the situation. It is really all of those things. 
The strategy that we have used as a company has been to bring 
African scientists to study for a short period of time in our 
laboratories here and then continue to collaborate with them 
when they have gone back to their institutions in Africa and 
participate and support them in strengthening the institutional 
and human capacity back home.
    Chairman Smith. Dr. Kilama.
    Dr. Kilama. I think there are really no short answers to 
it, but let me try to be very brief. Africa went through a 
period between the late 1970's, up to today, where there was a 
continuous deterioration of university systems, and either 
through civil wars or through problems in terms of budget, 
productivity and so forth. And institutions, as a university, 
really are in bad shape, and I can't emphasize this more than 
what I am saying today. Whether you go to Makerere University, 
which was one of the premiere universities in Africa in the 
1960's, from just a simple thing as books, journals, current 
journals--I recently went to Uganda. There is a small company 
called--I think it is called Medical Product, run by two 
individuals. They have better facilities--and these are just 
run by two people--better facilities than the Department of 
Biology, Department of Chemistry at Makerere University.
    There is no access to the world, to the greater people, in 
terms of understanding what are some of the current things 
going in research. And the problem to me is just so enormous, 
and I don't have any, really, way on how we can be able to 
bring this back in----
    Chairman Smith. In onus, in both talent and equipment?
    Dr. Kilama. In terms of talent, in terms of standards. 
Standard, for example, is a big issue in Nigeria. If you take a 
look at the University of Ibadan, take a look at Bello 
University in the northeast, the standard university in Africa 
is simply very poor right now. That is the best I can say. 
There are a few individuals who come out of there, most of them 
go overseas. Really, the problem is equipment, access to 
communications, having tools that they can use and the pay.
    Chairman Smith. So how can we--for all three of you, how 
can we--what is necessary to encourage additional funding for 
research in Uganda, Zimbabwe, other countries, Dr. Conway, in 
expansion of this?
    Dr. Conway. In the 1990's, the Rockefeller Foundation 
supported the training of 300 to 400 Asian scientists in 
biotechnology. There are now over 1,000 biotechnologists in 
Asia producing new varieties. In China, there are several 
hundred new biotechnology varieties in the pipeline. That is 
what we did over 10 years. We have started to do this in 
Africa. I was at a meeting in Entebbe in Uganda in November 
with 100 African biotechnologists and plant breeders all giving 
papers at the cutting edge of biotechnology and breeding. It 
was very impressive. But as for the whole country, we just need 
to multiply that, and it is a big ``just.''
    In particular, I would like to see more funding going to 
USAID. USAID used to be the great funder of agricultural 
research in developing countries. It is doing much more now 
under Dr. Natsios. But the more funding that can go toward the 
training of people in biotechnology in Africa and to the 
training and to the development of their research capacity, as 
Dr. Kilama said, and to giving them money when they go back to 
Africa to do the research, and fellowships for their Ph.D.'s, 
that is one of the most important things that you could 
encourage, sir.
    Chairman Smith. Is Rockefeller one of the largest 
foundations involved in this effort of agriculture? What would 
be the top three or four foundations that are contributing to 
the agricultural----
    Dr. Conway. In terms of agricultural development, it is, 
basically, ourselves. The McKnight Foundation does a bit, but 
basically, in agriculture, it is just us.
    Chairman Smith. I serve on three committees in Congress. 
One is International Relations, one is Science, and then, of 
course, Agriculture. And so in all three areas, I have been 
pushing one thing, and that is that research and development of 
more efficient use--of using less fertilizer, particularly, 
nitrogen. Of course, our nitrogen fertilizer in this country 
is, primarily, natural gas. We use about--we are at around 6 or 
7 percent--5, 6, 7 percent of our natural gas in this country 
is used to produce nitrogen fertilizer. It is one of our prime, 
first choice, supplies of energy. So I put nitrogen fixation in 
the agricultural bill for research and the science bill for 
research, and the Department of Energy bill for research.
    And it just seems to me tremendous potential if we pursue 
it with enough vigor to have the kind of legumes and nodules 
not only on the existing legume plants of the clovers and the 
soybeans or whatever, but to also look at the possibility of 
nitrogen fixation capabilities in some of the other plants that 
could so significantly improve the production in Africa or 
anyplace else in the world. Are any of you aware of anything 
being done? When you mention in your testimony plants that can 
get along with less fertilizer, what are you talking about? I 
think it was you, Dr. Horsch, that might have mentioned it.
    Dr. Horsch. Yes. The ability to scavenge rare fixed 
nitrogen from the soil is something different plants do better 
or worse. And there are biochemical tools that should be 
discoverable and usable to increase the ability of a plant like 
corn to find and absorb lower concentrations of nitrogen than 
it is capable of today, and that means that you can increase 
the efficiency of fertilizer use. You can apply lower rates and 
still get good yields. A second area I will just mention is the 
use of nitrogen fixing plants themselves as green fertilizers 
or green manures, which can be combined with fertilizers with 
No-till, with other practices and biotechnology, to bring a 
more efficient source of nitrogen at lower levels as well.
    Chairman Smith. We sent you some of my draft legislation on 
coordination and to have better information of Americans over 
in these other countries to start more capably spreading the 
word on accurate scientific information on the potential and 
safety. Have you reviewed it, would you support such 
legislation, Dr. Conway, Dr. Kilama, Dr. Horsch? Would that 
help? Can you come up with any suggestions to improve it?
    Dr. Conway. I think that first of all, it is very important 
that these debates that we have been hearing about this morning 
are conducted on the basis of science, so the more that is out 
there which relates to the real truth about these contentious 
issues, the better it will be. However, I would want to couple 
that with the points that we have been making, particularly, in 
this session, is that the most important thing in Africa is to 
build up the African staff in biosafety, in regulation, in 
biotechnology, so Africans can make much better decisions for 
themselves.
    Chairman Smith. So what I hear you saying is acceptance is 
not a problem, but it is. I mean, if you accept it and you know 
more about it, you are going to move ahead quicker, I suppose. 
Dr. Kilama.
    Dr. Kilama. I, actually, welcome it very wholeheartedly, 
Mr. Chairman, because one of the problems I have observed in 
Africa, in particular, is there are so many programs that are 
coming in from various sources, whether it at EU, in the U.S., 
from Asia, and there is a little bit of confusion within the 
Africans because there is so much redundancy in some of the 
programs that are being provided, and it actually has created a 
little bit of a problem in itself. And what I see as this bill 
doing is streamlining the process in which the U.S. Government 
provides support to Africa.
    And I may want to add one more thing to the bill, and that 
is to actually encourage coordination of assistance that is 
being provided by the various agencies, and I am not in the 
government so I don't know how much they talk among each other. 
But at least sitting from the outside, I see that there are so 
many programs that could have been combined so there is no 
redundancy. And in fact, in a way, it might save us a lot of 
money if that is being coordinated by a group like the one you 
are proposing. So I am really very much in support of that bill 
and I believe it will do some good in terms of providing that 
opportunity for explaining biotech or streamlining the kind of 
assistance that would be provided for Africa in biotechnology.
    Chairman Smith. Dr. Horsch, and maybe add to your response 
who should be the lead agency. Should it be Agriculture that, 
at least by name, is certainly involved with agriculture? Or in 
the draft legislation we wrote in the State Department, but it 
could very well be the Department of Agriculture.
    Dr. Horsch. Well, that is a hard question. I would 
definitely support your ideas in that bill and think it is a 
great idea. I have seen other examples of the interagency 
cooperation that have been very effective and helpful. I would 
like to just point out that NSF is probably the world's best, 
along with NIH, at competitive grants management, using 
reasonable amounts of money to very cost effectively and 
facilely focus attention on the most productive ideas. They are 
just second to none in the world. But they do lack a certain 
experience with application and with translating into farmers' 
fields and agriculture. USAID has that, in part, as their 
mission, and they are actually very good at getting things on 
the ground and out in farmers' fields, but they lack a certain 
facility with sort of rapid movement of competitive grants that 
could go to address some of the needs that we have heard. And 
if there was a way to kind of marry the two capabilities 
together to get this technology out to serve farmers' needs in 
farmers' fields more rapidly, I think that would just be a 
brilliant outcome.
    Chairman Smith. Any other comments on the lead agency?
    Dr. Kilama. I think we have got to look at biotechnology in 
two ways; one is research, one is politics. And at the moment, 
I think politics is very, very much out front, and I think an 
agency that understands the political world will also be very 
useful. At the same time, an agency that understands the need 
on how to bring this technology to the farmers would be 
important. So if I was going to really have a vote, maybe a co-
chair between the Department of Agriculture as well as the 
State Department, because a lot of the things that we are 
discussing here have a lot of political implications to them. 
Socioeconomic issues and some of these things are better 
addressed at a political level as well as at the research or 
product level.
    Chairman Smith. Any comments or shall I go to the next 
question? I am not going to--you folks haven't eaten probably, 
and I am dedicated to being thinner so I might go on too long. 
A report released yesterday by the Nuffield Counsel on 
Bioethics, a policy group of the European Commission, actually 
suggested that maybe Europe's trade policies were hindering the 
advancement of biotechnology development in the world that 
could especially help developing countries. I mean, to me, it 
was maybe the beginning of an opening up of better information, 
better understanding, in the European community of the 
consequences of them being so dedicated to keep out any 
genetically modified products. Any reaction that the three of 
you might have?
    Dr. Conway. Can I--if you don't mind, sir, if I can just 
correct you a little? The Nuffield Counsel on Bioethics is an 
independent body set up by the Nuffield Foundation. The 
Nuffield Foundation is a bit like the Rockefeller Foundation, 
so it actually has no relationship to the European Union except 
it is in the geographical mass called Europe. So I don't 
think----
    Chairman Smith. Aw, shucks.
    Dr. Conway. My apologies, but I think it is important to 
make that clear. This is an independent body, which has come 
out yesterday with an extraordinarily good statement. By the 
way, there was also yesterday a statement by the International 
Council on Scientific Unions, which has made the statement 
that--it is in the Financial Times yesterday, so I am only 
quoting from that, which has made a similar strong statement 
about the role of GM crops and GM foods. I think it is very 
important when looking at Europe to distinguish between the 
European Union, European governments, activist organizations, 
and the general public. Europe is like the United States; it is 
a very complicated place, and one has to understand the 
different components that are in there.
    Chairman Smith. I am not sure, but it is certainly a 
challenge where we go. I mean, emotion can be so significant in 
restricting trade development. Greenpeace is very aggressive in 
suggesting the precautionary principle that something might 
happen later on, and so they sort of put science aside for the 
moment. But also, they become very--it seems to me very liberal 
with their interpretation of some of the testing that has gone 
on, whether it is the monarch butterfly or other problems that 
has been achieved. And somehow, there just needs to be a better 
understanding of the traditional crossbreeding and hybrid 
breeding that that also has dangers when you come up with 
25,000 genes of two different plants and mate them together, 
you can end up with a lot of bad characteristics, sometimes 
dangerous characteristics. And being precise and understanding 
the results of taking one gene and folding it in, and the 
protein influence, it seems to me that Bt, for example, is now 
simple enough, and maybe that is not the right word, but that 
we could apply it in so many different products to help in 
different Bt's that are more effective in dealing with some of 
the specific problems and some of the specific plants. And Dr. 
Horsch, just your comments. It seems like the gates are just a 
little bit open and somehow we need to learn to open them the 
rest of the way.
    Dr. Horsch. Bt is a really interesting set of organisms. 
There are actually thousands of varieties of bacillus 
thuringiensis, which make proteins that control different kinds 
of insects. And we discovered and used ones for both 
caterpillars and certain kinds of beetles. Other labs have 
found ones that will control mosquitoes. Our newest product in 
the market controls the corn root worm, which is a different 
insect than the corn borer, and they are very different but 
both Bt genes. It is, as you point out, a very facile area of 
technology. And this diversity is all existing in nature for us 
to discover and put to use.
    Chairman Smith. What I would like to do is not keep you any 
longer, but let me ask each one of you to take a minute or two 
to conclude any comments that should be passed on to this 
subcommittee and our full Science Committee. So just sort of do 
a wrap-up, if you will, of any other thoughts that maybe we 
should be considering, and we would also ask you that you allow 
us and staff to send you some of the questions that we haven't 
asked today. And so as far as a wrap-up, Dr. Conway, then Dr. 
Kilama, then Dr. Horsch.
    Dr. Conway. Let me say, I think what is important is to 
understand that we are at the beginning of a decade long 
program here for Africa. That is the kind of time span that we 
have to be thinking of. This is what we have learned in our 
work in Asia to develop the role of biotechnology and food 
security, along with the other tools that are necessary. Keep 
stressing that. And anything that this Congress can do, 
anything that this Government can do, anything that American 
scientists, and American universities, and American private 
companies like Monsanto, can do to make that happen is going to 
be welcomed.
    What it is going to take is people on the ground, Africans, 
and there are beginning to be a number; there needs to be more. 
What it is also going to take is the development of research 
capacity in the universities, and I don't just mean applied 
research. I mean, pure research, microbiology and other such 
departments in African universities. That is what we have seen 
as being most valuable in Asia. And in particular, it is going 
to mean a real partnership. It is going to mean bringing 
American, European scientists, together with African 
scientists, to crack this problem in partnership. And in 
particular, it is going to mean public-private partnerships of 
a kind like African Agricultural Technology Foundation, where 
you have got a foundation like ourselves, you have got 
companies like Monsanto, you have got the U.S. Government like 
USAID. That is the model for the future, and anything you can 
do in this committee to further that kind of model for Africa 
is going to be extraordinarily valuable. Thank you, sir.
    Chairman Smith. Dr. Kilama. Thank you, Dr. Conway.
    Dr. Kilama. I wanted to quickly respond to one thing before 
I make my final remark, and that is Greenpeace came out in this 
discussion in a variety of ways, and I have been troubled quite 
a bit as I discuss a lot of these issues in many radio stations 
in Africa why there is very little response to Greenpeace or to 
some of these organizations that are really damaging in terms 
of wrong information to the African people. And today, I am 
still troubled, why we haven't responded very strongly in terms 
of answering these people, word by word, or case by case. And I 
hope the Committee can at least look at ways in which we can 
address some of these issues pertaining to misinformation.
    I believe what the Committee can really do is to look at 
Africa not in just one single issue. There is a very major 
problem in that continent that we really have to take a very 
close look and look at it from a global perspective. We have to 
look at why Asia, some of the countries in Asia, have moved far 
away from Africa, and yet, 30 years ago, many of them were at 
the same level. I think the problem really has to do with the 
way that many of these governments are running the institutions 
in Africa. There are no credible institutions in Africa that 
can stand up to some of the problems that might be created by 
government. I think we have to look at how we provide 
assistance to Africa.
    If we simply want to provide a quick fix to certify maybe 
some response to pressure groups, we will be here 20 years from 
now talking about the same issues. But if we look at the issue 
in terms of long-term process, building up the institutions, 
creating conditions in which the private sector can really 
flourish in Africa, and my view is very strong on this. The 
only way Africa is going to provide security for the food is to 
create a lot of private sector development in Africa, and there 
is no way out of this. Government cannot do it. The only way we 
can really solve the problem is to create the conditions in 
which the private sector can be able to flourish in Africa, 
investment from the private sector. And if we can address that 
issue, I think we will not be talking about it in 10 years.
    Chairman Smith. Very good. Dr. Horsch.
    Dr. Horsch. Thank you, Mr. Chairman. I would just like to 
reiterate the concept of partnerships. I think that is at the 
heart of what is needed and what will work. If you go to the 
dictionary, partnership has three different aspects: a common 
vision among the parties. Here, I think we all agree that 
farmers' success, good nutrition, and adequate food, and 
environmental conservation are a common vision for agriculture 
around the world.
    The second component is sharing with each other, and 
biotechnology, in particular, is relevant to the sharing 
concept. Because it is an information technology, rather than a 
material or energy based technology or product, it can be 
shared without being used up. For energy, for chemistry, for 
tractors and such, if you share them, or use them, you consume 
them. Whereas, information technology, like biotech built in a 
seed, it can be propagated and shared without consumption.
    And lastly, is cooperation with clear responsibilities, and 
I think we have heard today some mechanisms for both 
understanding and strengthening the different roles and 
responsibilities in the private sector, the public sector, and 
the public itself has to play in this process. Thank you.
    Chairman Smith. Gentlemen, we are grateful for your time, 
for your expertise. On behalf of the Congress, our compliments 
for your achievements, and with that the Subcommittee is 
adjourned.
    [Whereupon, at 1:15 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Rita R. Colwell, Director, National Science Foundation

Q1. LAt the hearing, Congresswoman Johnson asked, ``How do your 
agencies interact with non-governmental organizations that support 
research and development and capacity-building activities in Africa 
that are relevant to applications of plant biotechnology? What are some 
examples of such collaborations?'' Could you please give some specific 
examples of interaction with non-governmental organizations? Can you 
give us specific names of programs or institutions you have been 
working with?

A1. Three examples are provided of recent interactions with NGO's that 
support research and development and capacity-building activities 
relevant to the application of plant biotechnology.
    In FY 2003, NSF staff met with Executive Director and other staff 
of AfricaBio, an NGO based in South Africa that works with university, 
government, corporate and community stakeholders to promote the safe, 
ethical and responsible application of biotechnology. There are plans 
for NSF staff to meet with this group again in South Africa this summer 
to further explore ways of strengthening NSF support for collaborative 
research in the area of biotechnology in Africa.
    NSF is part of an interagency group (including USDA and NIH) that 
funds several African-based International Cooperative Biodiversity 
Groups (ICBG's). These projects, one based in Cameroon and Nigeria and 
the other in Madagascar, combine chemical exploration of plants for 
agriculturally and/or pharmaceutically valuable compounds with 
biodiversity conservation and economic development. Each project 
involves one or more NGO's. In the Cameroon and Nigeria project, for 
example, NSF support helps fund the participation of Bioresources 
Development and Conservation Programme (BDCP), an NGO that undertakes 
capacity building for bioprospecting, biodiversity conservation, and 
natural products chemistry for agriculture and pharmaceuticals.
    More broadly, NSF's work to bring the latest genomics research to 
scientists in the developing world has included working with the 
Rockefeller Foundation on the International Rice Genome Sequencing 
Project (IRGSP), and with several CGIAR Centers (Consultative Group on 
International Agricultural Research) on the global Musa (banana and 
plantain) genome, and on cereal crop genomes (e.g., corn, rice, and 
wheat).

Q2. LDescribe, including funding level, the current NSF programs that 
support U.S. scientists to do research in the area of plant 
biotechnology at institutions in Africa. For the most recent year for 
which data is available, and for the two preceding years, how many U.S. 
scientists participated in such programs, and what were the U.S. and 
foreign institutions involved?

A2. NSF-funded U.S. scientists are conducting research in areas 
relevant to plant biotechnology with institutions in Africa:
    FY 2003: Several relevant awards for this fiscal year have not yet 
been finalized. Although details are not yet available, we can indicate 
that several awards are being recommended for FY03, to include 
activities such as joint research projects, support for African 
graduate students to attend a genomics meeting, and funds to send U.S. 
scientists to a scientific meeting in Africa. NSF/BIO (the Division of 
Environmental Biology) also contributed approximately $170,000 total to 
the two Africa-based International Cooperative Biodiversity Group 
(ICBG) projects that conduct chemical exploration of plants for 
agriculturally and/or pharmaceutically valuable compounds.
    FY 2002: NSF's Office of International Science and Engineering 
provided $26,400 in support of an international meeting in South Africa 
that focused on an important plant pathogen, bacterial wilt. NSF funds 
supported twelve U.S. scientists or students to attend the meeting, 
which was also attended by twenty-two Africans from six nations. NSF 
(the Division of Environmental Biology) contributed approximately 
$170,000 total to the two Africa-based ICBG projects that conduct 
chemical exploration of plants for agriculturally and/or 
pharmaceutically valuable compounds.
    FY 2001: NSF (the Division of Environmental Biology) contributed 
approximately $170,000 total to the two Africa-based ICBG projects that 
conduct chemical exploration of plants for agriculturally and/or 
pharmaceutically valuable compounds.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

             Statement of Thembeitshe Joseph (TJ) Buthelezi

                   ``Biotechnology in South Africa''

    My name is Thembeitshe Joseph Buthelezi (TJ), Thembitshe means 
Trust the Rock. My father said that I must not trust man, but the rock. 
I am from Northern Kwa-Zulu Natal in South Africa, next to the border 
of Mozambique and Swaziland--a place called the Makathini Flats. A hot, 
dry but fertile land where thousands of farmers grow cotton and corn to 
earn a living.
    I am the chairperson of Hlokohloko Farmers Association which has 
350 members. Our association is part of a larger farmers union called 
the Ubongwa farmers Union comprising 5000 members. Ubongwa is an 
umbrella body consisting of 50 farmers associations and meets once a 
month to discuss issues and address farmers' problems like market 
issues, cotton lint prices and seed varieties. When we want to talk to 
different supply companies or to government officials, or to forward 
information to our farmers, we do so under the banner of Ubongwa. I am 
also the chairperson of Ubongwa.
    Cotton has been planted in the Makhatini for more than 40 years, 
and I have been farming it for 20 years. Now about 5 years back while I 
was preparing for our monthly meeting as usual, I was approached by a 
seed company's representative asking for an opportunity to introduce a 
new technology seed to our farmers which he said will improve yield 
while reducing input costs. Of course I was very much impressed to hear 
such good news and I put it on our monthly agenda. And when he came he 
gave his presentation, which was very nice. But farmers did not believe 
him, because they thought such technology would not work--and it was 
also more expensive than conventional seed.
    However as a leader, I decided to take a risk and try the seed, 
because there is a quote that goes `that the greatest risk in life is 
to risk nothing. And a person who risks nothing does nothing, achieves 
nothing and has nothing to tell.' And I said to myself if this seed 
does not work, I would tell the farmers it does not work. And if it 
works, I will tell them that it works and that they should try it. 
Therefore I bought one 25kg bag of the new cotton seed called Bollgard 
Bt cotton.
    I planted 10 lines along side of my other cotton field and it did 
not take me long to realize I had made a mistake by planting only ten 
lines. The ten lines were much better than the other cotton on the 
field and I had sprayed very little pesticide. Come harvesting time, I 
harvested ten lines on Bt and ten on conventional cotton and the yield 
of Bt cotton was more than double.
    The following season I planted 2 hectares of non-Bt and 2 of Bt 
cotton. That year we had a flood disaster and it rained for three 
months non-stop. I could not spray my fields because the chemicals 
would have been washed off by the rain. On the conventional cotton I 
remember I used to watch bollworms feeding on my plants but could do 
nothing about it. Sometimes I felt like crushing the bollworms with my 
own hands! But on the Bt side everything was fine. The cotton was 
growing nicely with no bollworm damage. It was amazing.
    When I went to monthly meetings the farmers cry was that we were 
not going to harvest anything that season. On the one hand, the non-Bt 
crop, I agreed with them, but on the other hand I was very happy with 
the Bt crop. When harvest time came, I made 12,7 on the Bt side and 
only three bales on non-Bt cotton--and even this cotton was not of good 
quality. The other farmers asked me how I managed to get 16 bales while 
the situation was so bad. I told them that Bt cotton made it happen.
    When the next season came I increased my cotton hectares from 4 to 
8 and planted it all Bt cotton. I was surprised to see how much easier 
the Bt cotton was to grow and how I had to spend less time on the 
fields. I remember I used to go to the fields with other farmers and 
find that I had much less to do and could sometimes go under a tree 
enjoy the fresh air, while other farmers on each side of me were busy 
spraying and sweating in the sun. And when it came to harvest time 
again, I got more bales than they did. This time from 15 to 17 bales 
per hectare, while they were making only 6 to 8 bales per hectare. That 
encouraged me again to increase my hectares from 8 to 12. This season, 
seeing again that I harvest better yields with less inputs, I have 
decided to go for 25 hectares. I have enough time to do that size of 
land, maybe even more, and I am busy clearing the bush in preparation 
for the planting season. This is only possible for me because of Bt.
    The benefits I get from Bt are the reduction of sprays from 10 to 
2, and increased yield from 8 to 17 bales per hectare. The only sprays 
I use are the lighter less toxic chemicals--I can even see more frogs 
and bees in my fields, and no more dead birds. As a result of these 
benefits, over 90 percent of the farmers in the Makhathini now grow 
Bollgard Bt cotton.
    Let me say this one thing: We were not pushed to this improved 
seed, but we were attracted by the benefits. Bt cotton will also have 
an impact on improving South Africa's cotton production, because the 
country only meets about 55 percent of its needs and has to import the 
rest. The rest of Africa really wants to boost cotton production so 
that they can export cotton bales and also develop their own textiles 
especially since AGOA encourages them to export textiles to the United 
States. African farmers want freedom to grow any crop of their choice 
and have access to the best available technology. I support a free 
environment for growing and trading in biotech crops. Countries in 
Africa should be encouraged to use these improved crops because farmers 
will improve yields and make more money to improve their lives. That is 
what all farmers want. It is very unfortunate that some African 
countries are scared of using biotech because of the pressure and 
negativity from Europe.
    We in the Republic of South Africa have decided to move strongly 
forward with biotech and we encourage other African farmers and 
countries to do the same.
    Thank you.

            An African Agricultural Biotechnology Portfolio

Portfolio Sector Items

Biofortification

Biotechnology Assisted Development, Deployment and Nutritional Efficacy 
        Testing of High Mineral Beans to Combat Anemia in East Africa--
        East Africa--IFPRI

Development of Vitamin A enhanced maize for Africa--Pan African--
        Monsanto, Iowa State
Disease and Pest Control

West African Cacao: A Coordinated Biotechnology-Based Program to Breed 
        Cacao for West Africa--West Africa (Nigeria, Ghana, Cameroon, 
        Cote d'Ivoire--USDA

Capacity-Building in Cassava Biotechnology in Africa--Nigeria, Ghana 
        Kenya--Danforth Cente

Biotechnology for Cowpea Improvement in Africa--Nigeria--UC-Davis, IITA

Preparation of Infrastructure for Extended Field Testing of Recombinant 
        Rinderpest Vaccines--Kenya--UC-Davis

USAID/SADC Heartwater Research Project--Pan African--University of 
        Florida

Development of Transgenic Papaya Resistant to Papaya Ringspot Virus for 
        the Lake Victoria Region of Africa--USDA

Biotechnological Approaches to Improved Banana Production in Eastern 
        Africa--INIBAP

Agricultural Biotechnology Support Project II--regional research 
        projects in East, West and Southern Africa--Cornell University

South Africa supported research projects--indigenous buchu crop, 
        apricot rootstock, livestock diseases

Uganda supported projects--insect, weevil, nematode resistant bananas

Kenya supported projects--virus resistant sweet potatoes, maize 
        resistant to storage pests, livestock diseases

Nigeria supported research projects--cowpeas, cassava

Zambia supported projects--specifics to be determined

Mali and Mozambique--will support biotechnology research projects--
        specifics to be determined
Biosafety

Developing an ASARECA Program in Biotechnology and Biosafety

WECARD/CORAF: Biotechnology Capacity Building in West Africa

Risk Assessment for Genetically Modified Cowpea in Africa

Assessment of Ecological Impacts of Introducing GE Crops into Africa

SARB: Southern African Regional Biosafety Program

PBS: Program for Biosafety Systems--regional approach to biosafety in 
        East, West and Southern Africa--ISNAR, IFPRI

Biosafety programs thru bilateral programs in Uganda, Kenya, Mali, 
        Mozambique, Nigeria
OTHER--IMPACT ASSESSMENT, PUBLIC OUTREACH

Assessment of the Potential Impacts of Agricultural Biotechnology in 
        East Africa--IPPRI, Purdue University

Biotechnology for International Agricultural Development--public 
        outreach with Tuskegee University

Agricultural Biotechnology Support Project II--economic analysis to be 
        done by Cornell University

     U.S. Universities Working with USAID on Agriculture in Africa

        LUniversity of California at Davis

        LCornell University

        LUniversity of Florida

        LMichigan State University

        LOhio State University

        LPurdue University

        LTexas A & M University

        LTuskegee University

        LVirginia Polytechnic Institute

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
